<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2017 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-658, Part 4]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 114-658, Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                       MARCH 8, 16; APRIL 5, 2016
                       
                       
                       
                       
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
  
  
  


         Printed for the use of the Committee on Armed Services
         
         
         
         
         
         
         
         

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
       2017 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 4  AIRLAND
       
       
       
       




                                                 S. Hrg. 114-658, Pt. 4
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                       MARCH 8, 16; APRIL 5, 2016

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
        
        
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-824 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001         
  
  



                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman          JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                 BILL NELSON, Florida
JEFF SESSIONS, Alabama                    CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi              JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire               JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                     KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                      RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota                 JOE DONNELLY, Indiana
JONI ERNST, Iowa                          MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina               TIM KAINE, Virginia
DAN SULLIVAN, Alaska                      ANGUS S. KING, JR., Maine
MIKE LEE, Utah                            MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                                     
                      Christian D. Brose, Staff Director
                      Elizabeth L. King, Minority Staff Director
                                     
                                     
                                ____________
 
                        Subcommittee on Airland

TOM COTTON, Arkansas, Chairman           JOE MANCHIN III, West Virginia
JAMES M. INHOFE, Oklahoma                CLAIRE McCASKILL, Missouri
JEFF SESSIONS, Alabama                   KIRSTEN E. GILLIBRAND, New York
ROGER F. WICKER, Mississippi             RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota                JOE DONNELLY, Indiana
JONI ERNST, Iowa                         MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                     MARTIN HEINRICH, New Mexico
MIKE LEE, Utah                       
 
                                  (ii)
                                  
                                  


                           C O N T E N T S

                               ______

                             March 8, 2016

                                                                   Page

Air Force Modernization..........................................     1

Costello, Darlene J., Acting Assistant Secretary of the Air Force     4
  for Acquisition; Accompanied by: Lieutenant General Arnold W. 
  Bunch, Jr., USAF, Military Deputy, Office of the Assistant 
  Secretary of the Air Force for Acquisition; Lieutenant General 
  James M. Holmes, USAF, Deputy Chief of Staff for Strategic 
  Plans and Requirements; Lieutenant General John W. Raymond, 
  USAF, Deputy Chief of Staff for Operations.

                             March 16, 2016

Army Unmanned Aircraft Vehicle and Air Force Remotely Piloted        43
  Aircraft Enterprises.

Carlisle, General Herbert J., USAF, Commander, Air Combat Command    44
Perkins, General David G., USA, Commanding General, U.S. Army        50
  Training and Doctrine Command.
Farrell, Brenda S., Director, Defense Capabilities and               55
  Management, Government Accountability Office.

                             April 5, 2016

Army Modernization...............................................   105

Williamson, Lieutenant General Michael E., USA Military Deputy      109
  and Director, Army Acquisition Corps, Office of the Assistant 
  Secretary of the Army for Acquisition, Logistics, and 
  Technology.
McMaster, Lieutenant General Herbert R., Jr., USA Director, Army    119
  Capabilities Integration Center; Deputy Commanding General, 
  Futures, United States Army Training and Doctrine Command.
Anderson, Lieutenant General Joseph, USA Deputy Chief of Staff of   120
  the Army (G-3/5/7).
Murray, Lieutenant General John M., Deputy Chief of Staff of the    120
  Army, G-8.

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, MARCH 8, 2016

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                        AIR FORCE MODERNIZATION

    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Tom Cotton 
(chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Cotton, McCain, 
Inhofe, Wicker, Rounds, Ernst, Lee, Manchin, Blumenthal, and 
Donnelly.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. This hearing will come to order.
    The Airland Subcommittee meets today to consider Air Force 
modernization in the context of review and oversight of the 
fiscal year 2017 defense budget request.
    I welcome our witnesses, Acting Assistant Secretary of the 
Air Force for Acquisition, Ms. Darlene Costello; the Military 
Assistant to the Secretary of the Air Force for Acquisition, 
Lieutenant General Arnold Bunch; Deputy Chief of Staff for 
Strategic Plans and Requirements, Lieutenant General James 
Holmes; and Deputy Chief of Staff for Operations, Lieutenant 
General John Raymond. Thank you all for your service and we 
appreciate your testimony here today.
    At $18 billion less than last year, the President's defense 
budget request for this fiscal year is disappointing. The 
President has submitted five budgets since 2011. Each budget 
has under-resourced the military, while the President has also 
portrayed the world as safer than it was when he took office or 
asserted that the U.S. needed to step back from the world 
stage. The current budget request has rhetorically acknowledged 
an increase of worldwide threats and that our military's 
capabilities are eroding. However, it still conforms to 
arbitrary budget caps put in place five years ago.
    This is nowhere more apparent than in the Air Force 
modernization program. Atop the service's priorities are the F-
35A next generation fighter aircraft, the KC-46A air refueling 
tanker aircraft, a replacement for the legacy KC-135, and the 
B-21 long-range strike bomber. While all three are needed, the 
focus on these three priorities could put at risk modernization 
in future years and gives our priorities the appearance of 
being somewhat unfocused.
    For example, they are the highest priority. The President's 
budget cuts procurement of five F-35A fighters. Further, it 
cuts modernization of F-15 fighter aircraft and reduces 
procurement of C-130J aircraft by $724 million.
    Unfortunately, unlike the other services, the Air Force did 
not grow much during the post-9/11 buildup. Rather, it got 
smaller as older aircraft were retired and replacement 
programs, such as the F-35, experienced excessive delays in 
bringing new aircraft into the fleet. For example, air 
superiority is overwhelmingly being supported by the F-15, 
which makes up 71 percent of air superiority platforms but has 
consumed over 90 percent of its estimated 30-year service life. 
The eventual retirement of 438 F-15's in the fleet and the 
replacement by only 177 F-22's, with eventual support from the 
F-35, is a serious gamble.
    We cannot afford to assume that the enemy will resemble 
threats of recent wars, nor can we assume that future fights 
will not require greater numbers of advanced aircraft. We have 
to be ready to fight tonight on any battlefield and with any 
foe. The current investment strategy is too risky and will 
prove only to be riskier in the near future.
    To that end, in January of this year, the Center for 
Strategic and International Studies released a report detailing 
the impending modernization bow wave for the DOD [Department of 
Defense]. When you also include all the other Air Force 
modernization imperatives, the annual price tag for this wave 
peaks in 2023 at nearly $35 billion and accounts for more than 
half of the entire DOD's investment wave.
    Yet, modernization, particularly capability and capacity, 
cannot be placed at odds with readiness or other needs. Simply 
reducing quantities of other aircraft, retiring legacy systems, 
or deferring modernization on other programs will not achieve 
the Air Force the Nation needs for the next fight. Increasing 
the top line of defense spending is the only solution that will 
ultimately blunt the bow wave and achieve the concurrent 
capability and capacity we need.
    After that, we should next consider fencing off funding for 
platforms and systems crucial to the Nation's nuclear deterrent 
and maintaining the nuclear triad. Second, we should continue 
investment and procurement of next generation technologies to 
build capability while also maintaining and upgrading the 
legacy fleets to preserve capacity. Both are essential to 
preserving America's global dominance of the skies.
    Again, I want to thank our witnesses. We look forward to 
your testimony.
    Senator Manchin?

              STATEMENT OF SENATOR JOE MANCHIN III

    Senator Manchin. Thank you, Mr. Chairman.
    Mr. Chairman, I want to extend the welcome and thank each 
of our witnesses for appearing before this subcommittee today.
    I also want to thank each of you representing the men and 
women of the armed forces for the wonderful jobs they are 
performing in Afghanistan and all around the world. We keep all 
of those who are serving right now in our thoughts and prayers 
and also remember that both they and their families are serving 
and sacrificing every day.
    Our witnesses this afternoon face huge challenges as they 
strive to balance the need to support ongoing operations and 
sustain readiness with the need to modernize and keep the 
technological edge so critical to military success.
    These challenges have been made particularly difficult by 
the spending caps imposed in the Budget Control Act, caps that 
were relieved somewhat for fiscal year 2016 and 2017 in the 
Bipartisan Budget Act of 2015 that we enacted late last year.
    However, these caps are scheduled to resume again in fiscal 
year 2018 and beyond. Unless modified for years after fiscal 
year 2018, they will threaten our long-term national security 
interests.
    Every year we are challenged to make decisions balancing a 
number of competing demands for resources, including resources 
for current operations and investment in future modernization. 
In this case, we will be assessing plans and programs regarding 
the current status and future prospects for tactical aviation 
programs. Again, this year, the Air Force is proposing further 
reductions in the future years defense program, including 
eliminating the entire A-10 aircraft fleet.
    The Air Force awarded the long-range bomber, the LRS-B, 
contract last fall. The Air Force has named the bomber the B-
21. The award just came through the protest with the Government 
Accountability Office, GAO [Government Accountability Office], 
denying the protest. The Air Force awarded a contract that 
provides for a cost plus incentive fee structure for the 
engineering and manufacturing development phase of the program, 
with fixed price contracts for production. I know that Chairman 
McCain has taken exception to this contracting approach. I look 
forward to hearing from our witnesses about why they think the 
Air Force plan represents the best value for the taxpayer.
    There are several other force structure adjustments that 
are of concern. The Air Force plans to eliminate six Compass 
Call EC-30H aircraft in fiscal year 2019. There are other 
reductions, including the AWACS [Airborne Warning and Control 
System] and JSTARS [Joint Surveillance Target Attack Radar 
System], that are planned for later in the future years defense 
program. While there is a plan to recapitalize the JSTARS with 
new aircraft and a radar program, I am concerned that the Air 
Force plans to retire aircraft like AWACS and Compass Call with 
no planned replacement in sight.
    There are a number of other issues that we may discuss, but 
in the interest of time, I am going to stop here.
    Again, I want to thank our witnesses. I look forward to 
hearing your testimonies.
    I want to thank you again, Mr. Chairman, for this hearing.
    Senator Cotton. Thank you, Senator Manchin.
    Ms. Costello?

STATEMENT OF DARLENE J. COSTELLO, ACTING ASSISTANT SECRETARY OF 
   THE AIR FORCE FOR ACQUISITION; ACCOMPANIED BY: LIEUTENANT 
GENERAL ARNOLD W. BUNCH, JR., USAF, MILITARY DEPUTY, OFFICE OF 
   THE ASSISTANT SECRETARY OF THE AIR FORCE FOR ACQUISITION; 
LIEUTENANT GENERAL JAMES M. HOLMES, USAF, DEPUTY CHIEF OF STAFF 
 FOR STRATEGIC PLANS AND REQUIREMENTS; LIEUTENANT GENERAL JOHN 
     W. RAYMOND, USAF, DEPUTY CHIEF OF STAFF FOR OPERATIONS

    Ms. Costello. Chairman Cotton, Ranking Member Manchin, 
members of the committee, thank you for your continued support 
of the U.S. Air Force, our airmen, and their families. We 
welcome today's opportunity to discuss the Air Force's current 
and projected operations around the world, our plans for the 
modernization of key Air Force weapon systems, and to allay our 
concerns regarding the programmatic impacts that budget 
uncertainty brings. It is a privilege to be here, and we look 
forward to answering your questions.
    For the past 25 years, the U.S. Air Force has been the most 
globally engaged Air Force on the planet. Within the past year, 
our 24,000 deployed airmen have flown missions over the Korean 
peninsula with F-22's and B-52's to dissuade the North Korean 
regime and demonstrate our resolve to our South Korean allies.
    Our bombers are patrolling the South China Sea to validate 
the right for all nations to maintain freedom of navigation in 
internationally recognized waters.
    Remotely piloted aircraft, combat search and rescue, and 
mobility assets are operating throughout Africa combating 
transregional violent extremist organizations.
    We have invested in building partner capacity with our 
friends and allies in South America, as well as conducting 
counternarcotics operations.
    Of course, we continue our commitment to Europe through our 
strategic partnerships and deployment of theater security 
packages.
    We continue prosecuting operations against the Islamic 
State in Iraq and Syria, and we provide training and 
operational support to the Afghan National Defense and Security 
Forces in Afghanistan.
    The Air Force has done all this while committing over 
200,000 airmen in place to defend the homeland, operate 
remotely piloted aircraft, control our nuclear space and cyber 
forces, and provide rapid global mobility.
    However, during those 25 years of continuous combat 
operations, budget decisions have taken a toll on our ability 
to provide for the joint force in the future.
    For example, the Air Force has simultaneously reduced total 
force military and civilian personnel over 30 percent, cut 
combat-coded fighter squadrons by 59 percent, and slashed 
annual procurement of fighter aircraft by 88 percent, all while 
standing up new ISR [Intelligence Surveillance & 
Reconnaissance] and cyber missions.
    When combined with the fiscal restraints levied by the 
Budget Control Act and our extended combat operations in a 
permissive air environment, our Air Force today stands at less 
than 50 percent ready for full spectrum conflict and operates 
the oldest fleet of aircraft in its history at an average age 
of 27 years.
    Additionally, during that same quarter century, our 
adversaries have shrunk the technological gap. They have 
deployed new air, space, cyber, surface-to-air, and surface-to-
surface capabilities aimed at neutralizing the American air, 
space, and maritime advantages that underwrite the joint force. 
Iran and North Korea have acquired new capabilities that 
threaten our allies and the stability of the regions where they 
live. Islamic extremists have expanded conflict from the Middle 
East into Africa and created a heart-rending flow of refugees. 
In short, we face new capabilities and new threats that will 
require new ways of thinking and consistent investment to 
counter.
    To frame the discussion of our fiscal year 2017 
presidential budget, it is important to understand the 
environment in which our strategic decisions were made. The 
limited resources available since the Budget Control Act of 
2011 have hampered our ability to balance readiness, 
capability, and capacity. The fiscal year 2017 presidential 
budget trades modernization, particularly the F-35 production 
rate and fourth generation fighter modifications, along with 
delayed recapitalization of the C-130H fleet, to sustain the 
capacity necessary to meet the combatant commanders' urgent 
needs for air, space, and cyber forces and begin recovering 
readiness levels after 25 years of continuous combat.
    While we are grateful for the additional resources the 
Bipartisan Budget Act provides, compared to the Budget Control 
Act caps, we need your support in the form of stable and 
predictable budgets if we are going to build the Air Force that 
ensures the joint force can continue to deter, deny, and 
decisively defeat any enemy that threatens the United States or 
our national interests. Any return to sequestration-level 
funding will force us to chase short-term requirements at the 
expense of long-term strategic planning, modernization, and 
readiness, and our budget problems will only get worse between 
now and the end of this five-year plan.
    On the acquisition front, first let me say that I am 
humbled by the selection to this position by the Air Force. I 
have watched the Air Force from my oversight roles with the 
Office of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, and I have seen a transformation 
over the last few years. Through the development of Air Force 
acquisition priorities, the wholesale adoption of better buying 
power practices, and through their own bending-the-cost-curve 
initiatives, the Air Force has emerged as a disciplined, 
deliberate, value-focused enterprise that is stretching every 
dollar to obtain capability for our warfighters. I am proud to 
now lead this enterprise, if only temporarily, as we all look 
forward to the appointment of a permanent Assistant Secretary 
for Acquisition and Logistics as soon as possible.
    Again, thank you for your service to the United States and 
for your continued support of our airmen, both military and 
civilian, serving our great Nation.
    I would like to introduce the other witnesses you have 
invited today. It is a privilege to be sitting here next to my 
partner in acquisition, the Military Deputy, Lieutenant General 
Arnie Bunch, and two of my distinguished colleagues: Lieutenant 
General Mike Holmes, who leads the development and integration 
of the Air Force strategy, long-range plans, as well as 
operational capabilities-based requirements; and Lieutenant 
General Jay Raymond, who is responsible for Air Force 
operations to include air, space, cyber, irregular warfare, 
counterproliferation, homeland security, and weather.
    You have assembled a broad group here, and we all look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Costello, General Holmes, 
General Raymond, and General Bunch follows:]

Prepared Combined Statements by Ms. Darlene J. Costello, Lt. Gen. James 
  M. ``Mike'' Holmes, Lt. Gen. John W. ``Jay'' Raymond, and Lt. Gen. 
                          Arnold W. Bunch, Jr.
                            i. introduction
    Chairman Cotton, Ranking Member Manchin and distinguished members 
of the Airland Subcommittee, thank you for the opportunity to provide 
an update on the United States Air Force's Force Structure and 
Modernization. Today's demand for Air Force capabilities continues to 
grow as airmen provide America with unmatched global vigilance, global 
reach and global power. airmen are engaged defending United States 
interests around the globe, supporting combatant commander requirements 
in response to growing challenges from Russia, China, North Korea and 
Iran, all in addition to the ever present counter-terrorism mission in 
the Middle East and around the world. While our forces have been 
heavily engaged in deterring or addressing these operational 
challenges, our adversaries have taken the opportunity to invest in and 
advance their own capabilities. For the first time in decades, our 
adversaries are closing in on our capability advantage. Our efforts to 
address these increasing challenges have been stymied by reduced and 
unpredictable appropriations.
    The limited resources available since the Budget Control Act of 
2011 have hampered our ability to balance readiness, capability and 
capacity. The Fiscal Year 2017 Presidential Budget balances 
modernization requirements with the requirement to sustain the capacity 
necessary to meet the combatant commanders' urgent needs for air, space 
and cyber forces and begin recovering readiness levels after 25 years 
of continuous combat. We're grateful for the additional resources the 
Bipartisan Budget Act provides compared to Budget Control Act caps; 
however, even at these funding levels, we continue to face difficult 
choices between capacity, readiness and modernization. We need your 
support in the form of stable and predictable appropriations if we are 
going to build the Air Force that ensures the joint force can continue 
to deter, deny and decisively defeat any enemy that threatens the 
United States or our national interests. Any return to sequestration-
level funding will force us to chase short term requirements at the 
expense of long term strategic planning, modernization and readiness.
                         ii. operations update
    The Air Force flies and fights in air, space, and cyberspace--
globally and reliably--as a valued member of our Joint and Coalition 
teams. Approximately 200,000 Total Force Airmen are ``committed in 
place'' supporting daily Combatant Command (COCOM) operations to defend 
the homeland, provide command and control of our nuclear forces, 
operate remotely piloted aircraft, provide rapid global mobility, and 
many other requirements. Approximately 24,000 airmen are deployed 
across the globe, including nearly 16,000 in the U.S. Central Command 
Area of Responsibility. The Air Force is an active partner in 
Department of Defense planning that will shift our emphasis from 
today's wars to a broader range of challenges and opportunities. The 
Department of Defense is currently reassessing strategic guidance 
issued last year, but we anticipate continued emphasis on and planning 
for a rebalance to the Asia Pacific region. Our challenge is to provide 
those who deploy in support of our global commitments an Air Force that 
is capable, agile, flexible, ready, and technologically advanced.
    During 2015, Air Force aircraft flew over 295,000 hours in support 
of Overseas Contingency Operations (OCO). On the home front, Air Force 
fighter, air refueling, and early warning aircraft have flown over 
69,000 total sorties supporting Operation Noble Eagle since September 
11, 2001. As a testament to the capability of our Total Force, the Air 
National Guard and Air Force Reserve have flown more than 70 percent of 
these sorties.
    Today, the Air Force is actively engaged in two major efforts; 
conducting operations against the Islamic State (ISIL) in Iraq and 
Syria as part of Operation Inherent Resolve (OIR), and providing 
training and operational support to the Afghan National Defense & 
Security Forces (ANDSF) as part of Operation Freedom's Sentinel (OFS) 
and NATO-led Operation Resolute Support (ORS).
    Our two main efforts in OFS are continuing counterterrorism (CT) 
operations against the remnants of al Qaeda, and training, advising and 
assisting (TAA) our Afghan partners. The CT and TAA efforts are 
concurrent and complementary. While United States and Afghan forces 
continue to attack the remnants of al Qaeda, we are also building the 
ANDSF structure so they can secure the Afghan people and contribute to 
stability throughout the region. Both of these efforts will contribute 
to a more secure and productive Afghanistan and prevent the re-
emergence of terrorist safe havens. As an example, the U.S. Air Force 
helped develop the Afghan Special Mission Wing (SMW), which provides 
the Afghan Special Security Forces (ASSF) with the operational reach 
and manned Intelligence, Surveillance, Reconnaissance (ISR) capability 
required to support counter terrorism and counter narcotics missions. 
The SMW is now capable of executing long-range, full-mission profiles 
in low illumination. Working together with the ASSF, the commando units 
and SMW consistently conduct unilateral direct action missions against 
insurgent leaders and facilitators.
    The NATO Resolute Support mission provides training, advice and 
assistance in eight key areas: multi-year budgeting; transparency, 
accountability and oversight; civilian governance of the Afghan 
Security Institutions; force generation; force sustainment; strategy 
and policy planning, resourcing and execution; intelligence; and 
strategic communications. In support of these essential functions, 
United States Air Force advisors work to develop the Afghan Air Force 
across their entire air enterprise--from fixed and rotary wing 
operations and maintenance, to engineering and logistics, and force 
development and budgeting. The Afghan Air Force operates the Mi-17 
transport helicopter, Mi-35 attack helicopter, Cessna 208B basic 
trainer and light lift aircraft, MD-530 light attack helicopter, A-29 
turbo prop light attack aircraft, and the C-130 medium lift Hercules. 
Recently the first four A-29 Super Tucano light air support fighters 
were delivered to Afghanistan. The aircraft are scheduled to go into 
action in early April when four more will be delivered. The Afghan Air 
Force has a total of 20 A-29 aircraft on order. Future Afghan pilots 
are currently in training at Moody Air Force Base. In the last year, 
the Afghan Air Force has taken over much of the mission, providing 
casualty evacuation and aerial attack in support of Afghan ground 
forces and providing the majority of helicopter and much of the fixed 
wing maintenance
    Our two main efforts in OIR are to systematically attack ISIL's 
critical capabilities and support indigenous forces on the ground as 
they take the fight to ISIL. United States Airpower has already 
achieved positive effects in Iraq and Syria. By virtue of the pressure 
we're putting on ISIL from the air, we've disrupted their 
communications, reduced their financial capacity and degraded their 
freedom of maneuver. They've dispersed, they're hiding among the 
population more, and they aren't as free to operate as they once were. 
In Iraq and northern Syria, airstrikes and resupply efforts have helped 
indigenous forces to retake and hold key territory, although the 
situation on the ground remains dynamic. Airstrikes have destroyed ISIL 
command and control (ex: headquarters buildings), logistics (training 
camps & vehicle staging areas), and revenue sources (oil infrastructure 
& bulk cash storage), making it harder for ISIL to sustain itself as a 
fighting force.
    The U.S. Air Force takes great care in everything from our 
intelligence collection and analysis to our choice of weapons used for 
targeting to minimize the chance of harming civilians. No other 
military in the world takes the responsibility to protect civilians 
more seriously than we do. In addition, the United States Air Force has 
alleviated civilian suffering in Iraq through delivery of meals, water, 
and other vital supplies via airdrops and, more importantly, by 
providing advice and training that have enabled the Iraaqi air force to 
continue independent humanitarian relief and operational resupply 
efforts.
    Despite differences, the United States and our International 
Coalition partners are united over the long term against the common 
threat posed by ISIL. More than a dozen coalition nations are 
supporting air operations against ISIL, where they are responsible for 
more than 20 percent of all sorties and more than 15 percent of all 
strikes. As of February 23rd, the United States and coalition partners 
have conducted a total of 10,545 strikes (7,061 Iraq / 3,484 Syria). 
The United States has conducted 8,076 strikes in Iraq and Syria (4,809 
Iraq / 3,267 Syria) and the rest of the Coalition has conducted 2,469 
strikes in Iraq and Syria (2,252 Iraq / 217 Syria) As of February 22nd, 
United States and partner nation aircraft have flown an estimated 
69,877 sorties in support of operations in Iraq and Syria. More than 60 
nations have expressed willingness to participate in the effort against 
ISIL, and more than 30 nations have indicated their readiness to offer 
military support. All 22 nations of the Arab League have adopted a 
resolution calling for comprehensive measures to combat ISIL.
    The ISIL contagion is a transregional threat that extends outside 
of Iraq and Syria and across COCOM borders. As demonstrated by the 
deliberate airstrikes against Islamic State in Libya, the flexibility, 
precision and lethality of United States Air Force airpower continues 
to provide effective options against transregional threats. Despite 
these successes in CENTCOM and AFRICOM, we recognize there are limits 
to what U.S. Airpower can accomplish. Airstrikes alone will not achieve 
our full military objectives. The forces that matter most are 
indigenous ground forces. This is going to be a long, difficult 
struggle that requires strategic patience.
                 iii. force structure and modernization
Fighters
    Four years ago, based on the 2012 DSG and severe fiscal 
constraints, the Air Force rebalanced our fighter force structure using 
analysis which showed the Air Force could decrease fighter force 
structure by approximately 100 aircraft if it were willing to accept 
higher risk. This resulted in the current fighter inventory of 
approximately 1,100 primary mission aircraft and slightly more than 
1,950 total aircraft. This inventory complies with fiscal year 2016 
NDAA language on the limitation on retirement of Air Force Fighter 
Aircraft.
    The Air Force needs an affordable force structure that meets the 
needs of today's counter terrorism fight while still advancing our 
capabilities to fight the most advanced threats in the future. The Air 
Force is committed to balancing the costs of maintaining an adequate 
number of fighters that can operate across the spectrum of conflict to 
meet strategic guidance and will continue to pursue modernization 
efforts, recapitalization, and multi-domain capabilities that assure 
our freedom to operate in future threat environments.
    The Air Force's fighter fleet is approaching 30 years old on 
average--the oldest in our history. Without recapitalization and 
selective capability upgrades, it will not be possible to mitigate the 
growing risk. Gaining and maintaining air and space superiority in 
increasingly contested environments will be our toughest mission. The 
Air Force is currently pursuing programs that will modernize and 
potentially extend the service life of our existing fleets. The F-35 
acquisition program is key to our efforts to improve our capabilities 
relative to improving threats and maintain capacity as our legacy 
fleets become unsupportable. Any further delay in the F-35 program will 
create a serious shortfall (mid and far-term) in fighter capabilities 
and force structure. Maintaining the 1900 TAI fighter force mandated in 
the 16 NDAA will require selected fourth generation sustainment and 
modernization efforts, F-22 modernization, and F-35 Full Rate 
Production (FRP). Fighter combat is a technologically driven that 
requires constant effort-agility is key. We have to reduce technology 
risks and field advanced capabilities in time to meet the operational 
needs over the long term. Following the top-down, multi-domain Air 
Superiority 2030+ Flight Plan being produced by the Air Superiority 
2030 Enterprise Capability Collaboration Team (ECCT), the Next 
Generation Air Dominance concept development and technology assessments 
will identify concepts and technologies that improve persistence, 
survivability, lethality, connectivity, interoperability and 
affordability. This effort will prove critical to the joint force's 
ability to engage in the most highly contested environments around the 
globe.
    Air Force mission success also depends on efficient management of 
our rated force, the most challenging of which is fighter force 
structure manning. The Air Force is currently 511 fighter pilots short 
of the total manning requirement and our projections indicate this 
deficit will continue to grow to approximately 834 by 2022. The 
shortfall is the result of force structure reductions of Active Duty 
fighter and fighter training squadrons. The remaining Active component 
fighter squadrons do not produce enough experienced fighter pilots to 
meet all of the staff, test, and training requirement. The Air Force 
prioritized overall available rated manpower to fill our operational 
cockpits, at significant risk to institutional requirements. Projected 
impacts include reductions in air-operations expertise during the 
development of war plans and a gradual erosion of fighter pilot 
experience in test and training. Recent programming and policy actions 
raised production and absorption capacities, and the Air Force has 
developed plans for future actions to address the shortfall, but 
current fiscal constraints place the implementation of these actions at 
risk. In addition, the Air Force created the non-rated 13L Air Liaison 
Officer (ALO) career field to reduce fighter pilot requirements in the 
ALO function. However, even with these changes, the Air Force is only 
able to slow the decline in fighter pilot inventory and will be 
incapable of meeting our overall requirement for fighter pilot 
expertise for the foreseeable future. Without these fighter pilots, the 
Air Force will be very challenged to continue to provide the air 
supremacy upon which all our other forces depend.
A-10
    The fiscal year 2017 budget includes an Air Force decision to re-
phase A-10 retirement (fiscal year 2018-fiscal year 2022) to sustain 
capacity for the current fight against ISIL while balancing long term 
capability requirements. This re-phase will cost $3.4 billion over the 
FYDP. The fiscal year 2017 budget fully funds the A-10 through the 
planned retirements, to include training, flying hours, depot 
maintenance, and required modernization efforts. The A-10 continues to 
be a steady, cost effective performer in today's permissive 
environment; however, it cannot survive or operate effectively in a 
highly contested environment dominated by more advanced aircraft or air 
defenses.
    The Air Force is funding a Combat Air Force Study over the next 
year, with a portion of this study dedicated to informing the fiscal 
year 2018-22 budget cycle on possible Tactical Air Support (TACAIR) 
Platform Alternatives for Low-intensity/Permissive Conflict. This will 
serve to ensure that other current platforms and future systems meet 
future close air support requirements. As part of this study, the Air 
Force will assist OSD Cost Assessment and Program Evaluation (CAPE) and 
USD for Acquisition, Technology, and Logistics (AT&L) as they lead a 
joint/inter-service team to assess needed capabilities for prolonged 
operations (greater than one year) in permissive environments, such as 
counterinsurgency, counterterrorism, stability operations, homeland 
defense, and peacekeeping operations. The analysis will address 
readiness costs, operating environment, basing, weapons carriage, time-
on-station, ISR capability, survivability, and communications 
capability.
F-16
    The multi-role F-16 comprises 50 percent of our fighter fleet. The 
fiscal year 2017 budget request invests $2.03 billion across the FYDP 
for F-16 modernization and service life extension to meet critical 
warfighter needs to 2030 and beyond. The majority of efforts in the 
FYDP focus on Legacy Service Life Extension Program (SLEP), Operational 
Flight Program (OFP) enhancement, upgrades to the Modular Mission 
Computer (MMC) and Programmable Display Generator (PDG), upgrades to 
the Multifunctional Information Distribution System (MIDS), and a radar 
upgrade to meet a USNORTHCOM Homeland Defense Joint Urgent Operational 
Need (JUON).
    Fatigue testing completed in 2015 shows that Legacy SLEP will 
extend the airframe structural service life for up to 300 aircraft by 
approximately 50 percent from the current 8,000 hours to 12,000+ hours, 
adding about fifteen to twenty years of service life. The fiscal year 
2017 budget request begins initial procurement funding for Legacy SLEP 
needed for the Block 40-52 fleet to remain responsive to the Air 
Force's total fighter requirement. The fiscal year 2017 budget request 
for OFP enhancement will continue the integration of new weapons, 
avionics, improved targeting pods, and airspace compliance systems. The 
MMC and PDG upgrade will resolve processor, memory, and bandwidth 
issues that will allow capability growth through future OFP 
development. The MIDS upgrades will improve operational Link 16 
reliability while also incorporating frequency remapping, crypto 
upgrades and growth capability. The USNORTHCOM Homeland Defense Active 
Electronically Scanned Array (AESA) radar JUON provides an upgrade from 
the current APG-68 radar to a radar that offers advanced capabilities 
as well as improved reliability and maintainability to support the 
Aerospace Control Alert (ACA) mission.
F-15
    The fiscal year 2017 budget request invests approximately $6.5 
billion across the FYDP on modernization and sustainment programs for 
the F-15 fleet. On-going structural tests indicate the C and D models 
airframes will reach their service life starting in the mid-2020s, and 
will likely require an airframe service life extension to operate 
beyond that timeframe. The FY17PB includes initial funding in fiscal 
year 2020/2021 for C/D airframe upgrades, but the final results of the 
structural testing and costs associated with a service life extension 
program must be weighed against the opportunity costs of investing in a 
30 year old airframe. The Air Force expects the F-15E to be an integral 
part of the Nation's force through at least 2040. A full-scale fatigue 
test, due to be complete in 2018 will provide data regarding the 
feasibility of a service life extension for the F-15E. Currently, the 
Air Force manages the fleet through scheduled field and depot 
inspections under an individual aircraft tracking program.
    In the meantime, we are continuing to modernize all F-15 models 
with state-of-the-art AESA radar systems with advanced capabilities to 
identify and engage targets. We will equip the F-15Cs with an infrared 
frequency targeting sensor that will vastly improve its targeting 
capabilities. The FY17PB also provides for upgrading F-15 C and E 
models with a more capable aircraft mission computer, a more robust and 
powerful data link, and a new electronic warfare self-protection suite, 
the Eagle Passive/Active Warning Survivability System (EPAWSS). This EW 
system will be absolutely crucial to ensuring the F-15C's and E's are 
able to operate well into the future, especially in contested 
environments. Lastly, the FY17PB request includes funding for the F-15E 
to integrate the latest precision weapons to accurately hit targets 
with reduced collateral damage, and adds a more robust and powerful 
data link to ensure the aircraft can accurately and securely be 
assigned targets when in support of ground units.
Fifth Generation Fighters
    Fifth generation fighters like the F-22A and F-35 are vital 
elements of our nation's defense and deterrent capability. These 
advanced, state-of-the-art aircraft are absolutely essential in 
maintaining our current global air superiority that permits air, sea, 
and ground forces freedom of action. Each aircraft possess exclusive, 
complimentary, and indispensable capabilities that provide synergistic 
effects across the spectrum of conflict. While our potential 
adversaries continue to modernize, our legacy fourth generation 
aircraft are rapidly approaching the end of their effective service 
lives and are limited in their ability to operate in a highly contested 
environment. Our Air Force must rapidly re-capitalize our fourth 
generation aircraft. At the same time, we must sustain and modernize 
our fifth generation fleet in order to maintain our ability to execute 
our National Defense Strategy in the near to mid-term while looking 
even further into the future at further modernization efforts that 
ensure continued dominance in the air.
F-22
    The F-22 Raptor is the only operational U.S. fighter currently 
capable of operating in highly contested environments. F-22 attributes 
of stealth, super cruise, integrated avionics and sensors combine to 
deliver the Raptor's unique operational capability. F-22 modernization 
is required to counter advancing threats that specifically target F-22 
capabilities. Focused on maintaining operational superiority against 
the evolving threat, the fiscal year 2017 budget request for F-22 
modernization includes $457.9 million in RDT&E in addition to $354.3 
million in procurement. Increment 3.1 fielding continues, delivering 
advanced air-ground capabilities including Synthetic Aperture Radar 
(SAR) ground mapping, threat geolocation, and Small Diameter Bomb (SDB) 
I carriage. Increment 3.1 is scheduled to complete in fiscal year 2018. 
Increment 3.2A is fielding concurrently with Increment 3.1, delivering 
critical electronic protection and combat identification upgrades. 
Increment 3.2 billion remains on track to field in 2018, and will 
deliver AIM-120 D and AIM-9 X missile capability and significantly-
improved ground threat geolocation. The fiscal year 2017 budget also 
implements open mission systems--the essential, common enabler for 
three new programs that accelerate development, integration and 
fielding of 5th-5th / 5th-4th communications interoperability, helmet-
mounted weapons cueing & GPS M-Code upgrades on the F-22.
F-35
    During fiscal year 2017, the Air Force will continue to manage risk 
across the global precision attack portfolio by prioritizing investment 
in fifth-generation aircraft while sustaining legacy platforms as a 
bridge to the F-35 Joint Strike Fighter. The aforementioned legacy 
fighter modifications are intended to keep a viable air superiority 
fleet in operation as the F-35 program works toward IOC in 2016.
    The multi-role F-35A is the centerpiece of the Air Force's future 
fighter precision attack capability, and it is of vital importance to 
our nation's security, forming the backbone of U.S. air combat 
superiority for decades to come. In addition to complementing the F-
22's world class air superiority capabilities, the F-35A is designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
This modern, fifth-generation aircraft brings the added benefit of 
increased allied interoperability and cost-sharing across Services and 
eight partner nations. The fiscal year 2017 budget request includes 
$5.85 billion for continued development and procurement of 43 F-35A, 
conventional take-off and landing (CTOL) aircraft.
    The F-35 program reached several milestones in 2015. Luke Air Force 
Base, Arizona, began training F-35 student pilots on January 23, 2015. 
The 31st Test and Evaluation Squadron's F-35As, from Edwards Air Force 
Base, California, flew close air support during the Green Flag 15-08 
exercise and in June, they worked with soldiers from the 1st Brigade 
Combat Team, Fort Bliss, Texas, to provide Close Air Support; one of 
the baseline missions for our IOC declaration. Also in June, two F-35As 
assigned to the 16th Weapons Squadron, Nellis Air Force Base, Nevada, 
were the first F-35s to participate in a capstone large-force 
employment exercise with the United States Air Force Weapons School. 
Finally, the first external weapons release tests, internal gun tests, 
and the first operational ordnance expenditures all occurred during 
2015, showing clear progress towards operationalizing the F-35.
    Today, the program is on the road to IOC for the Air Force, and we 
expect to declare IOC as planned in 2016. The 34th Fighter Squadron at 
Hill Air Force Base, Utah, the Air Force's IOC fighter squadron, took 
delivery of its first two F-35As on September 2, 2015, and it expects 
to have 12 aircraft by the end of May 2016. On September 23, 2015 the 
Integrated Test Force at Edwards Air Force Base, California, completed 
planned developmental test of the Block 3i mission software, which will 
be the baseline for the Air Force IOC declaration, and F-35A aircraft 
are in place at Nellis AFB to support tactics development for the 
warfighter. Going forward, we will continue to closely monitor progress 
toward IOC including implementation of any required post-DD-250 air 
system modifications, delivery of necessary Mission Data File loads, 
and the continued maturation of ALIS, a system that is critical to F-35 
operations at home and abroad. The Air Force will also continue to 
watch Block 3F (full warfighting capability), which currently has 4-6 
months of schedule risk. Production affordability remains a major 
priority, and the F-35 program continues to make great strides on this 
front. The price of F-35s continues to decline steadily lot after lot. 
For example, the price of a Lot 7 F-35A was 4.3 percent less than a Lot 
6 F-35A aircraft and a Lot 8 F-35A aircraft was 3.6 percent less than a 
Lot 7 F-35A, including the engine and profit for both contractors. We 
expect this trend to continue over the next two lots.
Air-to-Surface Weapons
    All three mission areas (Stand-Off, Direct Attack, and Penetrator 
munitions) in the Air-to-Surface munitions inventory are short of 
inventory objectives. SDB weapons along with low observable platforms 
are force multipliers in a highly contested environment and their 
shortage could increase friendly force attrition. The shortage of 
penetrator weapons will increase risk to our forces and decrease our 
ability to target adversary critical capabilities. Combat operations 
and support for our coalition partners in Iraq and Syria are reducing 
inventories of JDAM tail kits, Hellfire missiles, and SDB I weapons 
faster than we are procuring them. Future Hellfire shortfalls were 
mitigated by fiscal year 2015 reprogramming for $400 million that 
increased production orders by 4,000 missiles. Those missiles will 
begin delivering in the fiscal year 2017 timeframe. In fiscal year 
2015, the Air Force received approval to replace current operational 
forecasted expenditures of JDAM tail kits and SDB I weapons with 
Overseas Contingency Operations (OCO) funding. However it takes two to 
four years before procured assets make it back to the USAF inventory.
Hellfire
    The Air Force continues to actively manage Hellfire inventories 
that have been depleted due to high expenditure rates in current 
operations against ISIL. Fiscal year 2015 reprogramming action 
sufficiently funded Hellfire inventories to begin inventory recovery in 
fiscal year 2017, allowing production orders in fiscal year 2016 and 
fiscal year 2017 to the maximum factory capacity.
JDAM Tail Kits
    Due to current operations, the shortfall in JDAM tail kits will 
continue to increase. The root causes of the problem include extremely 
high expenditure rates--higher than previous contingencies--and a 
starting inventory below the desired objective. Additionally, 
historically low procurements over the past decade (7,758 average), 
driven by restricted budgets, led to diminished industrial capacity. 
The Air Force is mitigating the shortfall with three lines of effort: 
the rebalancing of stockpiles across combatant commands, the employment 
of alternative Precision Guided Munitions (PGMs) when possible, and 
increased production of tail kits. The Air Force is negotiating with 
Boeing to increase production capacity from 18,900 units per year to 
36,500 by the fourth quarter of fiscal year 2017.
SDB I and II
    Prior to current operations, the Air Force was already short of the 
SDB I inventory objective and had ceased procurements. Combat operation 
in Iraq and Syria have expended significant numbers of SDB I. In fiscal 
year 2017, the Air Force plans to procure 4,195 SDB I missiles with OCO 
funding.
    The SDB II will fill a key capability gap by using a multi-mode 
seeker and dual band weapon data link to enable attacks against mobile 
targets at standoff ranges, through the weather, outside of point 
defenses. SDB II will be a force multiplier by increasing the number of 
target platforms that can be attacked per sortie while inherently 
limiting collateral damage. Providing a four-fold increase in load out 
with its carriage system will allow the limited number of survivable 
initial combat forces to achieve operational objectives early in 
conflicts, paving the way for follow-on forces. SDB II is an 
Acquisition Category (ACAT) 1D program with the Air Force as the lead 
service in partnership with the Navy. Initial aircraft integration of 
the SDB II will be on the F-15E (Air Force threshold), F-35B & C 
(Department of Navy threshold), and F/A-18E/F.
    SDB II currently remains in Engineering, Manufacturing and 
Development and successfully received a favorable Milestone C decision 
in May 2015. Subsequently, the Air Force awarded the first Low Rate 
Initial Procurement (LRIP) contract to procure 144 weapons in June 
2015. In fiscal year 2016, SDB II will continue developmental and live 
fire testing and conduct government confidence test shots. The fiscal 
year 2017 procurement plans are to buy 312 weapons with deliveries 
starting in fiscal year 2018. Currently, the Air Force's total planned 
procurement for SDB II is 12,000 weapons.
JASSM and JASSM-ER
    JASSM (baseline) and JASSM-ER (Extended Range) are currently the 
nation's only stealthy, conventional, precision, launch-and-leave, 
standoff missiles capable of fighter and bomber aircraft employment. 
They are capable of penetrating next generation enemy air defenses to 
strike high value, hardened, fixed, or mobile targets. The JASSM 
(baseline) has a range greater than 200 nautical miles while the JASSM-
ER has a range greater than 500 nautical miles.
    The JASSM (baseline) weapon is in Full Rate Production (FRP); the 
14th production contract was awarded to Lockheed Martin on December 1, 
2015, for 100 missiles. About 1,520 missiles have been delivered. Of 
these about 1,227 are in the field and 278 at the Lockheed Martin 
production facility for repair, mostly for the surface wrinkling due to 
exposure to high humidity conditions. The repair is fully covered by 
warranty with no additional cost to the Air Force. A new coating 
(starting at lot 8) has corrected the surface wrinkling problem. Fiscal 
year 2016 procurement of 100 is the last JASSM (baseline) buy, for a 
total procurement of 2,034 missiles.
    JASSM-ER started FRP in fiscal year 2015, after completing four 
LRIP lots. As part of the 14th production contract awarded to Lockheed 
Martin on December 1, 2015, a total of 140 missiles were awarded, along 
with an option for an additional 100 missiles anticipated to award in 
March 2016. Currently, 96 missiles have been delivered. In fiscal year 
2017, the combined JASSM production line transitions to JASSM-ER only 
at the maximum and most efficient rate of 360 missiles per year. 
Currently, the last JASSM-ER procurement is planned for fiscal year 
2023, for a total JASSM-ER buy of 2,866 missiles.
Air-to-Air Weapons
    Air-to-Air missile inventories in their latest variants are also 
short of objectives. The AIM-120 Advanced Medium Range Air to Air 
Missile (AMRAAM) and the AIM-9X Block II are in limited supply, placing 
reliance on less capable variants to meet combat objectives. These 
weapons enable the joint force to achieve Air Superiority by providing 
a first look first kill capability. A shortage of Air-to-Air missiles 
will increase the number of days required to gain Air Superiority, and 
will decrease the amount of time the Joint Force can maintain Air 
Superiority, which may leave the combatant commander short of their 
campaign objectives. Adversary capabilities and capacity continue to 
challenge the Joint Force's historical advantage in the air superiority 
arena.
AIM-120D AMRAAM
    The AIM-120 AMRAAM is the Department of Defense's premier beyond-
visual-range missile, operating at high or low altitude with electronic 
attack capabilities to counter existing and emerging air vehicle 
threats. AMRAAM is a key enabler for gaining air superiority and air 
dominance providing F-15, F-16, F/A-18, F-22 and eventually F-35 
aircraft the ability to achieve multiple kills per engagement. The 
latest evolution of AMRAAM is the AIM-120D, which brings increased 
range and kinematics, improved high off-boresight targeting, and an 
enhanced two-way data link for improved accuracy and lethality at 
range. AIM-120D is an ACAT 1C joint program, with the Air Force as lead 
service in partnership with the Navy.
    The AIM-120D completed operational testing in July 2014. The Navy 
fielded the missile and declared IOC for the F/A-18E/F on 7 January 
2015. The Air Force fielded the missile and declared IOC for the F-15, 
F-16, and F-22 on 9 Jul 2015. In fiscal year 2017, the Air Force plans 
to procure 256 AIM-120D's and the Navy plans to procure 163 AIM-120D's. 
The program will continue to update the AMRAAM technical data package 
to ensure a viable, producible design through the expected production 
life of the AMRAAM program, and to maintain a robust supplier base 
capable of sustaining production for the life of the program.
Space
    We view our national security as inextricably dependent on space-
enabled capabilities. At the same time, space has become contested, 
congested and competitive; our space capabilities today are facing 
advanced, demonstrated, and evolving threats, which require fundamental 
changes in the way we organize, train, and equip our forces. Congestion 
has increased the complexity of maintaining space situational 
awareness. There are over 60 active space-faring nations, nine of which 
have indigenous space launch capability. Almost any nation or state 
actor can access space services globally and globalization has made the 
latest technology available to our competitors and adversaries.
    Legacy space acquisitions relied on packing as much capability as 
possible into a few systems creating critical vulnerabilities. Current 
budget realities drive us to rely on legacy systems, while warfighter 
demands have driven the need for more capable systems. We must provide 
space capabilities that assure performance of military space functions, 
regardless of the hostile action or adverse condition. We must invest 
smartly in the highest payoff capabilities that enhance space domain 
mission assurance to include resilience, defense operations, and 
reconstitution of our space systems and architectures to ensure United 
States and Allied use of space through all phases of conflict. We seek 
to balance military and commercial systems and leverage international 
partner capabilities to allow the U.S. to share the cost of space 
power; provide additional coverage in areas the U.S. requires 
assistance in, and create a coalition structure that can promote 
deterrence.
    We recognize a conflict in space would hurt world economies and 
global stability; therefore, to address growing space threats, we are 
focused on sustaining our space capabilities, deterring threatening 
activity, and if necessary, pursuing means to mitigate counterspace 
threats.
Cyber
    The Air Force continues to build its contribution to joint cyber 
mission forces by adding manpower for offensive and defensive cyber 
operations and equipping them with the right capabilities to ensure 
effective operations. We are building a standard cyber mission platform 
to simplify training and enable full-spectrum operations and continue 
to invest in converged cyber and electronic warfare capabilities. We 
are working with others across the Department of Defense to build a 
persistent training environment, consisting of jointly-interoperable 
ranges, dedicated operating forces, and supporting structures. We are 
enhancing our capacity to test our critical weapon, intelligence, and 
business systems for survivability in the increasingly hostile cyber 
environment.
    Further, we are leading the effort, in partnership with the other 
Services and Department of Defense agencies, to build Joint Regional 
Security Stacks. When fielded, this defensive boundary will provide 
global insight into activity, enabling rapid, coordinated Joint 
defensive operations. The standardized approach will enable sharing of 
Tactics, Techniques, and Procedures (TTP) across the Department of 
Defense, so that detection of an attack on one Service, and the 
resultant mitigations, can be seamlessly applied across the entire 
Department of Defense. This reduces operational response times and 
mission impact. No individual service could have afforded this level of 
capability with its own resources; it is only by pooling funding across 
the entire department that we can obtain the level of capabilities we 
require to counter the growing cyber threats. This new defensive 
boundary is the foundational step toward a trustworthy, efficient Joint 
Information Environment.
    In short, we are on the path to put Cyber on par with Air and Space 
forces to achieve a multi-domain approach to mission accomplishment.
Airborne Electronic Attack
    The Air Force is committed to providing airborne electronic attack 
capability in support of operations across all operational warfighting 
domains. The EC-130H COMPASS CALL is required in multiple war plans by 
multiple combatant commanders. House and Senate consensus language in 
the fiscal year 2016 National Defense Authorization Act stated that the 
divestiture, retirement or placing in storage any of the EC-130H 
COMPASS CALL aircraft would present unacceptable risk to ongoing and 
future combat operations. Thus, the Air Force has delayed the 
divestiture of six EC-130H COMPASS CALL aircraft until fiscal year 
2019. The Air Force will continue to investigate alternatives for 
airborne electronic attack capabilities to replace and rebuild capacity 
of the existing EC-130H COMPASS CALL fleet as part of the Joint 
Airborne Electronic Attack Family of Systems concept.
Rapid Global Mobility and Personnel Recovery
    The Rapid Global Mobility fleet continues to pursue capability 
enhancements balanced by recapitalization and required modifications to 
operate in international airspace and avoid diminishing manufacturing 
source issues. Comprised of 396 KC-135 Stratotankers and 59 KC-10 
Extenders, our tanker fleet provides the backbone of rapid U.S. global 
operations. In addition to ongoing modernization efforts for our legacy 
tanker fleets, the FY17PB requests $2.9 billion to procure 15 KC-46A 
Pegasus tankers. Stability of requirements and funding are the keys to 
KC-46 program success.
    The Air Force is modernizing the C-130H fleet through a four-phased 
approach emphasizing aircraft safety, compliance, modernization, and 
recapitalization. First, we are ensuring that the C-130H is safe to 
operate by keeping the aircraft structurally sound through programs 
such as ongoing center wing replacements. Second, we will focus on 
meeting U.S. and foreign airspace compliance mandates through the C-130 
Avionics Modernization Program (AMP) Increment 1. The FY17PB 
accelerates this program to deliver 172 airspace compliant aircraft by 
December 2019, before the FAA 2020 deadline. Third, C-130 AMP Increment 
2 will improve the fleet's maintainability and reliability by providing 
a new avionics suite, enhanced communications, and electrical 
improvements. It also solves pending obsolescence and DMS issues. The 
FY17PB accelerates AMP Increment 2 to complete installations in 2028. 
Finally, the Air Force will continue to recapitalize the C-130H fleet 
through procurement of new C-130Js. We plan to field 134 total C-130J 
aircraft by fiscal year 2019.
    The strategic airlift fleet of C-5s and C-17s is capable of 
supporting the million ton miles per day metric established in our most 
stressed response scenarios. The Air Force continues to modernize and 
enhance 52 legacy C-5 aircraft to a common configuration to ensure 
fleet viability to 2040. The C-17 fleet of 222 aircraft was completed 
in September 2013 and provides our nation unmatched flexibility to 
conduct direct delivery, airdrop, aeromedical, and special operations 
airlift missions.
    The Air Force is the only Service with a dedicated force organized, 
trained, and equipped to execute theater-wide Personnel Recovery. The 
Combat Rescue Helicopter will replace 112 of our aging HH-60G aircraft 
specifically equipped to conduct Combat Search and Rescue across the 
entire spectrum of military operations. The program remains on schedule 
to meet initial operational capability in 2021 and full operational 
capability in 2029.
    Despite supporting a wide range of missions for five major 
commands, the current UH-1N fleet does not meet speed, range, payload, 
or survivability requirements. The risk created for our nuclear support 
mission by these capability gaps makes replacing the UH-1N a critical 
priority and a vital element of our nuclear enterprise reform 
initiative. A decision on the way forward for procurement of the 
portion of the UH-1N fleet servicing the nuclear support mission is 
anticipated soon.
                             iv. conclusion
    The United States Air Force continues to be the world's finest Air 
Force across the spectrum of conflict, but but our potential 
adversaries employ increasingly sophisticated, capable, and lethal 
systems. The Air Force must modernize to deter, deny, and decisively 
defeat any actor that threatens the homeland and our national 
interests. A return to sequestration-level funding would result in a 
less ready, less capable, less viable Air Force that is unable to fully 
execute the defense strategy or fully support the joint force. 
Furthermore, the Air Force faces a modernization bow wave over the next 
10 years that requires funding well beyond the BCA caps--this includes 
critical programs necessary to meet our capacity and capability 
requirements across all mission areas. Although we are grateful for the 
Bipartisan Budget Act relief, we still face great uncertainly for 
Fiscal Year 2018 and beyond. Without the funding requested in this 
budget, we cannot meet current demand for Air Force capability and 
capacity without sacrificing modernization.
    Our sister services and allies expect the Air Force to provide 
critical warfighting and enabling capabilities. We remain focused on 
delivering Global Vigilance, Reach and Power, through our core missions 
of Air Superiority, Space Superiority, Global Strike, Rapid Global 
Mobility, Intelligence, Surveillance and Reconnaissance and Command and 
Control. We look forward to working closely with the committee to 
ensure the ability to deliver combat air power for America when and 
where we are needed.

    Senator Cotton. General Bunch?
    General Bunch. Sir, we have given the one statement. She 
spoke for all of us. We now look forward to answering the 
committee's questions.
    Senator Cotton. Outstanding. We will have to do that with 
members of the committee.
    [Laughter.]
    Senator Cotton. I would like to start, Ms. Costello, with 
the B-21 bomber. As you know, we have had a classified hearing 
last week, in which we explored it. I think we need to explore 
some elements here in this open setting.
    Why did the Air Force choose a cost plus incentive fee 
contract vehicle over a fixed price contract for the 
engineering and manufacturing development phase of the B-21?
    General Bunch. Senator Cotton, if I can sir, most of those 
will come my way. I will just go ahead and let you know that 
now.
    To start off with, sir, the determination of a contract 
type--there is no one-size-fits-all. You have to look at each 
individual acquisition case and you have to look at the risks 
involved with that acquisition and the maturity of the 
technologies and variety of different factors. That is what we 
did in this case.
    After carefully considering the full spectrum of 
contracting options and looking at all the factors that go into 
selecting a contract type, the Milestone Decision Authority 
determined that the most appropriate contract vehicle for the 
acquisition of the B-21 was a cost plus incentive contract.
    The key factors that went into making that decision were 
the technical risk, and that falls into two categories. One of 
those is that we did use mature technologies to meet this 
requirement and deliver this capability, but those mature 
technologies must now be integrated together on a never-before-
built platform. The risk is in the platform development of 
something that has not been built ever and the integration of 
those mature technologies.
    The other factor that was critical in this was the 
determination of the contractor's ability to continue the 
operation if they were to be put in a loss environment or where 
they were losing profit. In the case of the KC-46 right now, 
Boeing is running at about a 25 percent loss over what the 
contract was. In the case of the KC-46, that contractor can 
capitalize on the commercial market to be able to get 
additional continued sales or they can capitalize on foreign 
military sales to make up any losses that they may have had. In 
the case of the long-range strike bomber with highly classified 
activity going on and highly classified technologies, there is 
not a commercial application.
    Senator Cotton. General Bunch----
    General Bunch. Yes, sir.
    Senator Cotton.--if I can interject here.
    You said something similar last week----
    General Bunch. Yes, sir.
    Senator Cotton.--at the Subcommittee on Seapower. What 
bearing does that particular characteristic have on the 
decision that should ultimately hinge on best value to the 
taxpayer?
    General Bunch. Sir, we believe--well, it is best value for 
the taxpayer, but it is also a capability that we need to be 
able to meet a critical gap, a gap that was identified through 
the entire Department as a way looking at the technologies that 
were out there. It is a balancing act of trying to ensure that 
we get it in the most cost-effective manner and also meet the 
capability gap that we need to meet from a requirements 
perspective.
    Senator Cotton. Some of the things you have cited, though, 
like the mature technologies or stable requirements, specified 
aircraft price, and the inability to recoup cost overseas, when 
you think about it in the context value, I mean, those 
characteristics would seem to point at least as strongly in 
favor of a fixed price contract as they would cost-plus because 
they should give you a fairly definite idea of what that price 
is going to be. Is that wrong?
    General Bunch. Sir, the mature technologies--I believe we 
do have a good idea of what those would be. The risk involved 
is the integration of those technologies and building a never-
before-built aircraft. That moves it on the risk perspective 
more to the cost-plus arena than it does to the fixed price 
arena.
    Senator Cotton. I have seen reports that during industry 
discussions prior to the bid submission, that one potential 
offeror indicated that they would not bid on the RFP [Request 
for Proposals] if it was a fixed price development contract. Do 
you or any of our witnesses have any knowledge of that?
    General Bunch. Sir, I will take that for the record to make 
sure that I answer that in appropriate classification levels of 
what I am supposed to be doing.
    Senator Cotton. General Holmes?
    General Holmes. I do not have any knowledge of that, sir.
    General Raymond. I do not have any knowledge of that 
either, sir.
    General Bunch. I will take that for the record, sir.
    Senator Cotton. Let me speak hypothetically for a moment. 
What would be the impact on value to the taxpayer if the Air 
Force issued an RFP [Request for Proposals] for such a major 
weapon system under a fixed price contract vehicle and only one 
vendor submitted a bid?
    General Bunch. Under that construct, we would still go into 
the--we would get the proposal in. We would evaluate what we 
believe the performance of that could be, and then we would 
look and make sure that we were getting a fair and reasonable 
price for what we were doing, and we would determine if it was 
a contract that we could let.
    Senator Cotton. In my final question, let me ascend from 
this particular point to a more general question related to 
this matter, General Holmes. In discussions with the committee 
and staff, you have championed a return to developmental 
planning, experimentation, prototyping, and developing future 
capabilities. We all understand the severe budget constraints 
the Air Force has faced for the last seven years. But 
hypothetically, if sufficient funds were available from a 
capabilities development perspective, do you believe that a 
return to prototype development and so-called ``fly before you 
buy'' methodology for large, complex weapon systems before 
down-selecting a winning manufacturer would be the preferred 
approach?
    General Holmes. Senator, thanks for the question.
    I think it depends on the system, both in complexity and 
the cost. We are moving forward, and we hope to continue to 
expand the prototyping and experimentation to look at specific 
aspects and to reduce risk in different programs. If you are 
going to go to a weapon system that has a unit cost of $500 
million, then you would have to weigh the cost of competing 
prototypes built at that initial fly-away cost against what you 
think you could learn in risk reduction in systems first. I 
think it would depend on the aircraft or on the program.
    Senator Cotton. Thank you.
    Senator Manchin?
    Senator Manchin. Just to follow up very quickly on that, I 
think the concerns we might have is because the F-35 strike 
fighter--was it not a cost-plus?
    General Bunch. It was, sir.
    Senator Manchin. You can understand our chairman's 
consternation about that, and I think you have heard it over 
the years. We are looking for every way possible not to repeat 
the mistakes of that type of a contract, and I think that is 
what we are kind of all leading to.
    How can you assure us we are not going to go down that same 
path?
    General Bunch. Yes, sir. That is a valid question because 
we are very worried about cost growth, and it is something that 
we want to make sure we control as we execute the program. The 
two things that we have done--two of the main things--we have 
done more than two, but two of the main things we have done to 
control cost growth on the program--the first of those is we 
conducted an independent cost estimate outside the program 
office, which is something that the SASC [Senate Armed Services 
Committee] was a champion for with SARA [Services Acquisition 
Reform Act] to form an independent cost estimate so that a 
program office that may be optimistic about what it might cost 
to develop a capability would not be able to do that. It is an 
independent cost estimate. In this case, we actually had two. 
Those were very close numbers, and we funded to the higher of 
the two numbers. That is a key indicator, in past studies by 
RAND and others, of controlling costs is to have an independent 
cost estimate to make sure you are not overly optimistic as you 
start.
    The second one is stable requirements, and we have had no 
changes in the requirements since 2013. Our requirements 
control officer is our Chief of Staff of our Air Force. He has 
made that very clear to all of us that he controls the 
requirements and he does not wish to see those change because 
he knows if you change requirements, you can increase the cost 
and you can change what you are trying to get in the technology 
perspective, and he wants to control that.
    Those are the two main drivers that we have seen over the 
years that have driven cost.
    The other piece that we are doing is we are using mature 
technologies. The analogy that I use here is we do not have 
developmental programs going on inside a major developmental 
program for the platform. I am not developing a brand new radar 
at the same time I am building a never-before-built aircraft. I 
am not building a brand new defensive management system at the 
same time I am building an aircraft that has never been built. 
The mature technologies--the risk there is the integration. The 
technologies are proven, and we should be able to do those. 
That is another one to control costs, sir.
    The last of those is we have crafted an incentive structure 
for the contract so that the contractor must perform on cost 
and schedule to be able to garner or gain the profit and the 
fee that is associated with the contract. It is made up of two 
components. It is made up of cost and it is made up of 
performance. The performance aspect is based on schedule. The 
schedule incentive is the heavier weighted of the two, and it 
is not just making a date. It is delivering capabilities and 
meeting requirements. That schedule incentive is loaded toward 
the back of the EMD [Engineering Manufacturing & Development] 
phase, and it goes larger as the program goes forward such that 
if the contractor is not able to make those dates, then they 
will lose a portion of the incentive fee up to the point that 
they will lose it all for that scheduled event. If they do not 
execute on cost and on schedule, they end up executing the 
program at no profit and with no fee.
    Senator Manchin. Thank you, sir.
    I want to go to General Holmes real quick. But I want to 
say on that, General Bunch, we would like to compare that to 
the anticipation we had when we started the F-35 strike 
fighter. Some of us who were not there when that started, if 
this was the same anticipation as you have now with this set of 
criteria, it was the same back then. What have we learned? We 
are just hoping that we do not repeat the same. I will get into 
that in more detail with you, sir, if I can.
    General Bunch. Yes, sir.
    Senator Manchin. General Holmes, I mentioned in my opening 
statement, the Air Force is planning to retire some aircraft, 
including AWACS and this EC-130H. Why would they plan to retire 
aircraft in high demand without planning to replace them? I 
think that is about as straightforward as I can make it.
    General Holmes. Thank you, Ranking Member Manchin.
    If we go back to the fiscal year 2012 President's budget 
and we compare the spending levels that we expected to see 
between 2012 and this year, from the President's budget that 
was turned in, the Air Force has lost about $70 billion in 
buying power. From the 2012 budget as it was enacted, which was 
actually a little lower than that, the Air Force has lost about 
$40 billion in buying power. To try to upgrade all of the Air 
Force, the money is just not there to do it. We are forced to 
make some tough choices.
    Senator Manchin. The only thing I say is should we assess 
the risks of failing to meet combatant commander demands. These 
are people on the front lines. These are aircraft they very 
much need.
    General Holmes. Absolutely, sir, we do. Everything I have 
in the Air Force is very much in need by the combatant 
commanders. They participate in the budget review process. They 
participate at every step on the way in building our budget, 
and the budget that we provide you is a combination of the Air 
Force and the combatant commanders' best military advice on 
where to accept risk.
    We are accepting risk in areas we do not want to. We know 
we are accepting risk in areas they do not want to. We are just 
trying to make the best budget we can within the buying power 
that we have left under the BCA [Budget Control Act], as 
modified by the BBA [Bipartisan Budget Act] that we are 
grateful for.
    Senator Manchin. Then why would we eliminate?
    General Holmes. Sir, because we only have enough money to 
do--we do not have enough money to do all of the things that 
you expect the Air Force to do.
    We hope not to eliminate. We have a plan to recapitalize 
the EC-130. We plan to bring that forward to you next year. We 
have brought a plan to you to recapitalize the JSTARS. For the 
AWACS, our plan is to draw down a portion of the numbers so 
that we can make money available to upgrade the rest of the 
fleet to be effective for the combatant commanders and the 
missions that they are expected to do. In general, we are 
trying to do the best we can to provide all the combatant 
commanders' requirements within the budget limit that we have 
and in consultation with them.
    Senator Manchin. Thank you, sir.
    Senator Cotton. Senator Inhofe?
    Senator Inhofe. What you are saying is it is budget-driven. 
I think that the other two Lieutenant Generals there with you 
would agree with the statement that General Holmes just made. 
Is that correct?
    You know, I can remember back when the discussion was--we 
were talking about the F-15 and F-16. That was quite some time 
ago. But again, at that time, the argument was always, well, 
you can do it with one or the other, but not both of them. Yet, 
we know now that the missions were different at that time. We 
knew it at the time.
    We are going through kind of the same situation now with 
the F-22 and the F-35. The F-22 has been carrying a load that 
it should not have carried. Originally--and I recall this, and 
each one of the three of you remember this also--there were 
going to be--what--750 F-22's and that slowly went down to--I 
cannot remember who it was. In 2008, it went down to 381. Then 
Gates changed that to 243. Now we are down to 187 operational 
F-22's.
    All we hear about is how great--what a great job they are 
doing. In the statement that was made--let me see who it was 
who made this. I think it was when we had Secretary James and 
General Welsh in here at our general committee. I said I 
understand the F-22 has been deployed against ISIL [Islamic 
State of Iraq and the Levant] in Iraq, Syria, has been deployed 
in the Pacific, Middle East, and Europe. The Air Force chose to 
cut its force structure over the past several years. It is now 
paying for it.
    A lot of us complained about this back when we decided that 
we were going to be downsizing the F-22. I think that probably 
all of you would agree now that probably was not a good idea. 
There was a reason for coming up with the 750 to start with, 
and I have just always wondered what the reasoning was, other 
than the budget, of bringing it down over the last seven or 
eight years. Do you agree that that was the problem?
    General Holmes. Sir, I think it was certainly a budget 
involvement there. Seven hundred fifty is about the same number 
that we built of the F-15A and C in our air superiority role in 
the Cold War.
    The budget came down for a couple reasons, one, budget-
driven. I think you are right. Also, I think the Department and 
the Congress made a decision that we would not see a near peer 
threat within a number of years, and that decision also proved 
to be--that judgment also proved to be optimistic. We have seen 
both Russia and China develop airplanes faster than was 
anticipated.
    Senator Inhofe. I appreciate that.
    Staying on the F-22, I am not sure who they are quoting, 
but it was in the ``Air Force Times.'' They said the biggest 
challenge for the F-22 Raptor community now is to stretch the 
limited fleet so the Air Force can guarantee air superiority 
until a successor aircraft comes along. That may not happen for 
another 20 years. The biggest deficiency in the F-22 fleet, 
though, has to do with the number of F-22's. There just are not 
enough of them.
    I have often wondered. At least I have not heard the 
discussion in our Senate Armed Services Committee about 
reopening that line. Is there any thought along that line? I 
think we all know we do not have enough F-22's. What are the 
arguments against trying to go back and reopen the line?
    General Bunch. Senator, there have been RAND studies in 
that area. They have looked at it and there are rough order of 
magnitude numbers that are in the billions of dollars and 
years. We viewed it in the light of the balancing act we are 
already doing between readiness and modernization as something 
that would be cost prohibitive, and we would have to take 
something else out that we value right now to try to meet the 
requirements to be able to do that. We have not put any further 
analysis into that.
    Senator Inhofe. As far as the F-35, we really need more of 
those, and cutting it down from 48 to 45, I do not know what 
that amount does to the cost. Was that a decision you agreed 
with, or is it another budget-driven----
    General Bunch. Sir, I will address the cost. It did not 
increase our costs. We are in a different position on the F-35 
program than we were on the single Air Force program on the F-
22. The Navy, the Marine Corps, our partners and foreign 
military sales have continued to fill the production line so 
that the cost estimates have continued to come down. That is 
still on track. We did not pay increase for the aircraft that 
we got through the FYDP [Future Years Defense Program] at this 
time.
    Senator Inhofe. In his opening statement, Senator Manchin 
talked about the current plan to replace the AWACS. Does anyone 
want to tell us what the current plans are to replace the 
AWACS?
    General Holmes. Senator, we are looking in the long term at 
a replacement. Our short-term plans were focused on upgrading 
the airplanes we have and making them both able to keep flying 
and relevant as they keep flying through the block 40 and block 
45 upgrade. We have taken a recent study to look at our air 
superiority needs starting in 2030. One of the factors that has 
come out of that will be choices in what we need to do with the 
recapitalization program.
    We hope that our JSTARS recapitalization program can 
provide a model for recapitalizing the rest of what we are 
doing now with the wide body aircraft fleet and a way to bring 
the radar--the air battle management and an airframe together 
in a way that is cheaper to be able to continue to do those 
missions.
    Senator Inhofe. Okay. I appreciate it. My time has expired, 
but I am hoping some of the other members might bring up the 
shortage of pilots, fighter pilots, that we are facing right 
now.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    As you may know, Indiana is home to Grissom Air Base and 
the 434th air refueling wing. Our Hoosier Airmen had the 
opportunity to host Secretary James at Grissom a few months 
ago. They were able to share with her the incredible job they 
are doing flying and maintaining the KC-135's they have. 
Grissom was among the Air Force's top candidates in the last 
KC-46 basing round. I expect they will be topping the list next 
time.
    General Holmes, in the last KC-46 decision, the Air Force 
emphasized the importance of Reserve-led associate units. This 
aligns with the recommendation of the Air Force Commission 
report in 2014 that recommended expanding the number of 
associate units in the Air Force. Can you speak to how 
associations are a force multiplier in air, space, and cyber 
and whether you anticipate the Air Force creating more Reserve-
led associate wings in the future.
    General Holmes. Yes, sir. Thank you, Senator Donnelly. That 
is a great unit you have at Grissom. I have hidden from many a 
hurricane there from the east coast, bringing fighter airplanes 
there.
    Senator Donnelly. I can tell you where you will get a good 
meal, sir.
    General Holmes. They serve a great service to us.
    We have a KC-135 associate that is a Reserve wing with an 
Air Force association on it at Seymour Johnson Air Force Base 
in North Carolina, and that is probably our highest performing 
KC-135 unit. When you combine a Reserve unit with the 
experience that goes with the aviators and mechanics you find 
in a Reserve unit with a small Active Duty component that makes 
the aircraft a little more usable--they can deploy more often 
than a citizen airman can on a more regular basis--then there 
is a synergy there that makes both sides of it more effective.
    Over the last year, we have looked at 100 percent of the 
Air Force's mission areas in our Reserve and Active component 
mix. We have taken steps in each of the last three budgets to 
adjust that mix, and we will continue to do that as we go 
forward in the places where it makes us better or it helps us 
save money.
    Senator Donnelly. Well, let me ask you this again. Do you 
anticipate the Air Force creating more Reserve-led associate 
wings in the future?
    General Holmes. Yes, sir, I do, but I could not tell you 
where they would be yet.
    Senator Donnelly. General Raymond, concerns that warnings 
from our military about growing threats to U.S. air superiority 
posed by advanced adversaries are often dismissed as distant 
and far away. But in fact, while we do have to prepare for 
large-scale conflict, the more immediate concern is the spread 
of advanced Russian and Chinese weapon systems into the wars we 
are already fighting. We are seeing advanced air defenses 
spread to countries throughout the Middle East and Africa, 
including Syria where our pilots are flying as we are here.
    How is the Air Force responding to the proliferation of 
these very present threats to our air superiority?
    General Raymond. Thank you for the question.
    Let me go back real quick, if I could, to the mobility. I 
was just in the AOR [Area of Responsibility], and on the 
mobility piece of it, our mobility aircraft are doing 
incredible work. They are passing over 2.75 million pounds of 
fuel a day to feed that fight.
    On the question that you just asked now on what are we 
doing, clearly the Air Force has a modernization program and we 
say that we fly, fight, and win in airspace and cyberspace. 
There are several things that we are doing. One, you have to be 
able to fly, and that is the SLEP [Service Life Extension 
Program] programs that we have got going on to increase the age 
of our aircraft to be able to maintain those in years to come.
    Then there is the part to fight. We are looking at 
modifications and modernization programs to be able to do a 
better electronic warfare, to have better radars, to have 
better ability to share data back and forth between platforms, 
to have better command and control over those capabilities, to 
have better weapons that they can drop to be able to do that 
fight.
    I agree with your assertion that the technology gap is 
closing, and we need to move on with those modernization 
programs.
    Senator Donnelly. Well, how concerned are you for our 
airmen if they have to face the S-400 in the near future?
    General Raymond. I am very concerned for our airmen against 
the advanced threats.
    Senator Donnelly. General Holmes, would you care to 
comment?
    General Holmes. Yes, sir. Specifically to your question, in 
this budget we will have to continue to spend money to improve 
the capability of both the F-22 and the F-15 while we work our 
way through to a replacement.
    But air superiority is about more than just those air-to-
air airplanes. It is about being able to attack advanced 
systems like the S-400 or neutralize them with electronic 
combat or cyber attacks. We will continue to try to hold onto 
the gap that we have while we try to work out a way to move to 
the future and start with another higher gap in our air 
superiority capability, a gap between our performance and 
theirs. We need to make that bigger again.
    Senator Donnelly. Ms. Costello, is the Air Force committed 
to commonality as a means to modernize and maintain the triad? 
If so, what elements do you see as most applicable for 
commonality with the ICBMs?
    Ms. Costello. For the GBSD [Ground Based Strategic 
Deterrent] program, we are committed to commonality, and we are 
working with the Navy on how we can achieve commonality in 
there. We are early in the analysis there to find out where we 
can pursue that further. We are heading towards a milestone, 
and we are working closely with the Navy in order to do that 
within that program in particular.
    Senator Donnelly. Mr. Chairman, thank you.
    Senator Cotton. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    I would like to follow up on Senator Inhofe's line of 
discussion with regard to the F-22 for just a few minutes, 
recognizing that at one point with the B-1 program we started 
that line up again, and it is a good thing that we did.
    Now we clearly understand that the near peer threats have 
increased over what had been anticipated. I am wondering when 
we talk about a successor aircraft, it may be 20 years in the 
future. But somewhere down the line, we are going to have an 
additional cost with regard to the planning and the layout and 
the modernization that goes into a brand new aircraft. Yet, we 
have taken the F-35 and we have been modernizing the F-22 based 
upon what we learned with the new technologies in the F-35.
    Has there been any analysis as to what the actual costs 
would be to start up that F-22 line with the new systems that 
are currently available with the F-35 and how that would 
compare with the extended life that we might get out of that 
aircraft versus a new aircraft being developed as its successor 
20 years from now?
    General Bunch. We have not analyzed as, again, there were 
some initial rough order of magnitude estimates as to what the 
costs would be. We have not estimated what it would be to 
reopen the line and populate it with more modern technology. We 
have not done that at this time, sir.
    General Holmes. Senator Rounds, the Air Force and the Navy 
have been collaborating on a future capability that was called 
the next generation air dominance platform. We have worked 
together in our studies. We have worked together in providing 
technology together. The Navy has gone ahead and moved toward 
an analysis of alternatives. We delayed a year because we 
wanted to take a broader look at the picture. We will move 
forward next year with a plan on how we want to get after a 
solution there.
    I think because we want to do it faster and we cannot 
afford to do another 20-year development program for a host of 
reasons, we will try to go with technology that is at a high 
readiness level now with manufacturing capabilities that are at 
a high readiness level now. I think it is completely possible, 
as we get to a requirement, that there may be competitors that 
bid on modification of an existing technology or platform like 
the F-22 and the F-35.
    Senator Rounds. Very good. Thank you.
    Let me go back. Now that we have talked a little bit about 
the items which we add to the cost, I want to just touch base--
the other day in open committee hearing, there was a discussion 
about the A-10. We did not get very far into it because it 
seemed as though at that stage of the game, it was more a 
matter of sending the message that we wanted the A-10 to remain 
operational.
    Yet, I would like to hear from you, just in terms of--my 
personal opinion is that while we would all like to see F-15's 
available throughout the areas in which right now the A-10's 
are out there, we do not have enough F-15's to go around unless 
we start determining that we have got some that can be in two 
places at the same time. We do not have that. The A-10 seems to 
be working right now in this area where we do not have--or, as 
they would call it, a low-threat environment.
    I understand that long-term you do not want to continue 
down the line where you may very well need an aircraft that can 
handle near peer challenges. But with regard to the A-10 right 
now, it looks to me like we need it right now because the 
demand is there for it in the field of battle today. Yet, you 
are trying to do modernization.
    How do we work these two together? What is your analysis 
about how and where do we go with the A-10 and modernizing the 
other platforms that are there?
    General Holmes. Thank you, Senator.
    You know, I have heard it said that the Air Force wants to 
move away from this mission. What I would tell you from my 
experience, including as a wing commander in Afghanistan with 
the F-15E and the A-10, is that over the last 12 years, the Air 
Force has moved to turn almost our whole combat Air Force's 
fleet into airplanes that are capable in this mission. What 
does that mean? It means we took airplanes that did not have 
all the capabilities they needed and we added the radios so 
that a strike Eagle crew member or a B-1 crew member can talk 
directly to the ground commander, directly to the JTAC [Joint 
Tactical Air Controller], and directly to the air operations 
center. Flying the F-15E in Afghanistan, I can talk on UHF 
[Ultra High Frequency] SATCOM [Satellite Communications] over 
the high mountains there to the command and control element. I 
could have one radio with the JTAC who was in the battalion 
TACP [Tactical Air Control Party] who was looking at the 
picture from my targeting pod next to the battalion commander, 
and then one radio talking to the platoon leader.
    We added advanced targeting pods that combine the 
geolocation capability so that when you type in a coordinate, 
it will look exactly at that spot and----
    Senator Rounds. General, what I am really curious about--
and I do not mean to interrupt, but I am going to run out of 
time.
    General Holmes. Yes, sir.
    Senator Rounds. Are you saying that you have enough F-15's 
that are capable today of actually doing the jobs that the A-
10's are doing, that you have got enough aircraft right now to 
replace those one for one?
    General Holmes. All the airplanes that we use have some 
unique capabilities that they bring to the situation. Some are 
faster, some stay out there longer, some carry a bigger load, 
some can get down lower. We are using all those in the right 
place for them.
    My problem is I need no less than about 54 fighter 
squadrons or the 1,900 limit that the Senate gave us in the 
NDAA last year. But I cannot afford any more than 54 fighter 
squadrons either. The problem is, as I stand up F-35 squadrons, 
that would be a 56th squadron and a 57th squadron. Then without 
additional funds, I have to take some squadrons down to go 
through that.
    Our best judgment, as we came forward to this point, was 
that the way to do that was to start to retire our aging A-10 
squadrons, but we know we are going to work with the Congress 
to come up with that what that solution is. We think we need at 
least 55. We are unable to afford more than that. We are not 
retiring any squadrons this year, and we hope to work with the 
Congress to find out what the right answer is as we move 
forward.
    Senator Rounds. Thank you, sir.
    Senator Cotton. How many fighter squadrons did we have in 
the Gulf War?
    General Raymond. Sir, we had 134 fighter squadrons in the 
Gulf War.
    Senator Cotton. Wow, astonishing.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    I was struck by the comment in your testimony, and I am 
going to quote it. The Air Force is currently 511 fighter 
pilots short of the total manning requirement, and our 
projections indicate this deficit will continue to grow to 
approximately 834 by 2022. That sounds pretty alarming.
    General Raymond. It is alarming, Senator. It is one of 
great concern for our Air Force. It is one that we are putting 
a lot of attention and focus on. On the one hand, we have got 
the airlines that are hiring about 3,500 fighter pilots every 
month. Our focus is increasing the pipeline, bringing pilots in 
and maximizing the UPT [Undergraduate Pilot Training] that we 
have to ramp up those numbers. We also have to look at 
absorption, being able to season those fighter pilots and 
working total force requirements to put fighter pilots in 
cockpits to be able to do that seasoning. Then we are working 
very closely on retention issues as well to try our best to 
maintain the fighter pilots that we do have in the service as 
we speak.
    Senator Blumenthal. We tend to be focusing here on all the 
hardware and the bright, shiny objects and all the stuff that 
people find glamorous about the Air Force. But if you do not 
have enough good pilots, all this stuff is worthless. Right?
    General Raymond. We are an air force and we need pilots, 
and we need--all of our pilots are good pilots. We need fighter 
pilots as well.
    Senator Blumenthal. I may have overstated it somewhat, but 
that is the way it looks like to----
    General Raymond. Again, it is a big focus item for our Air 
Force. I am 100 percent in agreement with you. We are working 
this hard.
    Senator Blumenthal. Let me ask you what can we do to help 
you with either recruitment or the training or the retention, 
whatever it is. Maybe you have some recommendations.
    General Holmes. Well, Senator, we are going to bring 
forward a plan that will both increase production. We think we 
need to stand up two more fighter training units that train 
students out of undergraduate pilot training and turn them into 
fighter pilots. We are going to work with the Guard and Reserve 
to ask them to absorb more of our Active Duty young pilots into 
their squadrons. Then we will have to increase our UPT 
production also to be able to make that happen.
    We think if we do that, we can start to address that gap, 
and next year we will bring you a plan. We are going to make it 
fit into our budget, but there will be something else that 
falls out. We will bring you a plan next year to address it.
    Senator Blumenthal. Well, if I may just suggest, with all 
respect, I think to have a plan next year is great, but it 
seems to me if we are expecting a deficit of 834 by 2022, the 
sooner the better.
    General Holmes. Yes, sir. In the short term, we will use 
the bonus and the tools that we have to try to retain as many 
of those pilots as we can. We know that their readiness is a 
big part of that. To keep fighter pilots, you need to give them 
a chance to be good at their jobs and be ready, and we are 
working to fund the requirements of readiness as we go through. 
We also think that there is a reduction in tempo that is a part 
of that. We need to give them more time to train and more time 
to have a full career in the airplane. Then we are going to 
work to make sure we absorb every person we can that leaves 
Active Duty into the Reserve or the Guard so that we hold onto 
that experience.
    Senator Blumenthal. I think that is a very important point. 
If I may just make a request from someone who is a supporter, 
not a critic, that if you could give us a plan, even if it is 
only a chalkboard plan, even if it is only scribbles or 
whatever, it is not a final finished product, but just so we 
can reassure ourselves that we are on track to fill this gap.
    General Holmes. Yes, sir. We will be happy to work through 
that with you and your staff and tell you what we are planning 
to do.
    Senator Blumenthal. Thank you.
    Let me just quickly ask Lieutenant General Bunch. I think 
you were at last week's Armed Services Committee hearing when 
Secretary James testified that the Air Force believes that 
foreign military sales will protect unit costs from increasing 
as a result of some of the cuts in the F-35 so that, in effect, 
there will be no increase in cost per unit despite a reduction 
to 43 instead of 48 in the procurement in F-35's. I asked the 
question where are those foreign military sales going to go. I 
think that Secretary James said she would produce more 
information about it. Maybe you have some more information now.
    General Bunch. Sir, I was not at the hearing, but I did 
hear the question. It was we are not going to pay an increase. 
The gap of us moving our aircraft out of the FYDP was filled by 
the Navy and the Marine Corps, our partner nations, and foreign 
military sales. I thought I had written down the three nations 
that we were doing the foreign military sales with, but I do 
not have them in my notes--so I apologize for that--that we 
would attribute, and we have other ones that are there. But I 
will get you that information, sir. I apologize.
    General Holmes. Senator, the partners that are buying 
aircraft are the United Kingdom, Italy, the Netherlands, 
Australia, Norway, and Turkey. Denmark and Canada are still 
making up their mind, and they may move in. On the FMS [Foreign 
Military Sales] side, it is Israel, Japan, and Korea. Then the 
combination of all those partners, plus the Navy and the Marine 
Corps--the program manager has assured us that the price will 
stabilize.
    Senator Blumenthal. There will be an increase somewhere in 
that group.
    General Holmes. The quantity is big enough that taking that 
small amount down will not have much of an impact. Then every 
year, each lot--the price is going down, and that also figures 
into it too. The lots that are being negotiated now are at a 
lower price than the previous lots.
    Senator Blumenthal. If you could or maybe she or somebody 
get back to me with a somewhat more definitive answer. I 
understand those are the nations that are buying planes. I know 
that the Marine Corps and the Navy are buying planes also. But 
if you could just give me a rationale and an explanation, I 
would appreciate it.
    General Holmes. Sir, we will take that. That is to me.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    Senator Cotton. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen and Ms. Costello, thank you for being here today. 
I appreciate it.
    I am going to go back to something that Senator Blumenthal 
was mentioning with our pilots. General Holmes, you mentioned 
moving some of those pilots' capabilities into the Guard and 
Reserve. I just want to address the fact that Iowa--just in 
recent years, our Iowa Air Guard lost its F-15's. Those went 
away. It was replaced with an ISR unit, which is great. 
Unfortunately, we lost those pilots. They had to go elsewhere. 
Now we have RPA [Remotely Piloted Aircraft] capabilities with 
the ISR unit.
    Has there been discussions that we are not aware of with 
the Guard or Reserve, or is this just an idea for the future?
    General Holmes. We have done several specific things, 
Senator Ernst. Thank you.
    One of them is our Air Force Reserve is now taking students 
straight of commissioning that there was not a spot for them in 
the Active Duty Air Force, and they are bringing them straight 
out of ROTC direct into the Air Force Reserve without knowing 
what unit they will go to, send them to pilot training, and 
banking on the fact that there will be a requirement for them.
    On the Air National Guard side, we have associations where 
we are already sticking some of our brand new Active Duty 
pilots there to gain more experience.
    Then we are recruiting hard with our Active Duty pilots 
that are leaving the service. There are vacancies in both 
Reserve and Guards units, more in the Guard than in the 
Reserve, that we are working hard to try to help them fill 
either with Active component airmen that are leaving Active 
Service and want to continue to serve or by bringing in even 
brand new lieutenants into the Guard and Reserve to make sure 
that we keep their roles filled as well.
    Senator Ernst. We still have a need for those pilots. I 
guess going through discussions a number of years ago, I guess 
I am having a hard time following then why we moved away from 
the F-15's in the Guard and the decision behind that.
    General Holmes. Well, so the decision, ma'am, was that 
again in the Department, the Department of Defense believed 
that we had excess capacity in what they call TACAIR [Tactical 
Air], which in the Air Force is our fighter force. They decided 
that we could accept some risks there. The Air Force's answer 
for the Air Force, that meant to go down to somewhere around 48 
or 49 fighter squadrons was the fiscal year 2015 proposal. We 
think that was too small. We are happy to be back at 55, and we 
do not think we can go below that. Of that 55, roughly half of 
those squadrons are in the Guard and Reserve already. We are 
already making really good use of that capability.
    Senator Ernst. Thank you, General Holmes. I agree it was 
too low as well.
    I would like to turn to the 400 fighter aircraft that have 
been retired from the Air Force since 2010. We have had delays 
in the F-35A's--those deliveries. This has caused what I 
believe to be a combat fighter shortfall in relation to the 
combatant commanders' operations plans requirements. At least 
that is what it looks like.
    Is there a current Air Force combat fighter shortfall?
    General Holmes. Thank you, ma'am.
    That 55 fighter squadrons, when applied against the problem 
set that the Department asked us to model against, we would say 
is barely enough. There is nothing extra in there to be able to 
meet the requirement. As we go forward beyond this year, then 
because the average age of our fighter force is 27 years old, 
because we curtailed the F-22 buy, because the F-35 is not 
coming aboard in the numbers we expected, and the second FYDP 
starting in fiscal year 2022 is where we will start to run into 
a real problem. It is going to require us to extend the service 
life of older airplanes, hopefully increase the production buys 
on the F-35, and then think about some options beyond that, 
both some higher-end options and some lower-end options that 
might be more affordable.
    Senator Ernst. With the decline in the combat fighter 
squadrons, has this impacted the ability to deploy air power 
assets to prosecute the air campaign against the Islamic State? 
I think that is a large part of why we need these assets.
    General Raymond. Senator Ernst, it has not impacted our 
ability to deploy fighter squadrons for the current fight. When 
we talk about readiness, Air Force readiness, we talk about 
full spectrum readiness, and part of the equation that goes 
into this is that less than 50 percent of our fighter squadrons 
today are full spectrum ready. They are ready to do what we are 
asking them to do today, but they are not ready to cover all of 
the requirements that they may have to be required to cover in 
an operational plan to meet a combatant commander's 
requirements.
    Senator Ernst. That is where the assuming risk comes into 
play is that you focus in one area, but you may not be able to 
cover down in other areas.
    General Raymond. It comes at a cost of readiness in the 
full spectrum, and it would require time to be able to recoup 
that readiness.
    Senator Ernst. Very good. Any other thoughts? General 
Bunch?
    General Bunch. Senator, thank you. I would just add that we 
do have a continuing requirement in the combat in Syria and 
Iraq, and when you put that with the requirements in 
Afghanistan, with the requirements to deploy to the Pacific to 
reassure our allies and to deter potential adversaries there, 
and now we have added an additional requirement in Europe with 
the Russian activity where we are now also deploying TDY 
[Temporary Duty] squadrons there from both the Active and the 
Reserve component, the cost of that is readiness to the force 
that we have. Every time we do that, it makes them less ready 
if they have to go fight a near peer adversary or a very 
capable adversary. That is what the Department has to balance, 
how many they provide and how much opportunity they allow our 
crews to train to make sure that they are full spectrum ready.
    Senator Ernst. Certainly. Thank you very much for being 
here.
    Thank you, Mr. Chair.
    Senator Cotton. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to all of you for being with us today, for all you 
do for our country.
    I want to talk a little bit about the Utah testing and 
training range. As we discuss the modernization of our aircraft 
and of our weapon systems, it seems appropriate to me that we 
ought to discuss the need to make sure that our test and 
training ranges are there and available to be used so that we 
can test fifth generation weapon systems against emerging 
threats that are becoming more and more sophisticated all the 
time and that are sort of closing the gap.
    I am pleased to report that just two weeks ago, an F-35 
with the 34th Fighter Squadron at Hill Air Force Base 
successfully deployed and dropped a laser-guided bomb over the 
UTTR [Utah Test & Training Range].
    I am a cosponsor of a piece of legislation, along with 
Senator Hatch, that would enhance the UTTR, and that I think 
would, in turn, enable the Air Force to more effectively test 
the F-35 and other fifth generation aircraft in the coming 
decades.
    General Holmes and General Raymond, I would like to ask you 
detail for the committee the importance of preparing these 
ranges for testing fifth generation weapon systems and 
protecting them from issues that could compromise our ability 
to use them.
    General Raymond. Senator, it is a great point. It is one 
that we are also putting a lot of focus on. As part of our 
readiness pillars, one of the pillars of readiness that we 
focus on is training. Over the course of this budget, we have 
put forward about a billion dollars extra to focus on that 
training, focusing on making sure the ranges have those 
capabilities that they need to simulate that high-end threat, 
to make sure that we have the airspace required to be able to 
do that. We are working live, virtual, and constructive 
training as well to help with that effort. But it is something 
that is going to be absolutely critical for our readiness going 
forward. We put some funding into it this year to be able to 
start that and to seeing that growth.
    Senator Lee. I am glad to hear that.
    General?
    General Holmes. Sir, we appreciate, Senator, the efforts 
that you and Senator Hatch have made in your act to avoid 
encroachment on the ranges. That is certainly important to us 
to keep that airspace. We will have to move a lot of our 
highest-end training into simulators because we do not want 
people to watch us do that highest-end training.
    Senator Lee. That would be fun for everyone.
    General Holmes. But we are always going to have a need for 
the real ranges to fly real airplanes against real threat 
emitters so we can make sure that things work. That is where we 
are trying to put that money over the next 5 years that Jay 
talked about.
    Senator Lee. Great. Thank you.
    Several of my colleagues and I have expressed concerns 
about hiring issues at Air Force depots, which is a challenge 
faced by depots across the services. The time it takes to hire 
civilian workers for some of these positions, including 
especially things like engineers and some of our maintenance 
technicians, are ridiculously long. I mean, these are time 
frames that would put a private sector business really out of 
business.
    I know this is something the Air Force is working on, and 
we look forward to assisting in any way we can to alleviate the 
problem. How will these hiring issues impact your modernization 
efforts if they are not addressed?
    General Bunch. Senator Lee, thank you for the question.
    Hiring of civilians at our depots is a key concern and one 
we are working very feverishly. I know that we have been over 
and presented information to you and the depot caucus on some 
of those initiatives.
    It can impact. We make decisions based on a number of 
people coming in. We have had an action team going from an FMC. 
We have also got a team at AFPC [Air Force Personnel Center] 
and the air staff, A-1, has rolled into this trying to 
streamline that process, trying to get as many authorities as 
low in the organization as is possible. It is something that we 
are tracking very closely, but it is critical that we hire more 
people in a more timely manner.
    Senator Lee. Well, thank you. I appreciate that.
    Over the last two years, there have been a lot of 
discussions in this committee regarding the Air Force's plans 
to retire the A-10 and move its uniformed maintainers to new F-
35 units. Now that you have decided to keep the A-10 
operational, what steps are being taken to ensure that the F-35 
has the required maintenance personnel so that we can make sure 
this is covered both in the short term and in the long term?
    General Holmes. Thank you, Senator. We are kind of doing 
everything we can think of, including the suggestions that we 
got from this committee in previous years. We are contracting 
out maintenance in some of our nondeployable squadrons, 
particularly training units. In this budget, we asked to hire 
civilian contractors to do the work at places where we train 
people to fly the fighters so that we can free maintenance 
people up there to go to F-35 school. We are asking our Reserve 
and Guard to help us in several places, notably they are 
primarily at Luke and at Hill, as we change the mission there. 
We are amending our high-year tenure rules so that we can keep 
a tech sergeant skilled mechanic longer than the rule set would 
allow them to stay in the Air Force at that grade. We have 
reviewed the bonuses for maintainers to try to retain more so 
that we have a larger force. Then with the end strength that we 
have requested an increase in this budget, a healthy portion of 
that end strength goes to training more maintainers to fill in 
that gap, and we stood up additional instructors and classroom 
time in our tech training school to try to provide people to 
fill those requirements.
    General Raymond. Could I add? We also made a down payment 
and procured some additional manpower in this budget and 
specifically targeted them to maintainers. One of our big 
readiness levers is having the right folks with the right skill 
set, and we have started that initial procurement of additional 
bodies this year.
    Senator Lee. Wonderful. That is helpful. Thank you very 
much.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator McCain?
    Senator McCain. General Holmes, I believe that the 2016 
NDAA required a reporting on the total number of F-35's that 
will be procured. I believe that that information was supposed 
to be submitted to the committee some months ago. Do you have 
any response to that?
    General Holmes. Senator, I believe that the Department made 
that a CAPE [Cost Assessment and Program Evaluation]-led study 
that the Air Force is participating in. I will double check to 
make sure, but I believe we are working with the CAPE to 
provide the answers back in that study.
    Senator McCain. Have you notified the committee as to why 
you have not complied with the law?
    General Holmes. Sir, again, I will check with CAPE, and if 
they have the lead on that study, I would have expected them 
to.
    Senator McCain. You do not know whether they have complied 
with the law or not?
    General Holmes. No, sir, I do not.
    Senator McCain. I am curious why not.
    It is my understanding that you are keeping the cost of the 
program classified. Is that correct?
    General Bunch. Sir, are you addressing the B-21, sir? I am 
sorry. I apologize. I misunderstood the question, Senator.
    Senator McCain. Yes, the B-21.
    General Bunch. Yes, sir. At this time, we have not released 
contract value to everyone. We have released the service cost 
position and the independent cost estimate. We did release 
that. In the base year 2016 dollars, it was $23.5 billion for 
the EMD [Engineering Manufacturing and Development] phase.
    Senator McCain. Why would you not ever want to tell the 
American people how you are going to spend their dollars?
    General Bunch. Sir, one of the things that we are doing is 
we had a closed session with this committee. We are also trying 
to arrange closed sessions with the House SASC.
    Senator McCain. Why should the taxpayers not know? Why 
should the average citizen not know what the cost of a--
whatever--how many tens of billions of dollars--$80 billion to 
$100 billion program? Should the taxpayers not know that?
    General Bunch. Sir, we are trying to balance the 
transparency that we want do with the public so that they 
understand what we are doing, but we are also trying to protect 
the critical capabilities of this asset.
    Senator McCain. By saying how much it cost?
    General Bunch. Sir, we are trying to prevent the ability of 
individuals to link different pieces that may be unclassified 
together to get an idea of how the money is being spent so that 
they----
    Senator McCain. Tell me another time where we have not told 
the American people the cost of something that they are paying 
their tax dollars for.
    General Bunch. Sir, we have given Congress and we have 
given the taxpayers the amount of money that we are expecting 
to pay--what the acquisition program baseline is and the amount 
of money that we, the Air Force, are committed to get this 
capability delivered so that we can serve the Nation.
    Senator McCain. General, you are not serving the Nation or 
the taxpayers if they do not know how much of their taxpayer 
dollars are being spent. You and I have a very different view 
of our obligation to the taxpayers. Frankly, I have never heard 
of this before, that they should not know how much of their 
dollars that they pay in taxes are being spent because somebody 
might connect the dots? What is that all about?
    General Bunch. Sir, I believe we have shared with the 
public and with the committee----
    Senator McCain. The public knows exactly what the cost of 
it is?
    General Bunch. They know our average procurement unit cost. 
We have released that and we have released our independent cost 
estimate and our service cost position.
    Senator McCain. You have not complied with the laws, the 
total number of F-35's. You do not want to tell the taxpayers 
how much the B-21 costs. We now are finding ourselves in a 
shortfall of aircraft of the F-35 which you say will not 
increase the unit costs because of foreign sales. Is that 
correct, General Holmes?
    General Holmes. The program office says that with the total 
number of aircraft that are being bought that our reduction of 
five will be made up by the other partners and that we should 
not see any increase in cost.
    Senator McCain. It will be met by the other partners. How 
much is five aircraft?
    General Holmes. It depends on which lot we are talking 
about, Senator. But five aircraft are roughly $700 million I 
think.
    Senator McCain. So $700 million of five less aircraft will 
be made up by increased foreign sales?
    General Holmes. Sir, the program office says that total buy 
is big enough that a change in five in 1 year will not have a 
big impact on the price.
    Senator McCain. So $700 million. That will be just chump 
change.
    General Holmes. Well, sir, so we pay by the airplane, and 
we are not buying those airplanes. The impact is on the cost 
spread across all the fleet and there is a factor, the more you 
build in a year, the cheaper they are. But we are not 
amortizing that $700 million over the rest of the airplanes 
that are being bought. We are not spending that money. We are 
not giving it to Lockheed. The price is based on the number 
that you buy in a year and a lot and not on the other parts.
    Senator McCain. Then why do we not do 10 less since it 
would be cheaper then?
    General Holmes. Because it is a capability we believe is 
very important to us. But at the budget totals we were told to 
plan under, that was all we could afford and hold onto the rest 
of the force structure that the NDAA told us to and meet the 
other requirements that we are asked to meet.
    Senator McCain. Now, is there a proposal? I understand 
there is a proposal to transition out of rated pilots for 
operation of drones. Is that correct?
    General Raymond. Yes, Senator McCain, there is. We are 
going, starting in fiscal year 2016 or fiscal year 2017, to 
begin the transition to enlisted RPA pilots for the Global Hawk 
aircraft.
    Senator McCain. But not the rest.
    General Raymond. Not at this time. We have done a similar 
thing. I grew up in space operations. Years ago, we started out 
with engineer officers that flew satellites. We went to 
operator officers. You did not have not have an engineering 
degree, and then we transitioned to enlisted operators. We are 
taking a very deliberate approach to this. We are going to 
start with the Global Hawk. We are very comfortable that our 
enlisted airmen are going to be able to do that. We want the 
``get well'' plan and the other initiatives that we have for 
the MQ-1 and MQ-9 to take root, and then we will evaluate 
further going forward.
    Senator McCain. Do you think it was a good idea to start 
with to require rated pilots, particularly given the shortfall 
we have?
    General Raymond. I was not in this position or in this job 
at that time, but it is where we are. I think it was important 
that we have a capability. It was a technology demonstrator 
with significant growth, and I think using the pilots that we 
had to do that was a smart move at that time.
    Senator McCain. I thank you, Mr. Chairman.
    Senator Cotton. Now we will go into a second round of 
questions. I have some questions first about the tanker 
program, Ms. Costello.
    The delay in the first flight of the first fully 
missionized KC-46 Alpha and subsequent slipping of required 
testing caused a postponement of the milestone C full rate 
production decision until May of this year. How will this slip 
of that milestone C decision impact Boeing's ability to deliver 
its required 18 aircraft by August of next year?
    Ms. Costello. That slip is not expected by Boeing to cause 
a problem with the RAA [Rapid Acquisition Authority]. They are 
holding to their belief and their expectation that they can 
deliver the 18 aircraft on time for RAA. The milestone C is 
currently still planned for May of 2016 and the RAA for August 
of 2017, and we are proceeding on that path.
    Senator Cotton. We can expect 18 aircraft on August 2017?
    Ms. Costello. Boeing is standing by their position that 
they can deliver that, and the Air Force is cautiously 
optimistic that we can, in fact, achieve that, sir.
    Senator Cotton. On an anomaly, I understand there are 
concerns that higher than expected axial loads on the boom when 
in contact with the receiver aircraft that was discovered 
during refueling test flights. Can you explain that a little 
bit further and comment on any schedule impact that it might 
have?
    Ms. Costello. We are currently working with the contractor 
in order to assess that. They have got a CDR [Critical Design 
Review] plan for some fixes. They are looking at the analysis. 
It will be a couple weeks before we know what their recommended 
solution is, and at that time, we will have to figure that in 
whether it has an impact on any of our future decision points. 
They will at least have to do some software work, and we are 
determining what else, if anything, has to happen.
    Senator Cotton. Let us return to today's aircraft, 
specifically fourth generation fighter aircraft. General 
Holmes, in the fiscal year 2017 budget request, you stated 
there were additional fourth generation fighter capability 
upgrades that you lacked sufficient to include in the request. 
Could you please describe the upgrades, the threats they 
counter, and the specific aircraft which would be modified? 
Please do so in layman's terms----
    General Holmes. Yes, sir, I will.
    Senator Cotton.--understood by normal citizens, not 
Appropriations Committee staffers.
    General Holmes. Thank you, sir.
    Senator Cotton. Could also be understood by subcommittee 
chairmen.
    General Holmes. Yes, sir.
    The two primary airplanes we will look at for fourth 
generation modifications are the F-15 and the F-16. On the F-15 
side, we have run a test to see how long the airplanes will 
last. We take a test stand that is built by engineers, and it 
bends the airplane and moves it around, and you can see what 
the service life will be in advance by simulating hours of 
flight. We found that the F-15 will not last in its current 
state as long as we hoped it would. We are going to have to put 
some money in the depot schedule and to repairing parts that we 
predict through that process will fail. That is so that it will 
be around long enough that we can keep flying it.
    Then the capabilities that they will need to stay relevant 
against the threat are they will need a new radar. An 
electronically scanned radar is very important to counter 
advance jamming threats that have been propagated primarily by 
the Russians and Chinese and others. They will need a digital 
radar warning receiver which allows you to know whether an 
advanced radar is looking at you or targeting you. They will 
need advanced electronic combat capabilities to defeat that 
radar. Then they will need a new computer to tie all that 
together and make it work. That is pretty much it for the F-15 
side.
    On the F-16 side, there is some service life left on those 
airplanes, and we had not planned to use it because we thought 
they would be replaced by F-35's, but some of them will not be 
because of the delays in that program. There is a very limited 
number of them that will have to have some service life 
extension to make them last longer, and then we will do the 
same kind of upgrade on them if we can get the money to do it, 
which would be a new radar, a new central computer, a new radar 
warning receiver, and new electronic combat gear.
    We could not get to those as fast as we would like to. We 
do make a down payment on that in this program. If we had extra 
money, we would put money there. Thank you.
    Senator Cotton. Ms. Costello, I want to turn to the UH-1 
November helicopter replacement program. Secretary James 
recently testified that an acquisition decision is due soon on 
the replacement program. She also testified there is a sole 
source option under consideration to replace the current fleet. 
I understand that a request for information was issued to 
industry last year, which would seem to indicate the Air 
Force's intention to conduct an open and competitive bid 
process.
    If the decision is to proceed with the sole source award 
for the helicopter replacement program, are you prepared to 
present this committee with the overwhelming evidence necessary 
that such an award would actually provide best value to the 
American taxpayer?
    Ms. Costello. Yes. We would share the information that we 
can gather along the way. What is going on right now is we have 
gone out and mitigation efforts have been taken over the last 
year, but we believe we still need to look at what we can do 
with the helicopters that support the nuclear mission 
especially.
    We are looking--and we have asked for STRATCOM and for the 
Air Force Global Strike Command to outline the criticality of 
their requirements so we can prioritize which helicopters need 
to be replaced immediately as opposed to in the long term. When 
we get that information, we have asked for our team to put 
together some options. Sole source is one of those options, but 
they are looking at a couple COAs right now. They are supposed 
to come back over the next couple weeks for me to hear what 
they are representing, and then we will make a decision on our 
way forward at that point in time.
    Senator Cotton. I understand--correct me if I am wrong--
that the helicopter will be used both for the ICBM [Inter 
Continental Ballistic Missile] security mission and then for 
what you might call Washington-centric missions, continuity of 
government, VIP transport, and so forth.
    Ms. Costello. That is part of what we are looking into. 
Right now, we are focused on the nuclear support mission, which 
is the ICBM convoy, and support in that area. We are looking at 
options that might break out the other missions separately and 
consider that for future procurement. It has not been decided 
yet, but these are the type of COAs [Course of Action] that are 
being looked at.
    General Bunch. Senator Cotton, Ms. Costello is exactly 
right. The nuclear deterrent that we have is safe, secure, 
ready to go if needed. Our focus right now is a capability gap 
that the UH-1N cannot quite meet despite the mitigation steps 
that we have taken, and we are going to weigh the risks 
associated with that and the critical nature of that 
requirement against the urgency of need and that would be--I am 
sorry, sir.
    Senator Cotton. Why can it not meet those requirements?
    General Bunch. There is a time to respond and a carriage 
capability they cannot quite meet. I believe those are two that 
we are short in. We are going to look at the urgency of that 
requirement. If we do decide that we wish to go sole source, it 
will solely be focused in those areas to address the nuclear 
mission. It will not be used to address the entire fleet. It 
would be an urgency need to meet that what we would come 
forward with, sir, if the evidence that comes to Ms. Costello 
is appropriate for that.
    Senator Cotton. Some observers might say that a next 
generation fighter or bomber is a uniquely complex kind of 
platform that might need special contracting consideration, but 
a helicopter to fly even long distance with heavy loads is a 
pretty traditional kind of platform. What would necessitate a 
sole source contract for a helicopter?
    Ms. Costello. In this case, what we are looking at is the 
time in which they need it. If they need it to be procured in a 
certain amount of time and the mission requirement is in fact 
validated, then we have to look at how fast we can buy it. 
There are opportunities to buy off existing contracts that are 
one of the COAs as opposed to going off and doing a whole new 
contracting event. Those are the types of things that we have 
asked them to look at, what are the pros and cons of each 
option. A decision has not been made yet. We have got to get 
the data. We have to assess it against the timeliness required, 
weigh the pros and cons, and then make a decision.
    Senator Cotton. Thank you.
    Senator Manchin?
    Senator Manchin. Just very quickly. General Bunch, what 
would be the impact of reforming the contract for the B-21 to a 
fixed price contract?
    General Bunch. Sir, we have looked at it and the assessment 
is we cannot shape the contract that we have to that. We would 
have to terminate that contract. That would have a cost of over 
$300 million to do the termination. We would then have to have 
a recompete. If we did that recompete, that would be somewhere 
in the neighborhood of 24 to 30 months to complete the 
recompete. There would be a commensurate delay in fielding the 
aircraft, sir.
    Senator Manchin. What is the $300 million? What constitutes 
the cost of $300 million?
    General Bunch. We are on contract with a company that has 
gone out and put suppliers on contract and on order, and they 
have started their business case. The analysis that we have 
done to----
    Senator Manchin. There is a penalty clause by them if we 
break it.
    General Bunch. Yes, sir, because the contract that we have 
with Northrup.
    Senator Manchin. Yet, they are on a cost-plus.
    General Bunch. They are on a cost-plus, sir, and they have 
gone out to try to do----
    Senator Manchin. You know it is not real popular here. 
Right?
    General Bunch. I do understand that, sir, and I still 
believe it is the best choice for the contract type with the 
risks associated. We look forward to the discussion on this 
because we realize there are a lot of different opinions.
    Senator Manchin. I respect that. I really do respect where 
you are coming from. It is just that we all have to get there, 
and I think right now there is such a bad taste in everybody's 
mouth that it is going to be a tough one. We will try it. We 
are going to be open-minded and try.
    General Bunch. Yes, sir.
    Senator Manchin. With that being said, I think, Secretary 
Costello, you General Holmes, in your prepared statement for 
the record, you alluded to a possible replacement for the A-10 
and its close air support capability. This is what you all 
said. The Air Force is funding a combat Air Force study over 
the next year with a portion of this study dedicated to 
informing the fiscal year 2018 to 2022 budget cycle on possible 
tactical air support platform alternatives for low-intensity 
permissive conflict. This will serve to ensure that other 
current platforms in future systems meet future close air 
support requirements.
    If the study were to lead to a decision to select the 
material solution for this mission, how long would it take to 
deliver a new tactical air support platform or a new aircraft 
into the operational force?
    General Holmes. I will defer the how long question, 
Senator. Briefly, the Department has directed in one of their 
RMDs and the direction to us that came with the budget for us 
to work with the study to look at low-cost platforms and to 
work through that. We will, and we will evaluate keeping older 
platforms longer, adding new capabilities to existing 
platforms, and developing a new platform. I will defer to 
General Bunch for how long that might take.
    General Bunch. It depends how off-the-shelf we are talking 
about, sir, and what kind of capabilities. We have to look at 
what is out there in off-the-shelf, some of the aircraft that 
we are using in the more permissive environment and determine 
what capabilities they have and if those would fit the 
immediate need. If it was very well developed and did not have 
to have a stretch for the requirements, we could do that in a 
pretty quick manner. If it is a stretch for the requirements, 
then it may take longer, and we would have to look at the 
individual case study as it comes forward.
    Senator Manchin. My final would be--I also mentioned in my 
opening statement concerning the Air Force's plans to retire, 
as we talked about, the A-10. We just talked about it some 
more. As the new F-35A joint strike fighter aircraft replaces 
them on a one-for-one basis, I understand that while there is a 
one-for-one replacement for the aircraft in squadrons under the 
Air Force plan, it is not clear that close air support 
capability of the modernized force will equal or exceed the 
close air support capability of the current force.
    General Holmes or General Raymond, what is the Air Force 
doing to ensure that as the A-10 aircraft basically is retired, 
the Air Force will not be losing that close air support? Do you 
believe that the F-35 will equal or exceed the A-10 in close 
air support? In the past, you have pointed to the F-15 and F-16 
as picking up close air support missions being vacated by the 
retiring A-10's. I guess you believe that the 15's and 16's 
will be able to equal or exceed, and you believe the F-35 will 
be able to fill in one for one.
    General Holmes. Thank you, Senator.
    We do believe that we will be able to maintain the capacity 
that we need to support the close air support mission. All the 
platforms have some different capabilities that make them 
better in one area than in others. But we think we will be able 
to do that. We are working to make sure that we have the 
procedures to do it. We are establishing a CAS integration 
center at Nellis to make sure that those airplanes are ready to 
do that role, both with the tactics, techniques, and procedures 
and the com systems set to do it. Ultimately we are going to do 
it in the same way that the Navy and the Marines are doing it 
with similar platforms.
    We believe the F-35 will be a capable CAS aircraft. It will 
be particularly capable in contested environments like in 
Russian doctrine, if you bring forward your air defenses with 
you, there will be a limited number of airplanes that can 
operate in that role. It certainly would be an expensive way to 
go after a permissive environment mission, and we hope to not 
have to do that. We will look at other options, as you talked 
about before, of how can you do that permissive environment 
role cheaper.
    Senator Manchin. Thank you.
    Senator Cotton. Just a few wrap-up questions here. First, 
returning to some of Senator McCain's questions about the B-21 
program. I certainly understand the need for secrecy among many 
of the programs of our military, as well as our intelligence 
communities, and highly value those. At the same time, I think 
we should try to be as transparent as we can with taxpayers. If 
we cannot say today what this information is--we know it 
because we have had classified briefings on it. But if we 
cannot say today the answer to some of these questions like the 
contract award value, can you tell us when we might be able to 
provide that information to the taxpayer?
    General Bunch. Sir, I think we will be able to provide that 
in the upcoming months. We are still working our way through 
the GAO [Government Accountability Office] reports, and we are 
working our way through looking at the classification of those 
things. That is something the Secretary has asked us to do. One 
of the issues that we have found as we looked and tried to map 
the path forward, we felt that one of the things that was not 
as transparent with the American public was the way the B-2 
program was handled. We are trying not to mirror that. We are 
trying to release as much information and be as forward as we 
can. We just have not gotten to the point that we can release 
that at this stage.
    Senator Cotton. Well, as we discussed in the classified 
setting last week, I hope we do not mirror the B-2 program or 
the F-22 program in the sense that we actually achieve the 
number of aircraft we want to since the Air Force and our 
Nation badly need the B-21 bomber to be a complete success.
    General Bunch. Sir, we believe we have set in place a 
contract structure and a methodology--or an acquisition 
strategy that puts us in a different place than we were on 
those programs with the right oversight, the right incentive 
structure, the right requirements, and the independent cost 
estimate, and holding those requirements firm.
    Senator Cotton. Second, I want to turn to the C-130H AMP. 
Ms. Costello, the NDAA from last year authorized a restructured 
AMP program and segmented the program in two increments. The 
first increment was aimed at upgrading airspace compliance and 
safety requirements, while the second increment provides 
upgraded cockpit display and commonality across the different 
aircraft variants. Can you please explain why there is no 
procurement funding in the C-130H AMP increment one for fiscal 
year 2017, but there are funds for fiscal year 2018 and beyond?
    Ms. Costello. In our budget this year, we do accelerate the 
increment 1 AMP program so that we do meet the FAA mandate. We 
have accelerated so that all 172 H's will have increment one 
installed in time for that to be done. While most of the 
funding is later in the FYDP, it does get that done. We will 
complete all of that work by December of 2019 so that our 
aircraft will meet the mandate.
    For increment 2 AMP, we also have accelerated that in this 
year's budget, and we brought forward 14 years earlier when we 
will complete having install of the increment 2. It will be 
completed by 2028 now.
    Senator Cotton. So all--I am sorry.
    General Bunch. We just released the request for proposal 
for the INC-1 [Increment] yesterday, so we are getting that 
program started. It is early in its phases, but we will 
complete it by the end----
    Senator Cotton. As I understand, the budget tables include 
no funding for fiscal year 2017. Is that right?
    General Holmes. Sir, let me double check that for you. We 
believe we fully funded the program and we are going to get it 
done.
    Senator Cotton. I know the omnibus last year included $70 
million for it. What I am curious about is whether that $70 
million is in your opinion adequate for the entire fiscal year 
2017.
    General Holmes. Sir, can I take that for the record? We 
think it is fully funded.
    Senator Cotton. You may take it for the record as long as 
you answer it for the record.
    General Holmes. Yes, sir, we will.
    Senator Cotton. Okay.
    General Holmes. I will get it back to you right away. If 
there is not money in 2017, I am guessing it is because we are 
spending it in 2016, and then there will be a gap between the 
procurement. But let me double check that and make sure it is 
all there.
    Senator Cotton. What are the Air Force's plans for the five 
operational C-130H aircraft that were upgraded in the previous 
AMP program but are currently stored at Little Rock Air Force 
Base in a non-flying status?
    General Bunch. Sir, they are going to be ones that we 
consider later on in the program, and we will not look at those 
in increment 1 at this time. We looked at the estimated cost to 
get those into the configuration to go INC-1, then INC-2 
[Increment 2], and it is very much more expensive to get those 
into the increment 1 stage first and then to go to the 
increment 2, almost four to five times as much as taking a 
fielded C-130H and getting them to increment 2.
    Our strategy is we are going to look at that as we go into 
increment 2. We will reanalyze where we are at with our 
inventory, and then we will assess it as we go into increment 
2. We are not going to try to address it in increment 1.
    Senator Cotton. Third and final. I have heard a lot from 
commanders around the world in different combatant commands in 
the different services about diminishing weapon stockpiles. 
General Holmes, do you have the appropriate authority to 
procure munitions based on expected expenditure rates, not 
simply past expenditure rates?
    General Holmes. We do this year, Senator, and that is a new 
change in the way OMB is dealing with OCO [Overseas Contingency 
Operations] and we hope that you will too. But they allowed us 
to predict our expenditures this year in 2017 so that we can 
reduce the time it takes us to replace OCO munitions.
    Senator Cotton. When I hear you say we do this year, it 
raises a question of whether you are trying to say we do not 
for future years.
    General Holmes. Sir, I was not trying to avoid that 
question, but the administration decided to do it 1 year at a 
time and give us that authority 1 year at a time. I believe 
they did not want to tie the next administration's hands prior 
to them having a chance to decide. They did it in this year, 
and we expect it to follow.
    Senator Cotton. What munitions, aside from JDAMS [Joint 
Direct Attack Munition], do you anticipate a future need for?
    General Holmes. Sir, I have got a long list of munitions. 
The primary OCO munitions that are being expended are JDAM 
kits, the bomb bodies that go with it. SDB-1 and Hellfire are 
the ones that we are looking to buy in advance as we go 
forward. Then my preferred munitions list to fill up the entire 
kind of magazine of my requirements include also air-to-air 
munitions and some more sophisticated air-to-ground munitions 
as well.
    Senator Cotton. Do you have adequate funding for all those 
munitions?
    General Holmes. Sir, I believe that we could spend more 
money there. It is one of the places that we need to. It is one 
of the areas that, as we balance risk across the Department, we 
are accepting risk there.
    Senator Cotton. Not many examples of something that is more 
suitable for OCO spending than replenishing rounds. Is there?
    General Holmes. No, sir. It is a great one. The problem is 
that our industry's capacity is limited on what they can do in 
1 year. At the OCO rates we are buying now, we are maxing the 
capacity on JDAM. Most of the weapons we are buying we are 
buying at that economic order quantity that the manufacturer 
can build without losing money. To increase that procurement, 
we will have to go back and also pay for increased tooling and 
other things at the manufacturer to be able to buy them at a 
great lot in 1 year. What we would propose, if you would like 
to work with it, would be a multiyear plan that gradually 
increases the amounts so that we can buy back what goes in 
those magazines. But we need more money if we are going to do 
that.
    Senator Cotton. Is that primarily a question of budget 
resources and industry capacity versus your authorities?
    General Holmes. We have the authorities, sir, in our base 
budget to go out and procure munitions. It is a matter of 
deciding where we are going to take the risk. In the OCO area, 
we did not press beyond what industry could do in 1 year. I am 
not sure I can answer that. But we have the authority to go out 
and use the predicted expenditures and buy those in advance.
    General Bunch. Senator Cotton, we are in negotiation with 
Boeing on JDAM to ramp up so that we can meet not only our 
needs but our allies and foreign military sales and other 
requirements. We are doing those negotiations to try to get up 
to a higher production rate.
    Senator Cotton. The Director of National Intelligence 
testified last year that the global threat environment was as 
severe as he had ever seen it in 45 years. He said he expected 
to say the same thing next year, and he did in fact say the 
same thing this year. It is the worst he has seen in 46 years. 
He did not make a prediction for next year. But I will ask you 
if you would expect us to have a lower or a higher need for 
munitions in the coming years.
    General Holmes. Sir, in my opinion, it will continue to be 
at the same way it is now at least for years to come.
    Senator Cotton. Well, thank you all very much for your 
time. Thank you very much for your service. We appreciate 
everything you do for our country, and we look forward to 
working together over the coming months to make sure that our 
Air Force has the authorities and the budget it needs to 
perform all of its missions.
    This hearing is adjourned.
    [Whereupon, at 4:04 p.m., the hearing was adjourned.]



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 16, 2016

                           U.S. Senate,    
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

ARMY UNMANNED AIRCRAFT VEHICLE AND AIR FORCE REMOTELY PILOTED AIRCRAFT 
                              ENTERPRISES

    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Tom Cotton 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Cotton, Rounds, Ernst, 
Sullivan, Lee, Manchin, Gillibrand, Donnelly, and Heinrich.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. The hearing will come to order.
    The Airland Subcommittee meets today to consider the Army's 
unmanned aerial systems and the Air Force's remotely piloted 
aircraft enterprises in the context of our review and oversight 
of the fiscal year 2017 defense budget request.
    I welcome our witnesses: the Commander of Air Combat 
Command, Air Force General Herbert ``Hawk'' Carlisle; the 
Commander of Training and Doctrine Command, Army General David 
Perkins; and the Director of Defense Capabilities and 
Management for the Government Accountability Office, Ms. Brenda 
Farrell. Thank you all for your service, and we appreciate your 
attendance at the hearing today.
    Unmanned aircraft systems are incredibly valuable, yet in 
short supply. These aircraft greatly increase the ability of 
commanders to gain situational awareness, exercise command and 
control, and provide strike capabilities over the modern 
battlefield.
    Our combatant commanders have repeatedly testified to the 
importance of and the increasing but unmet demand for these 
aircraft. Most recently General Breedlove, the Commander of 
United States European Command and Supreme Commander of NATO, 
testified that definitely below 10 percent of his command's 
intelligence, surveillance, and reconnaissance, or ISR, 
requirements are currently being met. The story is similar 
around the world.
    The Pentagon has long faced challenges with integrating and 
assimilating unmanned aircraft for both ISR and kinetic strike 
missions into its concepts of operations, doctrine, training 
organizations, and personnel processes. Another challenge is 
cultural, namely, moving from primarily manned aviation to a 
big increase in unmanned aircraft.
    The Army and Air Force have taken different approaches to 
integrating unmanned aircraft in their services based on their 
unique competencies, roles, and mission requirements.
    First, the Army employs their UAV [Unmanned Aerial Vehicle] 
systems in support of tactical units and key battlefield 
functions. Most are organized into platoons and are organic to 
brigades and divisions. Others are organized in larger 
formations to support corps and theater commanders.
    The Air Force uses remote split operations to employ both 
their medium- and high-altitude remotely piloted aircraft 
primarily in a theater operational role.
    Second, the Army uses enlisted UAV operators, supervised by 
warrant officers and commanded by officers, while the Air Force 
tasks their rated officer pilots to fly their remotely piloted 
aircraft organized like a traditional flying squadron.
    Despite literally dozens of reviews, task forces, studies, 
and reports on unmanned aircraft enterprises by the Department 
and the GAO [Government Accountability Office], much room for 
improvement remains.
    For instance, then-Secretary of Defense Robert Gates 
remarked in April 2008 that he had been trying to get more ISR 
assets into the CENTCOM [Central Command] theater and, quote, 
because people were stuck in the old way of doing business, it 
has been like pulling teeth. End quote.
    Secretary Gates, therefore, established the ISR Task Force 
during which the Air Force presented a plan to reach 50 combat 
lines of MQ-1/MQ-9 aircraft by 2011 and 65 combat lines by 
2013. Nevertheless, several years later, the Air Force still 
has an enterprise that is undermanned, overworked, and 
demoralized while facing a potential mass exodus of pilots and 
insufficient training infrastructure to replace these losses.
    While I do not personally have fixed or preconceived 
notions about the right policy for either service, it is plain 
that the Department is still struggling with the 
transformation. I am keenly interested, as I know members of 
the committee are as well, in exploring the main issues facing 
the Army and the Air Force and how Congress can assist in this 
critical warfighting area.
    I look forward to the witnesses' testimony.
    I would note that several other subcommittees are meeting 
at this time, so we do expect Senators to be coming in and out, 
to include my ranking member. We will give him an opportunity 
to make his statement, should he arrive in the statement 
period.
    At this point, we will turn to General Carlisle.

STATEMENT OF GENERAL HERBERT J. CARLISLE, USAF, COMMANDER, AIR 
                         COMBAT COMMAND

    General Carlisle. Chairman Cotton, Senator Rounds, thank 
you very much for having me today for this what I think is an 
incredibly important hearing. I am grateful for the opportunity 
to participate and give you my views and hear your thoughts so 
we can move forward in the Air Combat Command.
    As the Commander at ACC [Air Combat Command], I have the 
privilege to lead roughly 140,000 of our Air Force's most 
successful airmen and civilians. The air power they provide for 
our great Nation is both immense and absolutely indispensable. 
Air Combat Command is responsible for organizing, training, 
equipping, and the in-garrison employing of our Air Force's RPA 
[remotely piloted aircraft] enterprise.
    The RPA mission is instrumental to achieving decision 
advantage against our adversaries. It is a powerful asset to 
our national decision-makers and our national security and is 
the backbone to the success of our current fights.
    I am grateful that the committee shares our interests in 
the success of the RPA enterprise, and I know our combined 
concern, collaboration, and action will help advance the 
results this enterprise provides to our country.
    As you stated, Chairman, our Nation's combatant commanders 
employ our Air Force RPAs across a range of military 
operations, and they are incredibly high in demand. They are 
employed in a very distinct way. Here again, as you stated, 
Chairman, they provide theater-level air power, primarily 
focusing their potent capabilities on strategic and operational 
functions. They deliver battlefield effects crucial to the 
conduct of our Nation's current fights and their mission is 
perfectly suited to our agile and amazing Air Force crews 
operating them.
    We recognize our RPA's unique mission and its staggering 
importance to our national defense. Our RPAs can find 
themselves conducting a wide array of missions, again as you 
stated, Chairman. They can provide operationally strategic 
effects by monitoring and identifying and eliminating high-
value targets, and they can deliver tactical air power during 
close air support engagements and in troops in contact 
situations, again often used in that way as well.
    Our warfighters' demand for persist attack and 
reconnaissance through the use of RPAs has skyrocketed. To meet 
this demand, our RPA enterprise has expanded at an 
unprecedented rate over the past 10 years. In 2007, we started 
with seven CAPs [Combat Air Patrol]. Eight years later, we had 
65 in 2015, over a fivefold increase in that time.
    ACC does have a vision and an executable plan for our RPA 
enterprise's future to ensure continued success and, as 
importantly, take care of our airmen and their families.
    First and foremost, we need more manpower in the RPA 
enterprise. Frankly, we are short and we have to plus that up. 
We are increasing our investments in our RPA airmen, their 
mission, and their resources to achieve the stable force the 
Nation requires within that enterprise. Our aircraft upgrades 
and acquisitions will allow us to provide this force with the 
most capable systems possible for the use in the joint 
warfight. The end result is RPAs delivering exactly what our 
combatant commanders are asking for now and in the future. No 
breaks, no reductions, just theater-level air power from this 
enterprise.
    Mr. Chairman, I truly appreciate this committee's 
dedication to our armed forces and in particular in this case, 
the RPA enterprise. I look forward to continued cooperation and 
the success that I know that our collaboration can bring to 
this enterprise.
    I thank you for the opportunity to participate in this 
hearing today and to share our ideas and advance ways that we 
together can make this better. I welcome any questions from the 
chairman and the members of the committee, and I ask that my 
written testimony be entered into the record. Thank you, Mr. 
Chairman.
    Senator Cotton. Your testimony and all other written 
testimony will be written into the record.
    [The prepared statement of General Carlisle follows:]

           Prepared Statement by General Herbert J. Carlisle
                              introduction
    Chairman Cotton, Ranking Member Manchin, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today to discuss how we deliver Persistent Attack and Reconnaissance 
with our Remotely Piloted Aircraft (RPA) Enterprise today and in the 
future. As lead command for the Combat Air Force and the RPA community, 
Air Combat Command is responsible for the organizing, training, 
equipping, and in-garrison employing of the RPA mission. This mission 
is instrumental to achieving decision advantage against our enemies, is 
an indispensable asset to our National Security, and is the backbone to 
the success of our fights in Iraq, Syria, Afghanistan, and other areas 
combating extremism and terrorism. The Air Force is fully invested in 
continuing to achieve sustainability of this enterprise.
    Combatant commanders rely upon our RPA enterprise, and specifically 
our MQ-1 and MQ-9. As we speak, we are flying combat missions around 
the globe. They are arming decision makers with intelligence, our 
warfighters with targets, and our enemies with fear, anxiety, and 
ultimately their timely end.
    But this enterprise is a victim of its own success. An insatiable 
demand for RPA forces has stretched the community thin, especially our 
airmen performing the mission. As much as we value our technology and 
weapons systems, our airmen are truly the most important aspect of this 
enterprise. We rely on their drive, commitment, performance, and 
innovation to find success. Due to mission demands, we have also been 
relying upon their sacrifice. We are taking steps to remedy this 
problem, stabilize the RPA enterprise, retain our valuable airmen, and 
sustain and eventually increase the capability our RPA community 
delivers to the warfighter. Our national defense requires it and we 
will deliver.
                        value of the rpa mission
    Air Force MQ-1s and MQ-9s currently fly 60 Combat Lines (CL) every 
day. Combat Line replaced the term Combat Air Patrol (CAP) and is 
defined as one aircraft's sortie. Each Combat Line can last up to 22 
hours. They aid ground forces by providing close air support during 
troops in contact situations, and employ their Hellfire missiles and 
guided bombs to neutralize their targets. Our intelligence airmen from 
our Distributed Common Ground System watch and analyze every second of 
their streaming video, monitor pattern of life to find potential 
targets, and arm our commanders with decision advantage.
    Their video is also live streamed to devices in the field held by 
Air Force Joint Terminal Air Controllers accompanying Army units on the 
ground or observing the battle from nearby. US and allied forces can 
watch the enemy hide from or advance on their positions. They base 
their movements on the situational awareness provided by our MQ-1s and 
MQ-9s. There is not a ground unit to be found that does not request the 
support of an RPA.
    When we find ourselves conducting combat operations against ISIL, 
al Qaeda, or its affiliates, our RPA enterprise quickly becomes one of 
the most valuable battlefield assets. Combatant Commanders may not have 
ground forces pushing through a city, able to identify enemy combatants 
or high value targets first hand, to radio the target information to 
overhead aircraft. Some of our combatant commander's only true on-the-
battlefield eyes are viewing video streamed from our RPAs and manned 
ISR platforms. In our current conflicts, before an enemy target is 
destroyed by a precision guided munition, it is likely discovered and 
first viewed by an RPA.
    RPAs are not the only aircraft in our inventory equipped with 
visual or infrared sensors commonly referred to as targeting pods. Our 
fighter aircraft such as our F-16s, F-15Es, and even our B-1 and B-52 
bombers carry similar advanced sensors. But they cannot orbit unseen 
and unheard over a civilian population interspersed with enemy 
combatants. They are limited by their loiter time and aerial refueling 
requirements. Our MQ-1 and MQ-9 aircraft have no such limitations. They 
can loiter for longer periods of time and provide enduring battlefield 
effects, without which our combatant commanders would struggle to find 
and eliminate targets.
    Our MQ-1 and MQ-9 enterprise has grown tremendously since its 
inception 20 years ago. In 2006 the Air Force flew 12 Combat Lines. 
Today we fly 60. That is a 5 fold increase and exemplifies the furious 
pace at which we have expanded our operations and enterprise. Today we 
have almost 8000 airmen solely dedicated to the MQ-1 and MQ-9 mission. 
Over 1400 of this 8000 are Guard and Reserve personnel dedicated to the 
MQ-1 and MQ-9 mission. 77 percent of our cockpits are dedicated to 
flying combat lines every single day. The other 23 percent are 
dedicated to sustaining combat capacity though formal training and 
test. Of the 15 bases with RPA units, 13 of them have a combat mission. 
This mission is of such value, that we plan on consistent increases in 
aircraft, personnel, and results.
    Our RPA enterprise operates differently from others in our flying 
enterprise. Some of our RPA bases have aircraft for local training and 
cockpits where our crews fly combat missions. Some bases just have 
cockpits. Overseas we operate numerous Launch and Recovery Elements 
where our deployed crews take off and land our RPAs. Crews from one 
unit will likely be flying aircraft from another unit, and possibly 
multiple aircraft in different areas all in the same day. This stands 
in stark contrast to how a traditional squadron operates, where their 
aircrew, maintainers and aircraft deploy together, fly combat sorties 
together, and redeploy together.
    Another unique aspect of our RPA enterprise is that our crews 
deploy in-garrison. They arrive at work, fly combat sorties, and then 
go home to their families. This occurs every single day. However, their 
services are in such high demand that a regular work week, a 5-ON 2-OFF 
work schedule, is prohibitive to adequately providing for combatant 
commander requirements. Our crews work a different and more demanding 
schedule. Their regular work days are 10 hours long. They fly for six 
days straight, conduct non flying duties for one day, and then receive 
two days off. Instead of a 7 day week they work a 9 day week and their 
two days off are not guaranteed to coincide with a weekend. This 
grueling schedule is necessary to meet mission requirements; however it 
is also a significant aspect of the enterprise we are committed to 
fixing.
    The first step to fixing that is to increase the number of RPA 
crews by increasing the output of our training pipeline. Air Combat 
Command is responsible for the training of our Air Force's RPA pilots 
and sensor operators. We will graduate 384 next year which is 200 more 
than we have graduated annually in past years. This tremendous output 
is currently achieved with very limited resources as we strive to 
balance ACC's two main priorities: Provide for Today and Prepare for 
the Future. More pilots and sensor operators flying combat lines means 
less instructors available to train our pipeline students. Increasing 
the instructors available to train our pipeline students will decrease 
the number available to fly combat lines. This delicate balance is 
challenging, but achievable thanks to The Secretary of Defense's 
authorization to decrease our daily Combat Lines from 65 to 60. This 
slight reduction has allowed the Air Force to begin the process of 
righting our training pipeline and continuation training requirements 
by reinvesting those pilots into the school house.
    Our process for training our RPA airmen has changed significantly 
from its inception years ago. Originally we pulled pilots and 
navigators from manned flying communities like fighters, bombers, 
transport, and special operations. Usually these were not voluntary 
assignments. This drained valuable experience and manpower from these 
other flying communities and was a stop gap measure. Additionally it 
was not a good use of resources as our Air Force expended tremendous 
time, money, and effort to train these airmen for flying manned 
aircraft only to retrain them in RPAs. As our RPA enterprise increased 
exponentially, we transitioned towards a sustainable training pipeline 
and initiated a new career field--18X RPA Pilot. We created a new 
focused training pipeline for RPA pilots that not only shortens the 
time required to complete, but also eases the strain on other flying 
communities. While only one third of our current RPA pilots are 18X RPA 
Pilots, our steady state goal is to reach 90 percent and we are well on 
our way to achieving that desired end state.
    Our 18X training pipeline and RPA pilot career field is not the 
only recent measure to help improve our enterprise. Our total force has 
been integrated into our RPA enterprise and it is not just our active 
duty that fulfills our RPA requirements. Our Air Force has 17 total 
Guard and Reserve locations operating MQ-1s and MQ-9s. Our Guard and 
Reserve components currently fly 19 of our 60 daily combat lines from 
10 different locations with a planned reduction to 16 steady state 
combat lines. Our near term plans include converting all Guard units to 
MQ-9s, standing up units in Arkansas, Michigan, Pennsylvania, and 
initiating two active associate squadrons to be used for formal 
training in the New York Air National Guard at Syracuse and March Air 
Reserve Base in California.
    As we have increased our RPA footprint with our Combatant 
Commanders over the past decade, our enterprise must now grow. Plans 
are in place to continue purchasing aircraft and cockpits to achieve 
the required force structure. This will strike through the top item on 
Combatant Commander's priority lists.
    We in the Air Force and Air Combat Command fully understand the 
value of our RPA enterprise to our national defense, and that is why 
over the past 10 years we have added over 35,000 airmen to our ISR 
community, of which almost 8000 are dedicated to the RPA enterprise. 
This addition occurred while we shrunk the total force by over 50,000 
airmen. That means 85,000 airmen were removed from other essential 
missions. This is the trade-off decision we made because we fully 
understand the value of their mission. It is not just value-added, but 
required.
               challenges facing the usaf rpa enterprise
    A robust RPA enterprise is essential for the successful conduct of 
armed conflict. The biggest challenge that we as an Air Force face with 
our RPA enterprise is that our airmen are leaving the service faster 
than we can replace them, taking with them years of training and combat 
experience. When an RPA airman separates, we do not just lose a body in 
the cockpit. We lose their expertise and experience too. While on 
paper, personnel may be a one for one swap that populates spreadsheets, 
their experience is incalculable and irreplaceable.
    The surge that our RPA enterprise has experienced in recent history 
is now no longer a surge, but the new normal. We have surged RPA 
operations nine times over the past eight years. It has become routine, 
and is taxing our airmen and our RPA enterprise beyond their limits. 
Sustained high operations tempo and the corresponding high levels of 
stress is negatively impacting the RPA enterprise. It is robbing our 
airmen of the quality of life necessary to withstand grueling schedules 
and maintain a healthy force. This leaves many of our airmen with just 
one option: to separate; a decision they have chosen at an extremely 
high rate, which threatens the sustainment of our nation's essential 
RPA mission.
    Our regular Air Force RPA pilot manning currently accounts for 
around 80 percent of our requirement. Of these pilots, only one third 
are career RPA pilots (18X) while two thirds come from manned flying 
communities. The Air Force has borrowed pilots from these other flying 
career fields to augment this steady state force, but it remains over 
200 pilots short. This shortfall is based on our cap of 60 Combat Lines 
and would only increase should the requirement for CLs increase.
    Due to the insatiable demand for their RPA combat services and the 
corresponding increase in MQ-1/9 Combat Lines, the Air Force has 
executed rapid growth of the RPA community. This generated a 
requirement for more operators. In order to produce this higher number 
of operators, the Air Force has made the difficult decision to augment 
our Formal Training Units with Instructor Pilots from operational 
squadrons, further reducing the availability of pilots to fly combat 
lines, and swelling the burden on the rest of the force. Second order 
effects of this decision include less Instructor Pilots available to 
train less experienced pilots in operational squadrons.
    Additionally our combat surge has reduced the availability of 
training sorties for our operational units. These RPA units must now 
borrow time during combat sorties to conduct training, such as 
upgrades, and improving skills, tactics, and weapon delivery 
procedures. This places severe limitations of their effectiveness. This 
is opposite the rest of our flying communities where home station 
training, conducted during dwell time with dedicated training sorties, 
allows our operators to focus on a diverse skill set across the full 
range of military operations
                       rpa enterprise way forward
    Air Combat Command recognizes the stressors applied to the RPA 
community and we have taken the initial steps required to fix it. We 
are invested in this venture and we know that we must stabilize the 
enterprise in order to sustain the combat capability and capacity for 
America.
    Recognizing the need for change in 2015 the Secretary and Chief of 
Staff of the Air Force initiated an RPA Get Well Plan. Also in late 
2015 ACC initiated a Culture and Process Improvement Plan (CPIP) for 
the MQ-1 and MQ-9 enterprise, with the goals of providing relief to our 
taxed crews and constructing a sustainable plan for the future. Our 
overriding goal was to determine why our MQ-1 and MQ-9 airmen are 
stressed and leaving the force and what we can do to improve their 
quality of life so they make the preferred decision to remain in the 
Air Force and continue to provide their in-demand services to the 
combatant commanders.
    ACC's CPIP is an aggressive, action-oriented, field-influenced 
program with the goal of making lasting change for the MQ-1/9 
enterprise. We want to move the RPA community toward the sustainment 
model we have established for other Air Force weapon systems. To tackle 
this challenge our team conducted 1,195 face to face interviews and 
1,164 electronic surveys with our RPA airmen and families. This was a 
grass-roots initiative to listen to our airmen and ensure their voice 
was heard and incorporated into stabilizing the RPA enterprise.
    CPIP responses cast light on the individual issues our RPA airmen 
have experienced, detrimental to the culture of their enterprise. Our 
RPA airmen are overtasked, their communities undermanned, and are 
lacking adequate support on their bases. This materializes as increased 
stress, reduced motivation, and a general reduction in job 
satisfaction, even though the airmen fully understand the incredible 
impact they have on our combat mission.
    Our solutions generated from our CPIP process are extensive but 
achievable. We are examining the possible expansion of the RPA 
community to several new bases and overseas locations. This will this 
help by giving airmen and their families more diverse options where 
they can be based. We are evaluating base services to meet the personal 
and family requirements of our RPA airmen, and we are also taking a 
further look at other quality of life initiatives, compensation, and 
developmental opportunities.
    There are also additional changes, resulting from our CPIP 
findings, the Air Force is enacting to continue to build our RPA 
capacity and capability for the future. We are committed to investing 
resources to meet our sustained requirement of 361 MQ-9s and 271 
cockpits. We are growing our Formal Training Unit (FTU) capacity in 
order to increase RPA pilot production to over 400 per year by 2019. 
The most we have trained up through this year is 250. Our FTUs must 
continue to expand to fully realize the benefits of a stabilized and 
in-demand service.
    The funding required to support out initiatives is essential to our 
national defense. Air Combat Command would like to express our sincere 
appreciation to Congress for their support regarding our MQ-9 
initiatives. The 12 MQ-9 aircraft added in fiscal year 2015 and the 
addition of 4 more aircraft in fiscal year 2016 will greatly aid our 
combat and reconnaissance operations we provide to the Combatant 
Commanders. We also thank you for your continued support in our fiscal 
year 2017 budget request. This will allow us to purchase additional MQ-
9s and help replace combat losses. All of these programs will not only 
help stabilize our RPA enterprise, but will also amplify our combat 
capability.
    To further incentivize our airmen to remain in service, we have 
requested and received authorization for an annual $25,000 aviator 
retention pay for RPA pilots to bring their total compensation to the 
levels of our most in-demand operators and pilots. Congress's support 
for this initiative has been indispensable and we thank you for your 
backing. Furthermore, we plan to add regular monthly flight pay with 
gate months which ensures flight pay during non-flying assignments. 
These additional compensation measures will align our RPA pilot force 
with the rest of our flying enterprise.
                               conclusion
    The Air Force has provided continuous combat airpower for our 
Nation. It has been continuous as there has been no break in combat 
sorties and units deployed to combat theatres in the last 25 years. But 
it has also been continuous in that it has continuously evolved.
    In Desert Storm, only 8 percent of our weapons were precision 
guided. 92 percent were unguided. Today that number is 100 percent 
precision. As we have transitioned to the precision era, our 
Intelligence, Surveillance, and Reconnaissance has also become precise. 
To support our 100 percent precision operations, to find our enemies, 
to relay targets to aircraft, and to monitor and execute the strikes, 
we have grown our RPA enterprise exponentially, creating a bow wave of 
challenges.
    There is no break in sight for this mission, and we must mitigate 
these challenges all while continuing to supply our combatant 
commanders with forces required to support the defense of our nation. 
We have plans in place to address our current challenges, and we have 
enacted further plans to grow our RPA enterprise to reach its full 
potential.
    None of this can happen without our airmen. They are indispensable 
and our most valuable asset and this will never change. Recruiting, 
retaining, and promoting our airmen is as vital to our service as our 
aircraft and weapon acquisitions. Our RPA airman and families have 
sacrificed greatly in the defense of our nation. I am proud to have the 
opportunity to make the necessary changes to give our airmen the 
resources and tools necessary to maximize their impact on our national 
defense.
    Our Get Well Plan and CPIP initiatives have started the ball 
rolling, and the future only gets brighter for our RPA enterprise. I 
thank the committee for their dedication to our Armed Forces and 
attentiveness to our RPA enterprise. I have no doubt that this 
partnership will continue to do much to improve our forces, the lives 
of the airmen involved, and the combat output so desperately desired by 
our combatant commanders. I look forward to continued collaboration and 
the success it will bear for the Joint Force and our Nation.

    Senator Cotton. We will now pause on witness statements and 
turn to the ranking member, Senator Manchin.

              STATEMENT OF SENATOR JOE MANCHIN III

    Senator Manchin. First of all, thank you all for your 
service and thanks for being here today.
    Mr. Chairman, I want to also extend a welcome to all of our 
witnesses and thank you for holding this hearing today.
    Our witnesses this afternoon will help us understand the 
issues surrounding a growing capability that many only dreamed 
about, unmanned aircraft systems. We only have to read the 
headlines about so-called drone strikes to understand that 
these systems have become an important element of modern 
warfare.
    We have all been concerned about supporting the combatant 
commander requirements that result in a need for 65 combat air 
patrols, and this has led to placing significant strain on the 
Air Force's RPA operator community.
    Last fall, Secretary Carter approved an Air Force MQ-1/9 
RPA combat air patrol reduction from 65 to 60 CAPs. He said 
that this reset would allow the Air Force to redirect 
operational MQ-1/9 pilot manning to ameliorate schoolhouse 
manning challenges. Secretary Carter also announced a number of 
other changes that I hope we will be able to discuss today.
    The Army operates, among other unmanned systems, the MQ-1C, 
which is the Gray Eagle UAV. I know from the prepared testimony 
that General Perkins also has problems, including having the 
expand the capabilities of the UAV school to meet increased 
manning requirements. This has caused a Gray Eagle operators 
and maintainers.
    In the interest of time--I will turn my phone off.
    [Laughter.]
    Senator Donnelly. You can blame it on me, Joe.
    Senator Manchin. I am so sorry.
    In the interest, I am going to stop there, and I look 
forward to hearing all you all's testimony and our questions to 
follow up.
    Senator Cotton. Thank you, Senator Manchin.
    General Perkins?

STATEMENT OF GENERAL DAVID G. PERKINS, USA, COMMANDING GENERAL, 
            U.S. ARMY TRAINING AND DOCTRINE COMMAND

    General Perkins. Chairman Cotton, Ranking Member Manchin, 
and members of the subcommittee, I appreciate the opportunity 
to be here today to discuss the Army unmanned aerial systems, 
or UAS, as we refer to them.
    The United States Army organizes, trains, and employs our 
unmanned aerial systems primarily as an organic support asset 
to the ground commander to provide assured forward-based 
organic support to the maneuver commander from the platoon to 
division level.
    On September 11, 2001, the U.S. Army UAS force consisted of 
a little less than 3 companies and less than 200 soldiers. 
Since then, the United States Army UAS force has grown to over 
700 medium and large UAS and over 6,500 small UAS operated by 
more than 7,000 soldiers.
    To address this rapid expansion and continued growing 
demand, the Army is executing a comprehensive strategy to 
ensure that UAS formations are capable of meeting the 
challenges now and in the future.
    We have made great strides over the past year implementing 
changes that will result in higher levels of UAS readiness 
across the total Army. I will share a few examples of those 
here.
    UAS are now fully integrated into Army doctrine and 
regulations. Our aviation brigades now have training oversight 
of the Shadow UAS platoons and then brigade combat teams to 
improve standardization, safety, and operational capability. We 
now also have lieutenant platoon leaders assigned to each 
brigade combat team Shadow platoon. We have assessed more than 
100 former OH-58 Delta pilots as UAS tech warrant officers. We 
have improved the UAS and aviation warrant officer basic course 
to reflect these best practices.
    All of our Army training standards are in compliance with 
the basic UAS qualification training requirements directed in 
Chairman of the Joint Chiefs of Staff instructions 3255.01.
    To improve the training of our leaders, we have established 
an air cavalry leaders course, a UAS platoon leaders course, 
and UAS leaders course.
    The Forces Command Commander has integrated UAS training 
into his training guidance and readiness reporting, and the 
Army places high priority now on UAS readiness and readiness 
reporting.
    Our division commanders and aviation center are closely 
collaborating to assure integrated UAS home station training 
that encompasses the maneuver units they support, ranges, 
airspace, frequency management facilities and airstrips.
    In short, we have done much to improve our state of UAS 
training and readiness since 2014, and I am optimistic that the 
improved readiness results will rapidly become apparent.
    I look forward to working with this committee to address 
your concerns about Army UAS readiness and appreciate the 
opportunity to speak with you today. All of us in the Army 
appreciate the support that we get from each one of you in a 
collective body. Thank you very much.
    [The prepared statement of General Perkins follows:]

             Prepared Statement by General David G. Perkins
    Chairman Cotton, Ranking Member Manchin, and Members of the 
Subcommittee, I appreciate the opportunity to appear before you to 
discuss the doctrine, manning, and training of Army Unmanned Aircraft 
Systems (UAS) units.
                              introduction
    Army UAS provide assured, forward based organic support to the 
maneuver commander from the platoon to division level. On September 11, 
2001, the U.S. Army UAS force consisted of only three companies and 
less than 200 soldiers. Since then, the Army UAS force has grown to 
over 600 medium and large UAS, and over 6,500 small UAS operated by 
more than 7,000 soldiers. To address this rapid expansion and continued 
growing demand, the Army is executing a comprehensive strategy to 
ensure that UAS formations are capable of meeting the challenges now 
and in the future. Today, I will highlight current Army UAS doctrine, 
manning, and training, as well as how the Army intends to continue to 
improve the warfighting capability of its UAS formations.
                  army unmanned aircraft systems (uas)
    The majority of today's Army UAS formations are designed and 
trained to operate at the brigade, division, and corps level. They 
primarily support Brigade Combat Teams at the operational and tactical 
level, and are fully integrated as a member of the combined arms team, 
executing joint combined arms maneuver and wide area security in 
support of the ground force commander. The remaining UAS formations 
provide strategic intelligence, surveillance, and reconnaissance (ISR), 
and precision strike in support of Global Force Management Allocation 
Plan (GFMAP) requirements for Army, Special Operations, and joint 
forces. Army UAS formations deploy to the theater and execute all 
aspects of their mission from within the area of operations of the 
supported units.
    The Army divides UAS into two basic categories. The first category 
consists of the smaller, less complex systems operated by soldiers, 
independent of military occupational specialty (MOS), who are selected 
and trained at the small unit level. The second category encompasses 
the larger, more capable systems operated by professional UAS soldiers 
who are institutionally trained, formally qualified, and assigned to 
maintain and operate Army UAS in UAS specific units.
    The Army's smaller UAS are rucksack portable, hand-launched air 
vehicles that provide reconnaissance capabilities to battalion and 
below. These UAS are categorized as Group 1 UAS, meaning they weigh 
less than 20 pounds, fly at lower altitudes, are highly automated, and 
operate within line-of-sight of the operator. They provide a tactical 
reconnaissance capability to small units on the ground, allowing units 
to see beyond terrain features and inter-visibility lines to provide 
information collection and security. Group 1 UAS include the RQ-11B 
Raven and the RQ-20A Puma, which stay aloft for 1-2 hours while 
delivering basic full-motion imagery to a soldier on the ground. Puma 
and Raven UAS operators can be any MOS and are trained by master 
trainers at the unit level. Group 1 master trainers are qualified 
instructors who are certified through a 140-hour Qualification Course 
at Fort Benning, Georgia. The Army possesses no Group 2 UAS systems.
    The second category of UAS are the Army's larger, more capable 
systems (Group 3 and Group 4) that operate at higher altitudes and at 
distances typically beyond the line-of-sight of their launch and 
recovery locations. Because of the complexity of these systems and 
their associated missions, Group 3 and 4 are organized into specific 
UAS units. The Army's current Group 3 Tactical UAS is the RQ-7B Shadow, 
which supports brigade and below tactical requirements. The Army's 
Group 4 UAS, MQ-1C Gray Eagle, supports tactical, operational, and 
strategic requirements at the division and above level.
    Group 3 and 4 UAS are fully integrated into Army intelligence, 
maneuver, aviation, mission command, and fires doctrine. Their purpose 
is to enable combined arms maneuver by increasing the maneuver force's 
mobility, lethality, survivability, and mission command. Today, over 
4,500 Group 3 and 4 trained UAS soldiers and Warrant Officers are 
assigned to 75 Shadow platoons and 10 Gray Eagle companies across the 
Army. These numbers will grow as the Army increases to 94 Shadow 
platoons and 15 Gray Eagle companies by the end of fiscal year 2018.
                 army uas force structure and missions
    There is currently two UAS-specific formations in the Army for the 
Group 3 UAS (Shadow) and two UAS-specific formations for the Group 4 
UAS (Gray Eagle). Shadow UAS are organized into platoons and assigned 
to either a Brigade Combat Team, a Heavy Attack Reconnaissance Squadron 
within the Combat Aviation Brigade, or Special Operations Units. The 
Gray Eagle UAS are organized into two different company constructs and 
either assigned to the Combat Aviation Brigade in a Division or at 
Echelons Above Division (EAD).
    The Shadow platoon is assigned to every Brigade Combat Team in both 
the Active Component and National Guard. These platoons are fully 
integrated into combined arms maneuver, and provide the commander with 
reconnaissance and surveillance capabilities to meet tactical maneuver 
and intelligence requirements. The Shadow platoon has 27 UAS soldiers 
and four air vehicles, providing 18-24 hours of continuous UAS coverage 
to the supported commander. Combat Aviation Brigades also have three 
Shadow platoons assigned to each Heavy Attack Reconnaissance Squadron. 
These platoons also have 27 UAS soldiers and four air vehicles that can 
provide 18-24 hours of coverage. These platoons are employed with the 
AH-64 Apaches to execute manned/unmanned teaming (MUM-T) for enhanced 
reconnaissance, security, and attack operations.
    A divisional Gray Eagle Company is assigned to each of the active 
component Combat Aviation Brigades and provides tactical and 
operational commanders organic reconnaissance, surveillance, security, 
and attack capabilities. Gray Eagle Companies provide support to both 
the Aviation Brigade and divisional ground maneuver forces as a 
division-level capability. Organized to deploy as a unit and conduct 
operations from one or more locations within their division area of 
operations, the 127-Soldier Divisional Gray Eagle Company has 12 air 
vehicles and can provide up to four simultaneous 24-hour missions per 
day as a consolidated company, and three simultaneous 24-hour missions 
per day in a split-based configuration. Although designed to support 
Army division requirements, these formations have been recently 
deployed in support of combatant commanders separate from their 
divisions on a Request for Forces basis to fill GFMAP requirements for 
ISR.
    The Army also possesses EAD Gray Eagle Companies, which are 
assigned to both the Intelligence and Security Command (INSCOM) and the 
Army Special Operations Aviation Command (ARSOAC). These companies are 
trained, equipped, and organized to conduct long-endurance, extended 
range, multidiscipline intelligence and precision strike operations to 
provide timely intelligence and destruction of high payoff targets in 
support to both Army and joint organizations. These Gray Eagle 
Companies also have 12 air vehicles, are larger than divisional 
companies, and are manned with a total of 165 soldiers. This additional 
manning enables the EAD Gray Eagle Companies to conduct more split-
based operations and are more tailorable to meet GFMAP requirements. 
Currently, only one EAD Gray Eagle Company is fielded with three 
additional companies scheduled to be complete by fiscal year 2018.
                           army uas training
    The centerpiece of the Army's UAS strategy is the soldier. Army 
enlisted soldiers and Noncommissioned Officers (NCOs), led by UAS 
Warrant Officers, operate and maintain our Group 3 and 4 UAS. UAS MOSs 
consist of 15W (UAS Operator) and 15E (UAS Maintainer) for enlisted 
personnel and NCOs, and 150U (UAS Operations Technician) for warrant 
officers. Soldiers who enter the UAS MOS must meet the highest 
standards, and achieve a surveillance and communications (SC) score of 
at least 105 on the Armed Services Vocational Aptitude Battery military 
entry exam. This score is the highest SC score for entry into any Army 
MOS. The U.S. Army Aviation Branch has been very successful with 
recruiting and enlisting highly qualified soldiers for these positions.
    Upon entry into the service, UAS operator and maintenance MOSs have 
a 6-year active duty service obligation contract that ensures service 
longevity of these quality enlistees after completion of their highly 
technical and tactical training. Upon completion of their initial 
enlistment, UAS Operators are currently offered a reenlistment bonus of 
approximately $11,000 for an additional 5-year reenlistment to enable 
the Army to build senior NCOs as the force continues to grow.
    Acquiring our UAS Warrant Officer leaders from the senior NCOs 
within the 15W UAS Operator enlisted feeder population ensures that our 
most experienced and capable UAS operators progress into senior 
leadership positions. Additionally, due to the inactivation of the OH-
58D Kiowa scout helicopter fleet, we have also been able to transition 
over 100 of our Warrant Officer OH-58D pilots to transition into the 
150U UAS Operations Technician field, infusing high quality aviators 
and aero scouts into this growing field.
    UAS soldiers and warrant officers attend a variety of Professional 
Military Education and functional training courses for qualification 
and further education. Aviation Branch Professional Military Education 
(PME) is continuously reviewed, and MOS qualification-critical tasks 
are continuously updated using lessons learned from both combat and 
training. Programs of Instruction in the UAS field, like the Warrant 
Officer Basic Course, the Warrant Officer Advanced Course, the UAS 
Maintainer Course, and the UAS Operator Course continue to evolve and 
improve as we expand our knowledge, along with the missions and roles 
of our UAS formations.
    To address recent lessons learned, the Aviation Branch also added a 
UAS Platoon Leader Course for newly appointed UAS Shadow Platoon 
Leaders, and the Air Cavalry Leaders Course to provide hands on 
training for UAS and AH-64 Apache helicopter operators and leaders to 
gain greater proficiency in the employment of UAS while teamed with 
Apaches.
    To ensure that we continue to develop the most capable personnel 
for this growing force, our UAS Institutional Training Center at Fort 
Huachuca, Arizona is staffed with the most qualified soldiers, marines, 
Department of the Army civilians, and contractors. The Army UAS School 
at Fort Huachuca qualifies both UAS operators and maintainers, as well 
as U.S. Marine Corps and Australian Army Shadow operators, and serves 
as the center of institutional training efforts for initial 
qualification, advanced individual training courses.
    The first phase of qualification training at Fort Huachuca consists 
of an 8-week common core course for all UAS operators. During this 
phase, UAS operators receive in-depth instruction on the fundamentals 
of aerodynamics, doctrine, risk management, mission planning, flight 
safety, and navigation. During the second phase of training, UAS 
operators conduct live and simulated flight training in either the 
Shadow or Gray Eagle UAS. Shadow operator training is a 10-week program 
of instruction, and the Gray Eagle operator training course is a 25-
week program of instruction. Both courses are performance oriented and 
require operators to achieve mastery of their launch, pilotage, payload 
operation, mission, gunnery, and recovery skills prior to graduation. 
Army training standards are in compliance with the Basic UAS 
Qualification (BUQ) training requirements directed in Chairman of the 
Joint Chiefs of Staff Instruction (CJCSI) 3255.01. Because of the 
diversity of UAS designs and missions across DOD, CJCSI 3255.01 
contains a broad range of applicable training certification 
requirements. Upon completion of the initial training courses at Fort 
Huachuca, soldiers are then assigned to Army units. Once integrated 
with their new unit, soldiers are incorporated into the unit 
commander's aircrew training program (ATP), which is designed to 
produce fully mission trained, combat-ready crewmembers. This training 
focuses on task proficiency at the individual, crew, and unit level to 
enable the execution of the collective mission essential tasks 
necessary to accomplish successful joint combined arms operations.
    The ATP process in units consists of progressing through three 
readiness levels (RL). RL3 is refresher training, and focuses on 
training and demonstrating proficiency in basic UAS launch, recovery, 
and flight tasks. RL2 is mission training, and focuses on training and 
demonstrating proficiency in those tasks required to execute missions 
(reporting, air-ground operations, acquiring and engaging targets, 
conducting reconnaissance, MUM-T, etc.). The third progression level is 
RL1. RL1 is continuation training. Once designated RL1, the UAS 
crewmember is responsible for maintaining proficiency in base, mission, 
and special tasks assigned by the commander, and must complete 
semiannual and annual task iterations in all modes of flight, as well 
as meet semiannual flying hour minimums. RL1 crewmembers must also 
complete and pass an annual standardization flight evaluation, medical 
evaluation, and operator's written examination.
    As UAS soldiers gain experience in their unit during home station 
training, combat training center rotations, and deployments, UAS 
operators are further evaluated and certified as aircraft commanders. 
UAS Aircraft Commanders serve as the unit's first level trainer, and 
are responsible for all operational and training aspects of a specific 
mission, as well as the safe operation of the UAS by the other crew 
members. The Aircraft Commander (AC) program is designed to ensure that 
the designated aircraft commander possesses the maturity, experience, 
and skill proficiency required to execute their duties.
    After designation as an AC, the next step for a UAS operator is 
designation as a UAS Instructor Operator (IO). Prerequisites for a 
soldier to attend the IO course are 200 or more actual flight hours, as 
well as demonstrated maturity, judgment, and operator proficiency. As 
we continue to grow the UAS force, the IO course prerequisites serve as 
initial screening criteria for course attendance. To ensure the quality 
of the prospective IOs, candidates must also pass a proficiency flight 
exam and written test and receive a commander's recommendation for 
attendance. The soldier must then satisfactorily complete all course 
requirements for designation as an IO.
    No waivers have ever been given for schoolhouse instructor pilots 
and the waivers for instructor operators in UAS units are limited. 
There are no waivers for RL progression or currency. The only two 
waivers still granted are for hours (200) and rank, and are directly 
coordinated with the battalion command sergeant major. The Army is 
trending down on waivers and grant them for fewer reasons, with 
accident rates also decreasing. There were 56 waivers in fiscal year 
2014, 40 in fiscal year 2015, and 16 so far in fiscal year 2016. 
Waivers are not given lightly.
    Due to a recent OSD directed Resource Management Decision to grow 
additional UAS formations to meet global ISR requirements, the Army is 
expanding the capabilities of the UAS school to meet increased manning 
requirements. This has caused a temporary shortage in Gray Eagle UAS 
operators and maintainers. We are currently on track to close the gap 
in fiscal year 2017. Until then, some of our non-deployed Gray Eagle 
formations will be manned at lower levels to ensure deployed units are 
fully manned and trained to meet mission requirements.
                               readiness
    To measure readiness of the UAS force, the Army implemented 
multiple initiatives to improve readiness reporting. A recent FORSCOM 
message directed subordinates to establish UAS flight hour programs and 
to report monthly UAS flying hour execution to the FORSCOM Commander. 
The fiscal year 2016 FORSCOM Training Guidance directed Combat Aviation 
Brigade Commanders to provide aviation standardization, maintenance, 
and safety oversight to Shadow Platoons assigned to ground maneuver 
units. This is to ensure all UAS formations regardless of parent HQs 
are executing flying hours to sustain readiness and build proficiency. 
It also directed full execution of the UAS flying hour program to 
improve Shadow UAS platoon readiness, and to build the experience 
levels required for IO certification.
    HQDA also updated the Defense Readiness Reporting System to better 
facilitate Army UAS crew readiness reporting to ensure standardization 
across the Army. These changes will be implemented in the next update 
to DA PAM 220-1 (Defense Readiness Reporting System--Army Procedures).
    As we continue to gather lessons learned, and tactics, techniques, 
and procedures (TTPs), we are continually assessing manning and home 
station training through an Army-level holistic UAS review process. 
This will enable the Army to more rapidly refine TTPs and training as 
we employ new sensors, weapons, and formations. This review process, 
coupled with the increased rigor in our readiness and training 
processes, will maintain our positive trend of reduced accidents and 
mishaps in recent years.
                               conclusion
    Over the last 15 years, the US Army has rapidly grown our Unmanned 
Aircraft System fleet. Army UAS formations are embedded at the 
tactical-level within Brigade Combat Teams and Combat Aviation 
Brigades, at the operational level in Divisions, and at the strategic 
level in INSCOM and Special Operations units. Army UAS formations have 
played, and will continue to play, a critical role in our ability to 
maintain overmatch of our adversaries as we face an increasingly 
complex world. Although this technology has influenced the character of 
warfare, integration of this technology must always be underpinned by 
our most important weapons--highly trained professional soldiers and 
leaders able to fully exploit the capabilities that UAS bring to the 
battlefield.
    Thank you for the opportunity to represent our soldiers and our 
Army. On behalf of the Army, thank you for your support to our 
soldiers, civilians, veterans, and their families.

    Senator Cotton. Ms. Farrell?

STATEMENT OF BRENDA S. FARRELL, DIRECTOR, DEFENSE CAPABILITIES 
        AND MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Farrell. Thank you, Mr. Chairman.
    Chairman Cotton, Ranking Member Manchin, and members of the 
subcommittee, thank you for the opportunity to be here today to 
discuss some of the unmanned aerial systems, or UAS, pilot 
challenges that DOD [Department of Defense] faces. Let me 
briefly summarize my statement.
    The size, sophistication, and cost of DOD's UAS portfolio 
has grown considerably, as has the demand for trained pilots. 
In our prior work, we found that the Air Force has not provided 
a sufficient number of UAS pilots to meet requirements due to 
several factors, including most notably the increase in demand 
for intelligence, surveillance, and reconnaissance. As a 
result, the UAS workload has been performed by fewer pilots 
working more hours to accomplish the Air Force mission.
    My statement today is based primarily on reports we issued 
in April 2014 and May 2015. We made 10 recommendations to DOD 
to improve the Air Force management of UAS pilots, address Army 
pilot training challenges, and enhance DOD coordination of UAS 
training. For this statement, we followed up with DOD officials 
to determine what actions they had taken in response to our 
recommendations.
    My statement is divided into three parts.
    The first part addresses the actions that the Air Force has 
taken to strengthen management of its UAS pilots. We found the 
Air Force has undertaken a number of actions but has not fully 
addressed the issues related to identifying pilot requirements, 
recruiting and retention difficulties, evaluating the potential 
use of civilians as pilots, ensuring pilots complete the 
required training, moving pilots through the training pipeline 
and analyzing UAS pilot promotion rates.
    For example, in our April 2014 report, we found that the 
Air Force had not accurately identified the number of UAS 
pilots required to accomplish its mission, nor had it 
established a minimum number of pilots needed. Indications are 
that it needs more pilots.
    As of March 2016, the Air Force had not updated pilot 
requirements, and until it does, the Air Force will not know if 
it is assuming unacceptable levels of risk to accomplishing the 
mission and ensuring safety.
    The second part of my statement addresses training 
challenges that the Army faces. In 2015, we found that the Army 
had challenges related to pilots completing their training, 
tracking training, and its use of less experienced instructors, 
which could affect training quality.
    For example, we found that a 2015 Army review showed that 
pilots in most Army Shadow units did not complete training in 
fiscal year 2014. The study found that Army UAS pilots in 61 of 
65 Shadow units that were not deployed in fiscal year 2014 have 
flown an annual unit average of 150 hours of training, which is 
about 200 hours less than the minimum amount required. We 
corroborated the Army's findings in focus groups, discussions 
with Army UAS pilots, and in responses to a questionnaire that 
UAS unit commanders also provided.
    Finally, the third part of my statement addresses 
coordinating the training of UAS pilots within DOD. In 2015, we 
found that some coordination was occurring among the services 
with respect to UAS training, but potential benefits exist.
    For example, we reported that coordinated training between 
services could help shorten the amount of time the services 
spend acclimating to each other once deployed and would allow 
an easier transition to working together during missions.
    Also, a senior OSD [Office of the Secretary of Defense] 
official stated that the services may have valuable lessons to 
share with one another because the services fly similar UAS. He 
cited similarities between the Air Force's Predator and the 
Army's Gray Eagle. However, we found that no DOD-wide training 
strategy existed, and we recommended that DOD issue a 
Department-wide UAS training strategy that addresses if and how 
the services should coordinate with one another to share 
information on training UAS pilots. Without such a strategy, 
the services will not be positioned to capitalize on training 
opportunities and may waste scarce resources.
    In summary, Mr. Chairman, the Army and the Air Force have 
taken action to implement the recommendations that we made to 
address some of the workforce challenges. However, none of the 
recommendations have been fully implemented.
    We look forward to working with the Air Force and the Army 
to continue to monitor the actions that they have taken in 
response to our recommendations.
    Thank you, Mr. Chairman. That concludes my statement. I 
will be pleased to take questions when the subcommittee so 
desires.
    [The prepared statement of Ms. Farrell follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
      
    
    
      
    Senator Cotton. Thank you all.
    General Carlisle, as I mentioned in the opening statement--
and you touched on some of the same points in your written 
statement--the Air Force has faced some challenges normalizing 
the integration of unmanned aircraft into institutional 
processes. Now, perhaps platforms like the MQ-1 and MQ-9 were 
viewed as emergency urgent fixes during the early phases of the 
war on terror or something that might decline as combat 
operations declined in their OPTEMPO [Operation Tempo]. 
Certainly the Air Force, like all services, have been 
underfunded in recent years, which puts you on the horns of a 
dilemma trying to meet all of your increasing requirements 
while also meeting the warfighting demands.
    That said, unmanned aerial vehicles are an increasingly 
potent resource on the battlefield and much of the next chapter 
of the Endeavor war is going to be written by them.
    The Air Force has a history and a culture that is deeply 
rooted in fighter operations over the skies of Europe. Do you 
think there is some kind of cultural aversion within the Air 
Force that has hindered it from fully integrating unmanned 
systems into its doctrine and its operations?
    General Carlisle. Chairman, thanks for the question.
    I do not. I will tell you that what our RPA crews do--and 
it is across the spectrum, obviously, MQ-1/9, RQ-170, the RQ-4 
and what is going to be MQX and RQX in the follow-ons. The use 
of those systems, the employment of those, the weapons school 
and how they stand up and integrate in all of our exercises 
into the training between the Army and the Air Force at both 
Green Flags and Army warfighter assessments--we spend a lot of 
time making sure that we get this right and we do that 
integration.
    I will tell you I do not think, if you talk to anybody in 
the United States Air Force, they would tell you that RPAs are 
not part of our future. They are a huge part of our future. 
Today it is the largest mission design series in the United 
States Air Force on the MQ-1/MQ-9 side, and they will continue 
to grow.
    The challenge that we faced--and again, I truly believe, 
Mr. Chairman, that it was not cultural. It was the demand 
signal accelerated so rapidly and we were trying to meet the 
demands of the warfighter, which we had to do to win the 
Nation's wars today that we are fighting. We just started this 
ramp of increasing those combat lines, or combat air patrols, 
per day, and we did not have time to build what is a normal 
process to develop and take care of that enterprise.
    An example of it. Between the MQ-1 and 9, we have flown 3 
million hours--over 3 million hours--in those two weapon 
systems. Over 2.8 million hours of that time has been combat, 
which means the formal training unit, the test and the 
continuation training are a mere fraction of the amount of time 
we have flown, and it is because of the demand signal.
    The purpose of the ``get well'' plan and the culture and 
process improvement program is to step back--and we have done 
that. The GAO report was fantastic in helping us do this--look 
at what we need to do to get this right, determine those 
numbers, fix the training pipeline, and then put the right 
amount of force and the right amount of work into the RPA 
enterprise because it is going to be with us, we see it, 
indefinitely. It is a huge part of our future. We are working 
hard to normalize that. It is not the cultural part. It is the 
training and to try to meet the demand of the combatant 
commanders and the warfighters.
    Senator Cotton. Why do you think there is such an unmet 
demand signal? When I meet with combatant commands, theater 
commands, whether here in Washington or downrange, one 
consistent theme I hear--I suspect the members of this 
committee will hear the same thing--is we cannot get enough 
unmanned aerial coverage in our theater.
    General Carlisle. Sir, I think the demand signal is 
incredible. Clearly what the RPAs provide with respect to all 
the way from situational awareness and intelligence, 
surveillance, and reconnaissance--another part of that that is 
behind the scenes that they do not necessarily see but is a big 
part of that is the processing, exploitation, and dissemination 
of that information that is done via both Air Force and Army 
DCGS, or distributed common ground system.
    It is a demand for ISR. It is the desire for that 
unblinking eye in their entire theater so they know what is 
going on 100 percent of the time everywhere. That is the demand 
signal.
    We have to get better at how we do this. We have to be more 
predictive in our intelligence. We have to machine to machine. 
We have to get learning systems that can think ahead of the 
adversary and try to address that in more modern and 
technologically advanced ways, which goes to Secretary Carter's 
third offset, is how do you get inside of that information. The 
demand signal is totally understandable because they are the 
ones--the combatant commanders are the ones that are given the 
job to execute the war plans, if required to, and they need 
that information. We are trying to meet it.
    But there is also across all the services--and again, 
Chairman, you know this. There is still demand in bombers. 
There is still demand in airlift. There is still demand in 
fighters. There is strike capability. There is still a demand 
in space and cyber and nuclear deterrent capability. It is the 
balance act that you referenced in your opening statement.
    Senator Cotton. Let us assume that the demand signal from 
downrange is accurate and needed. Let us just assume that. What 
is the biggest bottleneck in meeting that demand? Can you not 
turn out the pilots quickly enough? Can you not retain them? 
Can industry not make the aircraft enough? Are we not providing 
enough money to do any of that? Do you not have enough analysts 
on the backend? What is the main bottleneck in this process?
    General Carlisle. Everything. Seriously, sir, I think the 
first thing that we had to address was training pipeline and 
the FTU [formal training unit] at Holloman and the money and 
resources we are putting into that to expand that is a big part 
of it. Then the manpower and the resources to do it. We have to 
grow the enterprise to continue to try to meet the demands.
    I do believe there is technology that can help us to meet 
some of that demand across the entire ISR enterprise so we can 
get better at that.
    But we started with the training enterprise and the fact 
that the pipeline was not big enough or doing enough to produce 
the capability we needed. Then the resourcing challenge of 
balancing that demand signal with all the other demand 
signals--clearly, BCA [Budget Controll Act of 2011] did hurt us 
significantly with respect to manpower and resources to do 
things. But we are addressing those. We are trying to work on 
those.
    I think the idea that we could--you know, I mean, there are 
other ways to do this--not other ways. There are ways to take 
advantage of the RPAs, other forms of intelligence, predictive 
capability, on-orbit capability, other systems that are coming 
on. Even within the MQ-9, there are new systems on the sensor 
side that give us ultimately more capability like Gorgon Stare, 
which is a great capability. We are deploying in that. 
Downrange it is doing fantastic, but the back end of that is 
the processing, exploitation, and dissemination to take all 
that information and get it out. Is there machine-to-machine 
ways that we can do that better? Is there learning algorithms 
that we can do to take advantage of that? Chairman, we are 
working on all of that right now.
    Senator Cotton. Thank you, General.
    Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    I thank all three of you for your service and for being 
here today.
    General Perkins, if I may ask you. You rely almost 
exclusively on enlisted UAV operators. Correct?
    General Perkins. That is correct, sir.
    Senator Manchin. Are you having a problem or the same 
problem that the Air Force is having? I am just trying to find 
out if there is a way we can help each other.
    General Perkins. Sir, I understand.
    We man our unmanned aerial systems very similarly to the 
way we man all our other systems in the Army, whether it is a 
tank or an artillery piece or mechanized infantry carrier. That 
is part of a formation. Most of our weapon systems are operated 
and manned by non-commissioned officers and soldiers, and then 
they are commanded by officers. The way we operate our unmanned 
aerial systems is a similar way. They are organic to a brigade. 
They are organic to a division. They are part of that 
formation. Therefore, the majority of them are operated and 
manned by our sergeants and soldiers, and they are overseen by 
our warrant officers and officers.
    Right now, our biggest challenge, based on our force 
structure, is not the manning of those. It is, as the GAO 
report stated, what I would call our home station training as 
we are building up that capability.
    Senator Manchin. General Carlisle, it seems like you all 
are only looking at the enlisted operators for the Global Hawk 
fleet, when the severe shortage of operators are with the 
Predator and the Reaper.
    General Carlisle. Sir, the shortage of operators in 
Predator and Reaper was not because we did not have the people 
coming into it. We did not have the training pipeline to put 
them through as that demand signal grew. When we went from 
seven CAPs to 65 CAPs, we did not, at the time, expand the 
training capacity, open the undergraduate RPA training and the 
MQ-1/9 training fast enough to generate the amount of people 
that the demand signal----
    Senator Manchin. The platforms, General Carlisle, that you 
are working versus maybe General Perkins--do you all have the 
same type of equipment? Are you using different equipment? Is 
it more sophisticated what the Air Force might be needing for 
the training that they have to have?
    General Carlisle. Sir, there are two parts to the training. 
There is undergraduate RPA training, which is the basic, how do 
you fly RPAs. We have marines going through our URT right now 
and that is similar.
    The MQ-1C, the Gray Eagle, and the MQ-9 Predator are 
totally different systems. The tactics, techniques, and 
procedures doctrine would be similar, but the actual training 
on the system between the MQ-9 and the MQ-1C are significantly 
different. The MQ-1C is much closer to a Predator, an MQ-1, 
which the Air Force----
    Senator Manchin. I think Senator Cotton had asked--
basically I think you are having more of a licensed pilot, 
basically a trained pilot, on some of these platforms. Do you 
all use trained pilots, General Perkins?
    General Perkins. Sir, what we do with our unmanned aerial 
system operators is--as General Carlisle said, there is a 
significant difference in the technology and how they are 
operated. It is point and click from the ground station. There 
is not a stick and rudder. They are not flying them. They are 
automatic takeoff and landings. Those are very difficult skill 
sets to train somebody with. Ours is automated from that point 
of view.
    As we train our operators, what we do is they all go 
through a basic initial 8-week course, and they take the FAA 
[Federal Aviation Administration] written exam kind of the 
ground week, but then they do not actually have to take what 
would necessarily be considered flying pilot training because 
they are not actually flying it. The basic part--it is the same 
as what you might call ground week and they are FAA-certified 
for their ground week portion. They just do not have the air 
time because they are not pilots.
    Senator Manchin. General Carlisle, despite the fact that 
Congress provided the Air Force authority to provide higher 
bonuses to the RPA pilots up to $35,000, you have chosen to 
provide only the bonus level that is authorized for all Air 
Force pilots of $25,000. Knowing that you have this shortage, 
why did you all make that decision?
    General Carlisle. Yes, sir. We appreciate--and again, we 
appreciate certainly the Senate and this committee's support 
for that.
    The sister services in the Department of Defense, the 
Office of the Secretary of Defense have to have an implementing 
guidance as part of the fiscal year 2016 NDAA. We are still 
waiting on that.
    Senator Manchin. What I am saying is it was not by accident 
that happened. We knew you were having some challenges there 
and we thought we would give you the tools to close that gap. 
But then you all have not decided to use it.
    General Carlisle. Again, we truly appreciate the support on 
that.
    A couple of factors that I would throw in that. We truly 
appreciated it and as we get that implementing guidance--as a 
matter of fact as we come back in fiscal year 2017, we are 
going to ask--we brought back some economic data and some 
information to the Senate for support. We would like that 
authority across all of our rated career fields.
    Senator Manchin. I am sure you would. I am sure of that, 
sir.
    [Laughter.]
    General Carlisle. But, sir, I am 511 fighter pilots short 
today. Our whole entire rated career field is being challenged.
    Senator Manchin. I am running out of time here, but on your 
fighter pilot, their pay scale is much different than the 
person that you might be training for this and a bonus to get 
into the system.
    General Carlisle. No, sir. There is no hiring bonus to come 
in and fly airplanes. We have done some changes.
    Senator Manchin. Well, you have the $25,000 ones.
    General Carlisle. Once they reach the end of their training 
commitment.
    Senator Manchin. Right, to keep them.
    General Carlisle. Now we are going to give that to our RPA 
pilots as well. We would like all of those to be raised, and we 
are asking for that in the fiscal year 2017.
    Senator Manchin. You are saying $25,000 will not do the 
job.
    General Carlisle. Sir, it is not competitive. We have some 
studies. RAND did a study about what it takes. The bonus and 
the flight pay has not changed since 1999. It is 17 years old. 
The draw from the airline hiring has reignited at a phenomenal 
level. Our ability to keep our entire rated force in is one 
that we believe that we need a higher bonus capability to keep 
those folks in the Air Force, across all of them, RPAs as well 
as the rest of the rated career fields.
    Senator Manchin. Thank you, General.
    Senator Cotton. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General Carlisle, how many pilots are you short right now 
with regard to the unmanned aerial vehicles, UAVs?
    General Carlisle. Sir, we are currently about 83 percent 
manned in the RPAs.
    Senator Rounds. Eighty-three percent manned?
    General Carlisle. At the 10-to-1 for the current system. 
Let me expand a little bit on that in accordance with the GAO. 
Ms. Farrell pointed out these points, and we have taken them to 
heart and we are working on them.
    The first thing we did was the 10-to-1 crew-to-CAP ratio. 
We are not there yet because of the continual surge, nine 
surges in 8 years, and the rapid increase in the number of 
combat air patrols. We got down as low as 7-to-1, and that was 
way too low. The first thing we have to do is get back to the 
10-to-1 crew per combat line, or CAP.
    But the next thing we have to do is--and I kind of alluded 
to in the statement about the 3 million hours versus 2.8 
million hours during combat. We have no dwell in the RPA 
enterprise. Every mission they fly from the day they come out 
of training and they show up at their unit is combat. That is 
unsustainable. We have to build more capacity into the RPA 
enterprise so that a portion of the force can do continuation 
training, can do other things, can improve the system, can take 
some non-combat time during a tour. The 83 percent is reference 
100 percent combat and no dwell.
    Senator Rounds. I am just going to go back to what the GAO 
finding was, and that was that at the time, if I understand it 
correctly, you could not tell them how many pilots you needed. 
What is the total pilot count that you need to do the mission 
today?
    General Carlisle. Sir, if you said stay at 60 CAPs----
    Senator Rounds. What you would need today.
    General Carlisle. That part of the discussion on that, 
Senator, is the demand signal. I think the reason we were 
unable to tell them is we really did not know what the end 
result of the demand signal was.
    The total number of pilots we need across the whole 
enterprise is about 1,000, and we are about 83 percent manned. 
But that is only to do 100 percent combat. What we are trying 
to build to is about a third to a fourth of the force in dwell. 
If there is a 1,000 requirement today--and I think that may be 
under by a little bit. Sir, I will get back to you with the 
exact numbers. Maybe 1,084 or something to that effect. Then I 
would probably need another 300 so that I could have a third--
--
    Senator Rounds. You need 1,400, in that neighborhood.
    General Carlisle. Yes, sir.
    Senator Rounds. Really you are probably closer to about 
maybe 70 percent of what you really need right now?
    General Carlisle. Yes, sir.
    Senator Rounds. Can you share with me--and General Perkins, 
I would like your thought on this as well--the difference 
between the mission that a pilot operating one of these 
aircraft--tell me if there is a difference in the mission 
between that, which is a mission flown by a United States Air 
Force officer, and a warrant officer flying a mission for an 
Army mission. Could you tell me the differences between them?
    General Carlisle. Yes, sir. Sir, from the Air Force 
perspective, it is a theater asset doing theater-level air 
power. When he takes off, he probably takes off with a pre-
designated mission. It is launched. He is probably doing it 
remote split op. He is doing it from either Ellsworth or 
Whiteman or Creech or Holloman where some of the many Air 
National Guard units are doing fantastic work for us. He will 
probably fly that mission. He could well do an entire different 
set of mission sets across that time. He could do close air 
support. He could do solely ISR. He could do strike. He could 
do personnel recovery. He could do interdiction. He could do 
interdiction and targets in the deep fight.
    The missions that our RPAs fly--it is a theater-level asset 
given to the joint force commander for his allocation to meet 
the theater-level missions that he is trying to do. It is in 
coordination with either the land component or the maritime 
component, if it happens to be a maritime mission like in the 
Arabian Gulf. It is in coordination with them, but it is under 
the control of the joint force commander and the Air Force----
    Senator Rounds. General Perkins, you have heard that 
explanation. How would a mission flown by one of your pilots 
differ?
    General Perkins. Sir, I will compare it to our helicopter 
pilots in the Army, both our warrant officers and commissioned 
officers. Really two parts to it. One is the actual process of 
flying the aircraft and the flight dynamics. Obviously, with 
our Apaches, Black Hawks, and Chinooks, the pilots, the warrant 
officers, the commissioned officers are actually flying them 
dealing with the dynamics, as they say, stick and rudder and 
all of that, and so there is great skill involved with that, 
from that portion of it.
    With our unmanned aerial systems, they are completely 
automated. It is automatic takeoff, automatic landing, and then 
they just point and click in the ground station. That is why we 
referred to our unmanned aerial systems are really being 
operated by our sergeants, soldiers, and warrant officers doing 
a great job. But the actual physical activity is significantly 
different.
    With regard to the mission profile itself and how it reacts 
to the formation, our unmanned aerial systems--the great 
majority of them are organic to our maneuver brigade combat 
teams. They are working, generally speaking, for a battalion 
commander or brigade commander, of which they are organic to 
that organization.
    With our aviation assets, our Apaches or even Black Hawks, 
they are not organic to a maneuver brigade. They are generally 
out of a combat aviation brigade, are supporting the entire 
division. The level of supervision is not the same as well 
because they are not organic to the maneuver force.
    I think both the way that they are organized within the 
maneuver force, as well as the requirements to actually operate 
it, there are some significant differences.
    Senator Rounds. Thank you.
    My time has expired. Thank you, Mr. Chairman.
    Senator Cotton. Senator Heinrich?
    Senator Heinrich. Thank you, Chairman. I want to thank you 
for holding this hearing.
    General Carlisle, as you know, Holloman Air Force Base in 
New Mexico serves as our Nation's premier formal training unit 
for the RPA enterprise. I am very proud, and I know you are 
proud of the work that they do to help give our airmen the 
skills and training to go on and carry out what we have heard 
repeatedly is a critical and growing mission set.
    I have long called for actions to alleviate the stress on 
this force, to rectify personnel shortfalls, and to improve the 
quality of life for our airmen. I specifically want to thank 
you for the outreach that you conducted last year and the 
important announcements that you made in December as a result 
of that.
    In your testimony, you said that the sustained high tempo 
and high levels of stress is, quote, robbing, unquote, our 
airmen of quality of life. You have mentioned the RPA pilots 
simply want time, time to spend with their family or go to 
school, to train, to take a vacation, et cetera. These are 
important to anyone's quality of life in their career. Airmen 
throughout the Air Force are obviously busy, of course, but the 
service seems to have done a better job of balancing and, for 
that matter, creating sustainable schedules in other career 
fields.
    Can you talk a little bit about--describe for the committee 
why an RPA pilot's daily duties and schedule are so different 
from other Air Force career fields.
    General Carlisle. Yes, sir. I think it probably stems from 
born in combat and then the pace at which the demand increased. 
The RPA pilots, central operators--and actually it is a crew 
because it is the pilots, central operators. It is a 
communication specialist that has to make sure the remote split 
ops is working properly and the ground control station is 
adequately connected to the forward capability of the airplane 
flying forward. It is in-garrison combat ops.
    What our RPAs are doing is 24/7/365. When we say 60 CAPs, 
that means 24/7/365 days a year that all of those CAPs are 
flying. Today that is 100 percent of our force. There is no 
other part of the Air Force that does that. There is no other 
part of the Air Force that has 100 percent of their capability 
engaged 100 percent of the time without any continuation 
training.
    Senator Heinrich. Obviously, we have got to grow the 
pipeline in terms of training. But what are we going to do to 
adjust those schedules so that that is sustainable in the long 
term and we can keep these folks within that career field?
    General Carlisle. Yes, sir. That is exactly what Senator 
Rounds asked, and that is we need to build capacity within the 
RPA enterprise so that we have some that are what we would call 
dwell, just like we have deploy-to-dwell for our soldiers, 
sailors, airmen, and marines that go downrange. Something we 
have to come to grips with is in-garrison combat operations. 
Folks that are doing the combat mission, in the case at Creech 
and Ellsworth and Whiteman and many of our Guard units, where 
every day they go to work, they brief up the mission, they fly 
a combat mission and nonstop, and then they come home. Their 
schedules change from they are doing the days, the mids, the 
swings. They are doing different schedules usually they are 
there 10 to 12 hours. They are there most of the day, middle of 
the day to the middle of the night, or all night in that 
schedule.
    That is something that I think as a military and certainly 
as an Air Force, in-garrison combat operations--we need to 
build that dwell time in, which we have not done. That is the 
25 to 30 percent increase in the size of our RPA capability. 
Some portion of that force is working a day schedule, is doing 
continuation training, is going to weapons school, is taking 
vacation, going to school and relief from the continuous combat 
operations.
    Senator Heinrich. You mentioned that ACC is examining the 
possible expansion of the RPA community to a number of 
potential new bases or even overseas locations.
    I wanted to bring up the fact that given--you know, I know 
at Holloman, for example, we have what used to be the Force 
Space Control Squadron that is 64,000 feet of prime real estate 
that is secure and currently not being used for anything. 
Before we create new capacity, I think it is going to be 
important to look around the Air Force and make sure that we 
inventory those places where this could be just a natural 
growth with facilities that are sort of ready and waiting.
    General Carlisle. Sir, most definitely. When we look at 
those new bases, we will follow the strategic basing process 
that the Air Force utilizes. I will tell you I truly believe 
that Holloman will be very competitive in that. We will see 
what the basing process comes up with.
    Senator Heinrich. Mr. Chair, thanks again for holding this 
hearing.
    Senator Cotton. Senator Ernst?
    Senator Ernst. Does anybody have any questions while I am 
getting my stuff together?
    Senator Cotton. Senator Sullivan?
    Senator Ernst. Thank you.
    Senator Sullivan. Thank you, Mr. Chair.
    General Carlisle and General Perkins, I want to ask a 
little bit about the issue of--you know, one of the things that 
we have seen with regard to the combatant commanders and 
different executive agencies is almost an insatiable appetite 
for the ISR capability. To me, that kind of poses two questions 
at that theater level, which is where the Air Force is very 
focused on that, what support or other capabilities, General 
Carlisle, do you see that you need to meet that demand, which 
is very, very large, as you know.
    Then, General Perkins, has the Army looked at expanding the 
role of its platforms beyond the organic maneuver sphere to 
help in some ways meet the broader theater-wide demand that I 
think all of us see as so highly needed and requested?
    General Carlisle. Sir, from the Air Force standpoint, I 
believe that if you look at the American way of war and what we 
are doing today, that information, situational awareness, 
intelligence, surveillance, and reconnaissance, I totally agree 
with, understand. When I was an air component in the Pacific, I 
wanted all the information all the time. We do.
    In trying to meet that, I do believe that it is a question 
of how do you do that and what can you do with respect to the 
whole ISR enterprise, whether it is on-orbit capability, 
whether it is other platforms that we are modernizing, it is 
RQX, whatever that is, MQX, whatever that is. I think the RPA 
enterprise has come so far. I think we need to elevate it to 
that capability in predictive intelligence and some of those 
things that we can do in a cooperative environment between all 
the services and all their ISR capability.
    I will tell you that we have great interaction with our 
Army counterparts, for example, in the distributed common 
ground system. The Army and the Air Force--we do a lot of time 
cross-talk on how we process that information. I think the 
demand signal is appropriate, given what we are asking the 
combatant commanders to do. We as the organize, train, and 
equip folks in support of those joint warfights and being a 
force provider--I have to figure out better ways to do that 
using technology as well as the innovative spirit of our 
soldiers, sailors, airmen, and marines.
    Senator Sullivan. General Perkins, are you looking outside 
that organic maneuver mission in terms of supporting the 
broader theater demand?
    General Perkins. Senator, exactly. As I had said, most our 
assets are organically organized within the brigade or the 
division. But we have--based on this requirement, on this very 
large demand kind of at the enterprise level, the Army is now 
being funded for and fielding four additional echelon-above-
division Gray Eagle units. Those are our most capable ones.
    Our most recent one just stood up last month at Fort 
Wainwright and is going in and will have its first flight next 
month.
    We are in the process of bringing on four additional Gray 
Eagle companies to help with this enterprise demand from the 
combatant commanders. They will actually be a little bit larger 
than the ones that are organic to the division so that organic 
platoons can operate in a split-base manner so that we can 
provide, again, a better product because our demand tends to 
not be in one place but dispersed around the world. What we are 
doing now is, as we are growing those additional Gray Eagle 
companies, putting them in between divisions so we kind of 
balance, providing an organic--the one going in at Wainwright 
is a division asset, but we have one echelon-above-division, 
one already in that has already deployed because it is kind of 
like General Carlisle says, as soon as we build it, we want it. 
We have three more others that we are building right now.
    Senator Sullivan. Let me ask kind of a follow-up. You 
mentioned the Gray Eagles coming to Fort Wainwright. General 
Carlisle, you have a lot experience serving up in Alaska. The 
joint training opportunities at JPARC, particularly given our 
kind of hub of air combat power that is happening--every 
platform in the Air Force is up there but also the Gray Eagles 
and the two brigade combat teams that we have at Wainwright and 
JBER. Do you view JPARC as a premier place in the Nation to 
help with some of not only the training that the Air Force does 
but also the joint training that could be very, very useful, 
particularly as the Army is looking to move these more kind of 
strategic-focused Gray Eagle units?
    General Carlisle. Sir, I would defer a little bit to 
General Robinson and General Brooks, who are the component 
commanders for the Pacific, as they operate out of there.
    But I will tell you that JPARC to me is a national asset. 
We had the Chief of Staff of the Republic of Korea Air Force 
with us up in Alaska, and we showed him the JPARC. We overlaid 
the Korean peninsula, and JPARC is twice as large as the entire 
Korean peninsula.
    Senator Ernst. Mr. Chairman, we are used to those kind of 
large comparisons in Alaska.
    General Carlisle. But the airspace, the lack of 
encroachment problems, the ability to operate with our Army 
brethren, and the strategic assets we have up there with the F-
35's coming before too long, combined with the F-22's, command 
and control with the AWACS [Airborne Warning and Control 
System], bringing our partners over--I will tell you the one 
thing that I am pushing for--and General Robinson and I have 
spent a lot of time talking about this.
    In the past, we have kind of used Red Flag Alaska 
predominantly to train our Pacific partners. I think that is 
shortsighted. I would like the Europeans to train with us I 
think in the future. I think for partners they need to train at 
both Red Flag Nellis and Red Flag Alaska. I think they need to 
do both because both of them offer incredible experiences, 
incredible capability and different. For the joint warfight and 
the coalition warfight, it is important. JPARC is--two 
assignments in Alaska, and I will tell you it is some of the 
greatest airspace you can imagine. It is very valuable, sir.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Cotton. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you very much for being here today, Ms. Farrell and 
General Perkins. Thank you.
    General Carlisle, I have lots of questions for you, sir.
    As you are probably aware, as RPA units were moved into the 
Air National Guard, there is an issue surrounding whether or 
not the RPA mission is an aeronautical mission in nature, as 
defined by the Federal Aviation Administration. This lack of 
defining RPAs as an aeronautical mission is causing risk to 
airports' grant assurances across the country, not just in 
Iowa. I know that the chairman has a similar situation existing 
in Arkansas as well.
    Late last year, our Governor wrote to the two Departments 
to intervene on behalf of the 132nd Fighter Wing to help 
resolve the long-simmering issue of the FAA's threat to 
withhold the Des Moines International Airport's grant 
assurances.
    What specific steps has the Air Force taken to resolve this 
issue or when will it be resolved?
    General Carlisle. Ma'am, we are working very closely with 
the FAA. I think the `see and avoid' capability of the RPAs and 
the technology that we are putting into the RPAs for that 'see 
and avoid?--obviously, being a pilot, having spent a lot of 
hours flying an airplane, you cannot always see it in an 
airplane either. There are instrument meteorological 
conditions.
    We are working closely with FAA for them to fully 
understand how the RPAs are utilized, what the safety factors 
are, how they operate in airspace. I think we have the Air 
Force moving out. I think we also have the academia world spend 
a lot of time on the things that we are doing with respect to 
technology and how we operate these airplanes within airspace.
    Currently, what we are doing in stateside and flying within 
CONUS [Contiguous United States] is we generate memorandums of 
agreement corridors for how we can use our RPAs in the safest 
manner possible and not send any jeopardy to the manned flights 
or any other flight or aviation that is going on. I believe 
that we will continue to advance both the technology and the 
platforms and our ability to ensure safe flight between both 
manned and unmanned.
    I will tell you, ma'am, my biggest concern is the rampant 
commercial market and what is going on and how we control 
things that have happened with RPAs that are not regulated by 
either the Army or the Air Force that are causing what I think 
is the biggest hazards. I believe that is where the FAA's 
concern is predominantly resting with is that commercial 
enterprise and sportsmen enterprise with respect to RPAs.
    Senator Ernst. Well, certainly there is a lot of division 
in this issue.
    Because we have a new mission, we do not have F-16's based 
out of our Des Moines International Airport any longer. This 
has created quite a rift in determining what is an aeronautical 
mission and what is not--what is, what is not. The Air Guard is 
in a difficult position right now. The Des Moines Airport is in 
a very difficult position, and it has created a rift between 
the two different groups and within our community because we do 
not have an answer from the FAA or the Air Force on this issue. 
It grows daily.
    General Carlisle. Ma'am, we are working it. We fully 
understand that. We have examples in other States where we have 
worked with the FAA and resolved the issues. I truly believe we 
will do the same thing in Des Moines in the fact that we--we 
have done it yet. You are right. We should have been ahead of 
this by a bit, I would say, that we have not done. But we are 
working hard to have those dialogues and come to those 
agreements so we can resolve this issue. Ma'am, I believe we 
will get there. I truly do.
    Senator Ernst. I do hope so, General. If you can 
communicate that as well, I would certainly appreciate it. It 
is an issue that we will continue to work on, and if we do not 
see resolution coming from the Air Force or the FAA, this is 
something that we will act on legislatively, which is not what 
I would like to do.
    General Carlisle. Ma'am, we will attack it.
    Senator Ernst. Thank you.
    General Carlisle. Yes, ma'am.
    Senator Ernst. General Carlisle, from 1941 to 2013, the 
132nd air wing of the Iowa Air National Guard flew manned 
aircraft, as I stated. We had F-16's. In 2013, after 72 years 
of manned flight, this unit transitioned to an RPA unit, and 
the pilots learned how to fly aircraft remotely.
    I understand you have discussed already the fighter pilot 
shortage. It is around 500. I think you might have stated 511 
fighter pilots you are short.
    General Carlisle. Yes, ma'am.
    Senator Ernst. Are some of these shortages brought by 
transitioning those fighter pilots into those RPA units?
    General Carlisle. Ma'am, I think you bring up a great 
point, and that is we got to utilize the assets we have and the 
capabilities and the trained folks we have.
    The reason the transition occurred was because of the 
drawdown in the force. We lost the airplanes. It was the 
mission which we could take advantage of those aviators. The 
challenge with the fighter pilot shortage is we do not have 
enough airplanes to absorb young pilots and train them. The 
reason that Des Moines transitioned is because we retired at 
one point 250 airplanes in 1 year, 250 fighters in 1 year. That 
reduction in the size of the force is what has led to this 
problem with respect to the 11F shortage.
    I do believe there is capability as we move into the future 
in the size of the force that taking advantage of those folks 
that had previously flown fighters is one that we are looking 
to keep the 11F experience within the Air Force and take 
advantage of it.
    Senator Ernst. We had a panel the other day. General Holmes 
was here, a number of others. They stated that they are short 
pilots, they need more pilots, and they were thinking of moving 
some of these assets to the Air Guard and Air Force Reserve. My 
thought was, well, why did we transition these folks into RPA 
units then.
    But I do not know whether that was shortsightedness on the 
part of the Air Force to underestimate what they needed as far 
as fighter capabilities.
    General Carlisle. Ma'am, it was a balance. You know, it is 
what we talked about earlier. The RPA enterprise was growing at 
a phenomenal rate, so we needed the RPA capability. The 
drawdown in the fighters was driven by a variety of factors, 
including balancing with other portfolios, whether it was the 
space portfolio or the bombers or ISR and other realms in the 
big wing ISR. I believe that it is that balance that we have 
talked about. How do we balance the force and provide all the 
capabilities that the combatant commanders want? The RPA 
enterprise is one that is in high demand. We are in high demand 
for fighters as well. The tradeoff between those two--we do not 
have enough of either.
    Senator Ernst. No doubt. I do appreciate the fact that we 
have that ISR capability and that we do have the RPA unit now 
in Des Moines replacing the F-16's. But it seems to be such a 
waste of taxpayer dollars maybe to have transitioned fighters 
out, replace it with an RPA unit. Now we are saying we do not 
have enough of those fighter capabilities.
    We had a lot of pilots that left Iowa because they were 
seeking opportunities to fly and not fly an RPA. I do think it 
was a bit shortsighted, but I do not know who is at fault 
there.
    But I do appreciate your answers today and want to thank 
you for being here. General Perkins, Ms. Farrell, thank you 
very much.
    Thank you, Mr. Chair.
    Senator Cotton. We have at least one more Senator en route. 
Fortunately, I have several questions to fill the time until 
that Senator arrives or more Senators.
    In particular, Ms. Farrell, we have not yet heard from you. 
You have been involved in many studies and assignments. You 
have extensive experience in this field. Can you please just 
give a high-level summary for the committee of the most 
important challenges you see in the UAS/RPA enterprise, the 
recommendations GAO has made to the Department, and the 
progress the Department is making in implementing these 
solutions?
    Ms. Farrell. Certainly.
    Our report had 10 recommendations that I mentioned. Seven 
were to the Air Force. Two were to the Army, and one to OSD.
    Of the ones to the Air Force, there were four that focus on 
improved management of the UAS pilot community. Those dealt 
with requirements, setting the optimum crew ratios, setting the 
minimum crew ratio, exploring alternatives for pilots such as 
enlisted or civilians, and then developing a tailored 
recruiting and retention strategy for the UAS pilots.
    The key recommendation is truly about the crew ratio. It 
keeps coming up. These shortages that are related to 
instructors or the training pipeline, quality of life, people 
overworking--it always goes back to do you have enough pilots.
    The 10-to-1 crew ratio was developed very quickly in 2008 
by the Air Force Manpower Agency. When we looked at that ratio, 
the Manpower Agency agreed with us that it was missing some key 
elements that we touched upon earlier, that being launch and 
recovery, as well as some other key administrative tasks such 
as evaluating flight safety.
    When we looked at Air Force documentation of, well, what 
are they actually flying, we found it was even less than the 
10-to-1 ratio. We found ranges in documentation from 7-to-1 to 
8.5-to-1, meaning seven pilots flying for a near continuous 24-
hour presence in a particular geographic area. When we talked 
with Air Force officials about, well, what happens when you do 
go below the 10-to-1, since you already know that 10-to-1 is 
probably low, there were times that they denied requests for 
the UAS support, but sometimes those denials were overturned by 
Joint Staff because they needed them to perform the mission. We 
were told that at times the ratio was as low as 6-to-1.
    Determining what that ratio truly is under optimum 
conditions, as well as a minimum acceptable level, is key to 
the Air Force determining how they go about recruiting the 
right numbers and thus retaining the right numbers. Then it 
spills over to the training pipeline.
    We would encourage them to be very aggressive with that 
crew ratio. We know they are working on it, but we think that 
they should be very aggressive in that area.
    For the Army, the Army has taken actions also on our 
recommendations. A key one was the waivers for prerequisites 
for training instructors. We have heard that the Army is 
working on mitigating those risks to waiving certain 
prerequisites such as the number of flying hours, and we think 
that that is a good step to look at how they can best mitigate 
those circumstances. The key is also going back and providing 
training for those instructors that did not meet all the 
requirements to become instructors and making sure that in some 
way they are prepared to continue.
    Senator Cotton. Thank you.
    General Carlisle, any thoughts on Ms. Farrell's 
observations?
    General Carlisle. No. Mr. Chairman, the GAO report was 
really well done. Ms. Farrell's points are exactly right.
    In cases where the demand signal went up and our crew ratio 
was dropping, the term was `surge.' We needed to surge. We 
ended up doing nine surges in 8 years, which forced us into 
some of those crew ratios that were down in that seven. I do 
remember going below seven. I am not sure we ever got to six, 
but it was bad.
    The point that we are making--I think the first study came 
out with reference to the crew ratio and it was 9-to-1. We 
relooked at it and said 10-to-1.
    There are two things additionally that we have done that I 
think would go to what the GAO is talking about. One is we 
believe that the LR squadrons, launch and recovery, need to be 
separate squadrons and not embedded in the crew ratio for the 
mission control elements. We have already done one of those 
squadrons that we have broken out that have unit tasking codes 
to go downrange. When you break out LRU [Launch Recovery 
Units], that frees up in the current status about 32 crews, 
which gives you a crew ratio--the 10-to-1 is a more truly 10-
to-1 because you do not have to break out the launch and 
recovery. That is one thing that we are doing, again, to speak 
to the comments that GAO made.
    Then the second thing is the dwell time. So 10-to-1 is 
based on combat, 60 combat lines per day, or CAPs. If we 
continue to grow this force, which we are trying to do, and we 
have some in dwell, then the combat crew ratio is 10-to-1, but 
the actual crew ratio for the overall enterprise will give us 
that much more, which allows us to do all those things that she 
talks about, the administrative tasks, the time off, the 
schools, the continuation training, and all those things that 
every unit has to do as part of their unit organization and 
what they do to accomplish the mission.
    Again, I truly agree with what Ms. Farrell said. Then we 
have taken it to heart. We have looked hard at it, and we are 
sharing that as we build that manpower so that we reach a crew 
ratio that is executable, sustainable, and supportable.
    Senator Cotton. Senator Manchin?
    Senator Manchin. I just have one question and it could be 
for both of you.
    The Federal Aviation Administration has been very 
conservative in deciding how to manage routine operations of 
government-owned UAVs in the national airspace system. Until 
roughly 5 years ago, each flight of a DOD-owned UAV in the 
national airspace system had to go through an extraordinary 
approval process that could take several months for DOD to 
receive clearance.
    Periodically we have received reports on the rate of 
progress in integrating unmanned aircraft systems into the 
national airspace. While there has been progress, I am told it 
has been very slow.
    For the flights with the DOD-managed airspace over DOD-
controlled real estate, we understand there is not a big issue 
at all. We understand that. However, with the Global Hawk and 
the Predator/Reaper aircraft having intercontinental range and 
with Army or Marine Corps' ground forces not collocated with 
the Air Force RPA aircraft, I basically suspect the Air Force 
will have to routinely fly RPAs in the national airspace 
system.
    I guess I would ask both of you, maybe General Carlisle, 
General Perkins, are you all experiencing difficulty in 
operating, General Carlisle, the Predator/Reaper or Global 
Hawks in the national airspace system?
    General Carlisle. Yes, sir, we do. It is a challenge for 
our training for crews that are stateside. For both our launch 
and recovery crews, we in most cases were able to either--we 
were fortunate enough in the case of places like Holloman where 
we do a predominant amount of our formal training--is it sits 
inside of government-controlled airspace. It becomes less of a 
challenge for training.
    But in places where that does not occur, then we work with 
the FAA. In many cases we will spiral an airplane up inside of 
the airspace that we control, usually the TFR [Temporary Flight 
Restriction] that exists over the airfield, and then we will 
build a corridor we can come in agreement with the FAA to fly 
the aircraft to the training airspace.
    I think total use of the national airspace system by RPAs 
is some period of time off. I think the FAA has issues with it. 
I think they are probably more confident in government and 
certainly the military's procedures on how we do things. I 
think what concerns the FAA most is the commercial enterprise 
or sportsmen or uncontrolled RPAs that are less governed by the 
regulations and rules that we use in the United States Air 
Force and the United States Army.
    It is a challenge. We are working very closely with them. 
We spend a lot of time. We have FAA representatives in many of 
our bases. We have one at Holloman that works with them all the 
time. We have one in Arizona that works----
    Senator Ernst. General Perkins, how is it with you?
    General Perkins. Sir, you are correct. This has been a 
difficult challenge that we have faced I think mainly because 
as it came on, new technology was not something that our system 
was necessarily set up to deal with.
    We have had to deal with it very similar to as General 
Carlisle has highlighted. First of all, we had to work very 
closely with FAA. You have to gain, I think, a level of 
understanding on both sides what their safety parameter is and 
what our capabilities are.
    What we started doing is exactly as he said. We would 
establish a corridor, have a memorandum of agreement. These are 
the corridors we use, say, between training areas, et cetera. 
We would set times that we would use it to de-conflict from the 
civilian air. Then because these are by definition unmanned, 
just as we spoke earlier in the hearing, we would have to use--
we started using a chase aircraft. You would have to follow the 
unmanned aerial system with a Black Hawk or an Apache to 
provide that visual if something were to go on. Of course, that 
is doubling or tripling your overhead to operate.
    We are now, as the Air Force is, going down and procuring 
and working with sense and avoid radar. If we have areas that 
we want to operate in the national airspace, we can set up a 
sense and avoid radar, which precludes us from now having to 
put twice as many aircraft in the air to trace it down.
    I think we are making progress, but this will not be solved 
easily because, as we have said also, the proliferation of the 
privately owned ones there, I think concern is going up rather 
than going down. But we have made dramatic progress from when I 
was first involved in this, but we have a long ways to go.
    Senator Manchin. Thank you.
    Senator Cotton. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    In early December, I sent a letter to Secretary Carter 
regarding the process that drone operators, commanders, and 
ultimately the White House use to initiate drone strikes. 
Specifically, I was interested and remain interested still in 
certain aspects of the process.
    According to the U.S. policy standards and procedures for 
the use of force put out by the White House, the United States 
will use lethal force only against a target that poses a 
continuing imminent threat to U.S. persons.
    Yet, media reports, based off of leaked documents, seem to 
suggest that the amount of time between when a target is 
identified, the President authorizes the use of lethal force on 
a target, and the execution of that strike can take a lot of 
time, a lot of time that we do not commonly associate with the 
word ``imminent.'' In fact, it can take several months.
    General Perkins and General Carlisle, can you confirm the 
accuracy of these reports about the length of time between the 
identification of the target and the execution of the order?
    General Perkins. Sir, I will discuss it from my experience 
and how we operate.
    Again, Army unmanned aerial systems are generally organic 
assets to a tactical formation, and having commanded an 
infantry division in Iraq where I had these assets, as long as 
I was operating underneath my rules of engagement, it was 
somewhat instantaneous.
    Now, you may be referring to some strategic targets that 
have different planning parameters, which I am not involved in 
that process. I would not comment.
    But I will tell you at the tactical level, it was not an 
issue once the rules of engagement were established that I had 
to struggle with.
    Senator Lee. General Carlisle?
    General Carlisle. Yes, sir. Thank you very much for the 
question.
    I would offer that if you would like at some point in the 
future in a classified environment, we could take this 
discussion probably to a different level. To get more probably 
to the question you are really asking but in an open forum, 
there are some things that we probably should not discuss here.
    But having said that, I think there are a couple of things. 
One is custody of a potential target, and how you do that in 
time, again that would go under the classified piece. Then both 
the ID and continuous ID is part of that custody, as well as 
collateral damage estimates and how you deal with those. Again, 
those are things that when you talk about strategic targets and 
the things you are talking about, at a higher classification 
level, we could go into a deeper discussion about what we 
provide and what the Air Force does in accordance with how we 
do that.
    I do believe truly that with respect to rules of engagement 
and rules and laws, that we in the United States Air Force 
follow all of the rules of engagement and follow all of the 
laws in accordance with the law of armed conflict and the 
appropriate laws that pertain to that, sir.
    Senator Lee. Thank you.
    A number of members of this committee are concerned about 
cybersecurity issues across the Department of Defense, as state 
and non-state actors alike seem to be increasing their threat 
capability in this area.
    Drones rely completely on wireless technology, of course. 
That is what makes them valuable. It is what enables them to do 
what they do, the use of wireless technology to be connected 
with their operators in other parts of the world. This creates 
an obvious area of security concern.
    I would like to know how is the Department of Defense 
working to protect the operational security of unmanned 
vehicles from crippling cyber attacks and potentially a cyber 
hacking incident that could compromise their security here.
    General Perkins. Sir, that is a major concern across that 
whole domain. I will address it initially with our unmanned 
aerial systems. Right now, without getting into too many 
details in this forum, our number one modernization issue, 
specifically with our Shadow and the Gray Eagles as they come 
out, is encrypting and protecting that communications link I 
guess is the best way to say it and the data protection. That 
is our number one modernization issue right now with our 
Shadows is to protect it from the type of threat that you 
talked about.
    General Carlisle. Yes, sir, Senator. Again, same thing. We 
are looking hard at all the different ways, and there is cyber 
protection and there is the way that you make it more difficult 
for them to get into those nodes via encryption, via 
directional, via the type of waveform, and the capability you 
are using with respect to directional data links and things 
like that. But there is, again, a level, if you would like in a 
future environment, we can come and spend time at a classified 
level talking about the things we are doing for cyber 
protection.
    But I think in general for the United States Air Force in 
particular is we all know that everything, almost to an item, 
that we employ has cyber challenges and vulnerabilities that we 
have to protect. We are looking hard at what cyber operations 
in the future and cyber protection of all systems in the future 
look like and how we are doing that. That is one of the big 
areas that we are moving forward on in the Air Force as part of 
our cyber defense.
    Senator Lee. Mr. Chairman, I have got one more follow-up 
with General Carlisle if that is all right.
    On January 20th, the ``Washington Post'' reported that the 
Air Force RPA force has been experiencing an increase in 
electrical and in mechanical failures, causing the destruction 
or sustained damage to 20 large drones last year. This includes 
10 MQ-9 Reapers which, when fully equipped, cost $14 million to 
replace.
    General, can you tell us what the Air Force is doing to 
investigate the common causes of these types of accidents and 
how you are working to make the RPA fleet more sustainable?
    General Carlisle. Yes, sir. It has generally been 
centralized on the starter generator, which is the problem in 
the MQ-9 community. The new MQ-9's and the block 5 MQ-9's that 
we are producing now have a different electrical system. It 
does not have the same starter generator. It does not have the 
same problem.
    With the older block 1 MQ-9's, the starter generator is a 
problem. We have worked with the manufacturer. We found some 
quality control issues. We really have not found the root cause 
in that, though. But we have put in and we are modifying the 
current block 1 MQ-9's with a thing called ESIP, electrical 
safety improvement program. Basically we put a direct-drive, 
brushless alternator that allows 10 hours of flight capability 
if you lose a starter generator, which has caused those 
accidents that you referenced, Senator. Just since last April, 
we have recovered 17 MQ-9's using this direct-drive, brushless 
alternator. That gives us the capability with the older MQ-9's, 
the block 1's. The block 5's--it is not a factor, sir.
    Senator Lee. Thank you very much.
    Senator Cotton. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    General Carlisle, the Air Force is offering retention 
bonuses for the RPA pilots for the first time in fiscal year 
2016. How significant is your shortage of pilots? Since the 
bonuses have been implemented, have you seen significant 
interest? To what degree is the Air Force encouraging RPA 
pilots who want to leave active duty to stay in Reserves or 
National Guard, and how is this shortage impacting your ability 
to meet strategic needs?
    General Carlisle. Yes, ma'am. We did a career incentive 
retention pay of $25,000. In fiscal year 2016 and 2017, that 
only applies to 29 folks in the RPA enterprise. To date, we 
have seen that we do not have the final number on take rate 
based on this year yet because, obviously, we are still in the 
middle of the year. But we have a fairly positive response from 
the RPA community with respect to the retention bonus.
    We are short. We are very much encouraging folks to stay 
with the Air Force in another component, either the Air 
National Guard or the Air Force Reserve.
    We actually have a rated problem across our Air Force. We 
are working with Congress in fiscal year 2017 to raise that to 
$35,000, if at all possible, across the entire rated force to 
try to maintain the level of folks we need within the Air Force 
and increase the take rate so we can keep that experience 
capability and those incredible airmen doing the job we are 
asking them to do, ma'am.
    Senator Gillibrand. Do you think pay is fundamentally the 
reason why you do not have the force you need?
    General Carlisle. Ma'am, I think it is a combination. There 
is kind of three components. I think it is quality of life and 
the family. I think it is job satisfaction with the job they 
are doing. Then I think it is compensation. I think every 
airman takes all three of those into account. We know that we 
cannot compete with General Atomics if they want to hire and 
pay somebody to be a contractor RPA pilot. We cannot compete 
with the airlines that want to hire our pilots. But if we can 
increase the compensation somewhat and we can improve their 
quality of life, we know that the job satisfaction of both the 
RPAs and the manned pilots--they find great job satisfaction. 
Frankly, it is higher than it is in the civilian community.
    It is a combination of all three of those. We have to 
improve their quality of life. If we could increase their 
compensation, combined with their job satisfaction, I believe 
we can keep the right folks in our Air Force.
    Senator Gillibrand. Have you thought about utilizing Guard 
and Reserve as a backup?
    General Carlisle. Ma'am, our Guard and Reserve is hugely 
engaged in the RPA enterprise. As a matter of fact, they are 
mobilizing and volunteering to pick up three additional lines 
to allow us to get healthier. The Guard and Reserve are 
phenomenal in what they do in supporting the joint fight. It is 
one Air Force. Doing the mission, you cannot tell the 
difference between a guardsman or a reservist or an active duty 
member, ma'am.
    Senator Gillibrand. Thank you.
    Ms. Farrell, I went to Africa recently on a CODEL 
[Congressional Delegation], an anti-terrorism CODEL. One of the 
concerns that was raised was the limited amount of ISR 
capabilities that AFRICOM [United States African Command] 
shares with EUCOM [United States European Command]. What is 
your assessment our ISR capabilities versus our needs?
    Ms. Farrell. Senator, that really would be better addressed 
by one of the generals. Our focus was really on the human 
capital management aspect and the shortages, but not a 
particular geographic area.
    Senator Gillibrand. General Perkins?
    General Perkins. Senator, the demand on unmanned aerial 
systems, like almost every other asset that we have, is 
somewhat insatiable. I can understand that. Having commanded in 
combat a number of times, I created insatiable demands. You can 
always use more infantrymen. You can always use more 
intelligence, surveillance, reconnaissance systems. I am sure 
they have a very high demand.
    As we are growing demand from 200 systems to over 7,000, we 
have to grow it as a system. It is growing the operators, 
growing the training base, growing the actual systems 
themselves, and then the force structure. I think we have got 
about the right balance, and then it is just deciding where to 
use that for the biggest return on investment.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Cotton. Ms. Farrell, I want to discuss something 
related to what Senator Gillibrand was raising. She was talking 
primarily about compensation and the bonus pay. I want to talk 
about quality of life and job satisfaction.
    I know you and your team have spent quite a bit of time 
around the units and the operators and pilots in both the RPA 
and the UAS community, as have members of this committee and 
some of our very capable professional staff. Could you provide 
your perspective on those quality of life and job satisfaction 
issues, things like the amount of hours worked, availability of 
child care, availability of housing, the pride in the work 
done, and the morale of those personnel?
    Ms. Farrell. Yes, sir. We did visit 10 sites in total 
between the two reports issued in 2014 and 2015 for the Army 
and the Air Force and one Marine Corps location. We did conduct 
focus groups. The focus groups are nongeneralizable. We do 
analyze the information we get from those groups to see if we 
are looking at themes and we did. For the Army, we administered 
also a questionnaire to six units, RPA units, to gather 
information.
    As for the morale for the Air Force--and again, this was in 
2014--in all 10 of the focus groups that we met with, the 
morale was reported to be low. Another factor that I think 
enters is about in 4 of 10 of those focus groups, members 
reported that they believed the stigma was attached to being an 
RPA pilot in a negative way, and that some, including some 
commanders, even thought that perhaps the Air Force had missed 
their recruiting goals in 2011 and 2012 because of the stigma 
associated. You know, those are perceptions. GAO likes data.
    We did look at promotion rates, and we found that in 20 of 
24 promotion boards over a certain period of time, RPA pilots 
were promoted at a much lower rate than the line of the Air 
Force. We also found that for 9 of those 24 boards, that RPA 
career field fell at the bottom as well.
    As far as other comments about training or sense of worth, 
we would hear in the focus groups that this was a valuable 
mission. We heard repeatedly, though, with Army focus groups--
there were eight--that they wished they could get the training. 
It seems like with the Air Force, the problem was they wanted 
more training, and they wanted improved training. For the Army, 
they were wanting the training. We heard repeatedly in all the 
focus groups and in five out of six of unit questionnaires that 
were provided back to us that they had difficulty doing the 
training.
    For example, one person noted that over a 3-year period, 
they had only done about half of the required training. He and 
others reported to us that they were pulled for non-training 
activities. Units reported that this happened often because of 
resource constraints, broken equipment. It was a variety of 
reasons that that was reported.
    For the quality of life, as you have heard, the Air Force 
and the Army are structured very differently. There could be a 
huge advantage for the Air Force RPA community being structured 
the way they are, being deployed at station once they can get 
their shortages fixed because currently, as you know, that 
quality of life is impacting. We hear over and over in all the 
focus groups that they would almost rather be deployed for 6 
months overseas than at their home station for 3 years because 
they do not know when the end is going to happen. It is so 
difficult for them to do the mission, and then after the 
mission is over, all those other things that happened when they 
are stationed in the States. Then some of them have families. 
There is a number of issues that need to be addressed.
    But, again, I go back to setting the pilot requirement is 
imperative because it spills over to all these other issues of 
making sure that you have got a enough so that somebody is not 
working 23 hours a day.
    Senator Cotton. You mentioned stigma they felt. You said 
that was a perception. Could you elaborate a little bit on the 
perception as you heard it from members of the community?
    Ms. Farrell. Yes. We heard from about 4 out of 10 focus 
groups that there was a negative perception because with an 
RPA--again, this was the Air Force focus groups--they are not 
actually in the cockpit. That then would be interpreted as of 
less value.
    We heard from both Air Force and Army that there is just 
not enough known about that RPA or UAS community, that there 
needs to be more education going up the chain. We have seen the 
Chief of Staff for the Army, for example, directing reviews to 
understand more about what is going on with UAS training. It 
appears that perhaps you have got some of the senior leadership 
paying attention and the RPA pilots are trying to decide if 
they want to stay. But in between, there needs to be an awful 
lot of education about what this community brings.
    Senator Cotton. That is stigma inside the service primarily 
or in society, or both?
    Ms. Farrell. Both. The stigma specifically inside the Air 
Force in terms of perhaps impacting on their promotions--that 
is the reason we did look at the promotion rates--but also in 
recruiting, that they do not have enough pilots with the 
experience to go be recruiters to also help overcome any stigma 
that might be associated with bringing them into the Air Force.
    Senator Cotton. General Perkins, how many times did you 
serve in Iraq?
    General Perkins. Sir, I have had----
    [Audio disruption.]
    General Perkins. The best offense is generally a good way 
to go about this.
    Senator Cotton. General Carlisle, do you think there are 
many people who are contributing more to the mission of killing 
ISIS [the Islamic State of Iraq and Syria] terrorists than your 
RPA pilots?
    General Carlisle. No, sir. I think the RPAs are at the head 
of that mission. They are doing phenomenal work.
    Senator Cotton. Maybe our society should pay them the 
respect they deserve then and honor their service and not 
attach any stigma to what they do since they are keeping us 
safe in our beds at night.
    Senator Gillibrand, a second round of questions?
    Senator Gillibrand. I have no further questions.
    Senator Cotton. I still have a few more. You are all 
excited to hear that.
    Senator Manchin, any second-round questions?
    Senator Manchin. No.
    Senator Cotton. General Carlisle, a lot of the questions 
here today, obviously, are focused on the use of officers 
versus enlisted personnel to fly remotely piloted aircraft. In 
2014, a GAO report recommended the Air Force consider the use 
of enlisted pilots on MQ-1's/MQ-9's. The Air Force declined 
that recommendation, and it said, quote, it considered 
assigning enlisted personnel as RPA pilots, but it decided that 
the responsibilities of piloting an RPA were commensurate with 
the rank of officer instead. End quote. Yet, just in January, 
the Air Force has seemed to reverse its position by announcing 
that enlisted personnel will begin flying the RQ-4 Global Hawk.
    One, was there new information or a policy change that led 
to this position in January, and two, could we just get your 
bottom line answer on whether you think it will ever be the 
right course of action for the Air Force to use enlisted 
personnel to fly its RPAs?
    General Carlisle. Yes, sir. We did announce that we are 
going to have enlisted pilots fly the RQ-4. It is closer to the 
Army system, reference, point, and click. It is a singular ISR 
mission that they do. We have all the confidence in the world 
that they are going to do a phenomenal job.
    With respect to the MQ-1/9, our challenge, as I mentioned 
earlier, was we did not grow enough training. Whether we put 
officers through that training or enlisted members through that 
training, we did not have a large enough training enterprise.
    The second challenge that we faced as we moved forward in 
the MQ-1/9 world was the rate at which the demand increased. If 
you took a person that was already pilot-qualified, that 
training was shorter and quicker so you could get them into an 
actual RPA mission sooner, which given again the demand, that 
was of value. That is why we did not start back with enlisted 
members in the RPA community.
    We are going to very deliberately implement the RQ-4 
enlisted operators. I will brief the Secretary probably in May. 
I imagine that sometime in late 2016/early 2017, we will have 
enlisted members flying the RQ-4.
    As we learn from that, we will look at the MQ-1/9 
enterprise, and there may be--we may, in fact, do that. We do 
not know the answer to that right now, Mr. Chairman. I do 
believe that the difference between Dave and I that we have 
talked about between the employment, the way the Air Force 
employs the MQ-1/9 in particular in theater-level air power 
across multiple mission sets in a very dynamic environment is a 
different CONOPs [Concept of Operations] or an employment 
concept than an organic RPA to a ground commander in a ground 
unit. But that does not indicate in any way that we are not 
going to continue to look at it, and that may, in fact, be the 
right answer. It will take us a bit of time as we look at that, 
sir.
    Senator Cotton. The answer to the question right now, will 
the Air Force use enlisted personnel to fly the MQ-1/MQ-9, is 
maybe.
    General Carlisle. Yes, sir. We do not know. We are going to 
start with the RQ-4.
    Senator Cotton. You are going to start with the RQ-4 and 
evaluate both the results of that initiative and how you might 
transfer those lessons to the MQ-1, MQ-9.
    General Carlisle. Exactly, sir.
    Senator Cotton. What is a timeline for a yes or no answer 
to the question as opposed to a maybe?
    General Carlisle. Sir, I think as we start the 
implementation and getting the enlisted and operators trained 
on the RQ-4 and then flying the RQ-4, we probably will probably 
not even be able to implement that prior to late 2016/early 
2017. I would guess it would probably be in 18 months from now 
when we would have a significant amount of information and data 
and understanding of how that went before we would relook at 
the MQ-1/9 discussion.
    Senator Cotton. I want to return to an exchange you had 
with Senator Rounds as well, and I apologize if I did not catch 
this. Could I get the bottom line answer for how many pilots 
you need today to meet demand?
    General Carlisle. Sir, we are about 83 percent manned right 
now, and that is of about 1,100 required to do the entire 
enterprise at a 10-to-1 crew-to-combat lines ratio. We need an 
additional probably 300 to get some dwell capability so that we 
have part of the force that is not doing combat and is doing 
continuation training. I think the total number--and I will 
come back with the exact number, but I think the number that we 
are looking at is around 1,400, sir.
    Senator Cotton. You need 1,100 to do the mission. You need 
300 to build up enough dwell time, for a total of 1,400.
    General Carlisle. Yes, sir.
    Senator Cotton. At 1,100 needed for the mission--are you 
saying 83 percent of 1,100?
    General Carlisle. Yes, sir, something in that vicinity as 
we grow.
    Senator Cotton. I am not great at math, but that sounds 
like you have about 900?
    General Carlisle. Yes, sir. That is about right, 900 and 
something.
    Senator Cotton. You have 900 today. You need 1,100 to meet 
mission requirements. You need 1,400 to meet mission 
requirements and provide appropriate dwell time.
    General Carlisle. Yes, sir. Right now, we have 981 for a 
requirement of 1,180.
    Senator Manchin. My only thing just for clarification was 
along those same lines here. Did I understand you earlier 
saying, General Carlisle, that you were 500 fighter pilots 
short?
    General Carlisle. Yes, sir. Five hundred eleven to be 
exact.
    Senator Manchin. Five hundred short.
    General Carlisle. Yes, sir.
    Senator Manchin. The shortness you have right now is 300 
for drones. You have more shortage in fighter pilots than 
drones?
    General Carlisle. We are about 200 short. Nine hundred 
eighty one is what we are assigned, and we are 1,180 is 
authorized. We are about 200 short in the MQ-1/MQ-9 world. We 
are about 500 short across all fighter pilots. That is all 
platforms, F-16's, F-15's, A-10's, F-22's.
    Senator Manchin. I thought it was like a 3-to-1 difference. 
For every one fighter pilot, you were three UAV pilots short.
    General Carlisle. No, sir. If you include the entire 
fighter force, that is a larger----
    Senator Manchin. I understand.
    General Carlisle. It is a pretty large number. You know, 
the fighter community reference the line cockpits, the 
training, the test, and then all the other demands on that 
fighter community for COCOM [combatant command] positions and 
staff positions and things.
    Senator Manchin. General Perkins, are you all short?
    General Perkins. Sir, right now, based on--again, when we 
build a capacity--and we are still building some of our Gray 
Eagle companies--we try to bring both the force structure, as 
we procure the equipment, and the pilots up. With regard to our 
Shadow operators that are with our organic maneuver brigades, 
we are at 100 percent. With our Gray Eagle manning, we are at 
98 percent.
    Senator Manchin. What kind of bonuses are you giving?
    General Perkins. Well, sir, when you sign up to be a 15 
Whiskey, which is our unmanned aerial system operator, that is 
a 6-year enlistment, which is longer than most. You can become 
an infantryman for 3 years. You do have to commit for a longer 
period of time. Then once you complete your 6-year enlistment, 
right now you can reenlist, but again it has got to be for 5 
years after that. Currently that is a $11,000 bonus after you 
have completed 6 years, to reenlist for another 5.
    Senator Manchin. Can you help the Air Force with some of 
your excess 100 percent and get them up?
    General Perkins. Well, we work very closely with the Air 
Force. They help us out in the field all the time.
    Senator Cotton. I want to actually touch on something 
related here about training times. General Perkins, you are 
going to graduate a bunch of new privates from basic training 
on Friday. Correct? All around America.
    General Perkins. Correct.
    Senator Cotton. Then they will go on to what is called 
advanced individual training.
    General Perkins. Yes, sir.
    Senator Cotton. Some of them will complete in their same 
station what they call one-station unit training.
    General Perkins. Right.
    Senator Cotton. Those proud new privates, when they get out 
of basic training on Friday, if they are going on to 15 Whiskey 
training to be one of your operators, how long is their 
advanced individual training?
    General Perkins. Sir, they will leave, say, Fort Jackson or 
Fort Sill where they do their basic training. They will go out 
to Fort Huachuca where we do all of our 15 Whiskey training. 
They all get--now, this is post basic training, which is 10 
weeks. They get 8 weeks of what I refer to as ground week. They 
got to take the FAA written exam, et cetera. If they are then 
going to be our Shadow operator, which is sort of our mid-level 
with our organic brigades, that is 10 additional weeks. Then if 
they are going to be a Gray Eagle operator, which includes an 
instrumentation requirement, that is 25 weeks. If they are 
going to be the Shadow operator, that is going to be 18 weeks 
of AIT [Advanced Individual Training]. If they are going to be 
a Gray Eagle operator, that will be 33 weeks of AIT.
    Senator Cotton. I have a few comparative numbers here in 
front of me. Your repairmen take 17 weeks of AIT?
    General Perkins. Correct. Generally our longest--and there 
are different kinds of repairmen, but if you look across the 
Army, it averages about 12 weeks between the lowest and the 
highest. Generally our military operational specialties that 
have the highest or the longest AIT are our repair people 
because they have got to go through the troubleshooting. They 
have to learn the electronics, mechanics, et cetera. Our 
Patriot repair people, our radar repair people--those tend to 
be our longer AITs because of the requirement to understand the 
technicality of what is going on and being able to 
troubleshoot, et cetera. That is probably a medium number you 
said for our repair people in general.
    Senator Cotton. That is just for the people who are 
repairing the very aircraft that these operators are flying.
    General Perkins. Correct.
    Senator Cotton. Just 1 week less to learn to be a repairman 
for one of those aircraft as opposed to being an operator.
    You are right about the repair AIT times. A basic 
television equipment maintainer takes 24 weeks of AIT. A 
Patriot repairman takes 45 weeks. Not even the Gray Eagle 
operators take that long.
    General Carlisle, when you have new officers, they pin on 
their 2nd lieutenant bars. How long do they undergo training 
before they are prepared to operate the MQ-1 or MQ-9?
    General Carlisle. Sir, first they go through undergraduate 
RPA training, which is held at Randolph, and that usually lasts 
about 6 months. Then from there, if they are going to RQ-4, 
they will go to Beale and get RQ-4 training. If they are 
getting MQ-1/9, they will go to Holloman for that training, and 
that lasts between 4 and 6 months. It is about a year.
    The challenge we have right now is--and one of the things 
we are trying to do is our training pipeline is very 
inefficient. We have to get better at moving those folks 
through. Part of it is class start time dates, the other 
required training they have to do. But we are working hard to 
get efficiency within that.
    The actual full-up training to when we send them to a unit 
and then once they get to the unit, they go through their 
mission qualification training, but usually that is a top-off 
while they are doing combat missions.
    Senator Cotton. I make the comparison and ask the question 
to highlight the challenges the Air Force has, whether you use 
officers or whether you ultimately use enlisted personnel and 
moving people from the schoolhouse to the front lines because I 
think that is going to be a continued bottleneck no matter what 
course you take on who is piloting the aircraft or whatever 
kind of additional bonuses that you are going to provide or 
whatever kind of additional quality of life measures on which 
you can improve.
    Senator Manchin, anything further?
    Senator Manchin. No.
    Senator Cotton. Well, we will conclude. Thank you very much 
for participating in what is a very important hearing. As you 
can see, there is a lot of interest in this topic on the 
committee. I want all of our pilots and our operators to know 
that the members of this committee and the Americans that we 
represent appreciate their service and thank them for keeping 
our country safe.
    This hearing is adjourned.
    [Whereupon, at 4:14 p.m., the hearing was adjourned.]



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, APRIL 5, 2016

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                           ARMY MODERIZATION

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Tom 
Cotton (chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Cotton, Inhofe, 
Wicker, Rounds, Ernst, Sullivan, Manchin, Gillibrand, 
Blumenthal, Donnelly, and Heinrich.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. The Airland Subcommittee convenes today to 
hear testimony about Army modernization to review the defense 
authorization request for fiscal year 2017 and the Future Years 
Defense Program.
    I welcome our witnesses, Lieutenant General Mike 
Williamson, principal military assistant for acquisitions; 
Lieutenant General John Murray, deputy chief of staff for Army 
programs; Lieutenant General Joseph Anderson, deputy chief of 
staff for operations, plans, and training; Lieutenant General 
H.R. McMaster, director of the Army Capabilities Integration 
Center.
    Thank you each for your dedicated service to our Nation.
    In many hearings, the full committee has heard about some 
of the most diverse, complex, and dangerous threats to our 
national security since the end of World War II. Russia 
occupies land in three countries and routinely probes NATO 
[Northern Atlantic Treaty Organization] allies, China is 
building and militarizing islands out of the sea, North Korea 
is testing nuclear weapons and missiles, and Iran is running 
wild across the Middle East. But instead of strengthening our 
forces against these threats, we have seen sustained cuts to 
our military's force structure, modernization, and readiness.
    Army Chief of Staff General Mark Milley often states that 
readiness is his number-one priority. It is hard for anyone who 
has led soldiers in combat to disagree, just as the moms and 
dads of more than 186,000 soldiers deployed in over 140 
countries could never disagree. But we cannot afford to 
shortchange modernization. Today's modernization is tomorrow's 
readiness.
    As we explore the Army's modernization strategy today, I am 
particularly interested to explore how the Army is using its 
new acquisition authorities in the creation of a Rapid 
Acquisition office. In its understandable focus on 
technological breakthrough, I wonder if the Army has moved 
quickly enough to adopt proven technology already possessed by 
our allies and adversaries alike. In many cases, the desired 
technology may already exist in the private sector and may be 
within the Army's grasp. I will offer three examples.
    First, active protection systems to protect vehicles from 
close-in threats like rocket-propelled grenades are near 
completion in Israel, fielded in Germany and Russia, but the 
United States is still in the science-and-technology phase.
    Second, the Distributed Common Ground System, or DCGS, 
remains beset by problems. Last year, Lieutenant General 
Williamson testified before this subcommittee that the 
completeness of the DCGS program is what makes it so valuable 
and predicted that as we go into the May time frame where we go 
through our next set of evaluations, I think you will see a 
completely different perception of how that tool is provided.
    Unfortunately, a year later a report by the Director, 
Operational Test and Evaluation indicates that DCGS is not a 
functional mission command or intelligence analysis tool, and 
that even under laboratory conditions, soldiers and commanders 
``did not consider DCGS to be very helpful for the fight'' and 
sought PowerPoint and pencil-and-paper workarounds even when 
commercial, off-the-shelf solutions are potentially available.
    Third, the global response force typically housed in the 
82nd Airborne needs an enhanced tactical mobility program. In 
plain English, they need four-wheelers and other all-terrain 
vehicles to get from the drop zone to the front lines. This 
requirement was demonstrated in 2012 and approved in 2014. Here 
we are in 2016 when any farmer or deer hunter in Arkansas could 
have gone and bought one at a local dealer.
    In addition, some issues sit at the intersection of 
modernization and readiness. I am concerned, for example, about 
the maintenance and modernization of theater activity sets and 
the Army's pre-positioned stocks to be used by rotating units 
or to support contingencies.
    Likewise, the subcommittee is curious about the Army's 
plans to implement the Associated Unit pilot program in which 
active Guard and Reserve units will be paired up to train and 
potentially fight together. In both cases, modernization could 
be disjointed and readiness may suffer without a well-
considered plan.
    Finally, I am sure committee members will want to examine 
the recommendations of the National Commission on the Future of 
the Army. The Army has suggested that about 50 of the 63 
Commission recommendations are very easy to implement at no 
cost or some of which the Army has already begun 
implementation. That is good news.
    But, according to Army, another 15 significant 
recommendations will require a detailed analysis and are 
expensive to implement. For instance, the Army's fiscal year 
2017 unfinanced requirements list includes nearly $1.2 billion 
in funding to implement recommendations on aviation 
modernization, retain an 11th Combat Aviation Brigade, and 
retain four National Guard AH [Apache Helicopter]-64 attack 
battalions. That is not such good news.
    Again, I thank our witnesses for their service and for 
their appearance today. I look forward to the discussion.
    Senator Manchin?

                STATEMENT OF SENATOR JOE MANCHIN

    Senator Manchin. Thank you, Mr. Chairman, and thank all of 
you for your service and for helping us navigate this 
difficult, challenging time.
    I want to thank the chairman for holding this important 
hearing on Army modernization. I would also like to welcome 
your witnesses to today's hearing and thank them for their 
testimony and their service to our country.
    The U.S. military remains the most ready and capable 
fighting force in the world. However, after nearly 15 years of 
constant military operations, it is important that we take a 
step back and assess the current state of our military force 
and the threats that we face at home and abroad.
    While the focus of today's hearing is on the Army's 
strategy for modernization, I think it is also imperative that 
we acknowledge the other challenges facing the Army, including 
the importance of rebuilding readiness in the regular Army, the 
Army National Guard, and the Army Reserve.
    The Army has made rebuilding readiness their number-one 
priority in fiscal year budget 2017 request. The high 
operational tempo for the past decade-and-a-half has consumed 
readiness levels as quickly as they could be reconstituted. The 
demands on our military force will not diminish any time in the 
near future.
    Coupled with the devastating impact sequestration has had 
on readiness accounts, I commend the Army for prioritizing 
readiness in this year's budget and ensuring that our military 
are trained and ready to respond to any contingency at a 
moment's notice. As the committee begins their consideration of 
fiscal year 2017 National Defense Authorization Act, it is 
important that we protect these investments in the readiness 
accounts from any misguided cuts.
    While the readiness of the force is vitally important, we 
cannot shortchange our investments in modernization. However, 
in order to meet the top-line funding levels set by the 2015 
bipartisan budget agreement, the Army had to reduce funding for 
some procurement and modernization efforts. As General Daniel 
Allyn, vice chief of staff of the Army, testified last month 
before the Senate Armed Services Subcommittee on Readiness, 
this year's budget request is insufficient to simultaneously 
rebuild decisive action readiness and modernize. To ensure 
sufficient readiness for the demands of today's operating 
environment, the Army must assume risk by reducing end 
strength, delaying modernization, and deferring infrastructure 
recapitalization and investment.
    The Army's fiscal year 2017 budget request included $22.6 
billion for the Army's modernization efforts. Of this amount, 
$15.1 billion was requested for procurement and $7.5 billion 
for research, development, test, and evaluation activities. 
However, the total funding for procurement in fiscal year 2017 
request is $1.3 billion less than enacted the amount in fiscal 
year 2016.
    In particular, the Army's aviation portfolio was hard-hit 
by these reductions. The aviation portfolio accounts for 
approximately 25 percent of the Army's entire procurement 
budget, and the fiscal year 2017 budget request reduced 
procurement quantities for the AH-64 Apache, the UH-60 Black 
Hawk, and the CH-47 Chinooks. I would like to know if our 
witnesses feel confident that the reduction in these 
procurement accounts will not adversely impact these programs 
by adding substantial cost to the overall program or have an 
unintended consequence of reducing the readiness of our 
aviation units.
    At the same time, the Army has had a poor track record with 
their modernization efforts. Many programs have been truncated 
or canceled, usually after billions of dollars had already been 
invested. Last year, this committee gave new acquisition 
authority to the service chiefs with the intent that this would 
improve the acquisition process. I look forward to hearing from 
our witnesses on their thoughts on this new authority and what 
further actions the Army needs to take to improve its 
acquisition processes.
    Earlier this year, the National Commission on the Future of 
the Army released their comprehensive study on the roles and 
structure of the Army. I was pleased with the Commission's 
report and believe it was thorough and thoughtful.
    With regards to the Army's Aviation Restructure Initiative, 
the Commission recommended that the active component retain 20 
battalions of Apache helicopters, each equipped with 24 
aircraft, while providing the Army National Guard with four 
battalions of Apache helicopters, each equipped with 18 
aircraft.
    While the Commission struck a balanced compromise, the fact 
remains that in order to execute the Commission's 
recommendations for ARI [Aviation Restructuring Initiative], it 
will require substantial funding. According to the Army's 
unfunded requirements list, the Army would need approximately 
$1.2 billion in additional funding to implement the 
Commission's recommendation of fiscal year 2017, as well as 
additional funding above that amount over the next several 
years. While it is my understanding that General Milley is 
still reviewing the Commission's proposal, I would welcome any 
comments from our witnesses on this issue.
    Finally, we must ensure our men and women in uniform remain 
the best trained, the best-equipped fighting force in the 
world. In light of the Budget Control Act and the Army's 
constrained top-line funding levels, it becomes even more 
imperative that every dollar we spend on the military is spent 
efficiently and effectively so that our soldiers can complete 
their mission, win our nation's wars, and return home safely.
    Again, thank you, Mr. Chairman, for holding this hearing, 
and I look forward to hearing from our witnesses.
    Senator Cotton. Thank you, Senator Manchin.
    We will turn to our witness now, General Williamson.

  STATEMENT OF LIEUTENANT GENERAL MICHAEL E. WILLIAMSON, USA 
MILITARY DEPUTY AND DIRECTOR, ARMY ACQUISITION CORPS, OFFICE OF 
THE ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS, 
                         AND TECHNOLOGY

    General Williamson. Chairman Cotton, Ranking Member 
Manchin, and distinguished members of the subcommittee on 
Airland. Thank you for the invitation to discuss the fiscal 
year 2017 budget request and Army equipment modernization. I 
respectfully request that our written statement be made part of 
today's record.
    Senator Cotton. Without objection.
    General Williamson. Mr. Chairman, today's Army prioritizes 
readiness while continuing to assume risk and modernization. 
Due to resource constraints, we simply cannot modernize the 
entire force with the most modern equipment. Therefore, we must 
do so selectively. Our resources are focused on protecting 
science and technology so the next generation of breakthrough 
technologies can be rapidly applied and exploited with our 
existing and our new systems.
    We are also investing in targeted new systems to fill 
critical operation requirements and capability shortfalls. 
These systems include the armored multi-purpose vehicle, the 
joint light tactical vehicle, and fixed-wing aviation. We are 
incrementally modifying and modernizing existing systems to 
increase capabilities and to extend service life. These systems 
include the Paladin, the Black Hawk, the Apache and Chinook 
helicopters, as well as our unmanned aviation.
    We also have a requirement to reset and sustain and return 
our existing Army equipment to the required level of combat 
capability so that we will be prepared to fight in any 
immediate contingencies.
    Then finally, we are divesting excess equipment across the 
entire Army to reduce and eliminate sustainment costs. Systems 
currently being divested include the M113 armored personnel 
carrier, the TH-67 training helicopters, as well as the Kiowa, 
the Kiowa Warrior, and the UH-60 Alpha Black Hawk fleets.
    Equipping is and will always remain a critical component of 
readiness. We cannot put our soldiers at risk by not providing 
them with the right equipment at the right time and at the 
right place to accomplish their assigned missions.
    Mr. Chairman, with your permission I would like to address 
just two other areas. First, reduction in the Army's 
modernization account continues to present significant 
challenges for the defense industrial base, including our own 
organic industrial base. In developing our equipment 
modernization strategy, we carefully assessed risk across all 
portfolios to protect ongoing production and to sustain the 
industrial base and to include the preservation of key 
workforce skills.
    Secondly, I want to take this opportunity to express my 
appreciation to the members of the subcommittee for your 
continued efforts to strengthen and enhance the acquisition 
workforce. Our acquisition professionals are experienced, well-
educated, and well-trained. They are critical assets in the 
Army's ability to design, develop, and deliver needed 
capability to our soldiers.
    Mr. Chairman and distinguished members of the subcommittee, 
thank you for your steadfast and strong support of the 
outstanding men and women of the United States Army, our Army 
civilians, and their families. This concludes my opening 
remarks.
    [The joint prepared statement of General Williamson, 
General Anderson, Lieutenant General McMaster, and Lieutenant 
General Murry follows:]

 Joint Prepared Statement by Lieutenant General Michael E. Williamson, 
  Lieutenant General Herbert R. McMaster, Jr., and Lieutenant General 
                             John M. Murray
                              introduction
    Chairman Cotton, Ranking Member Manchin, distinguished Members of 
the Subcommittee on Airland, thank you for the opportunity to appear 
before you today. On behalf of our Acting Secretary, the Honorable 
Patrick Murphy, and our Chief of Staff, General Mark Milley, we look 
forward to discussing the Army's fiscal year 2017 (FY17) budget request 
as it pertains to Army strategy, equipment modernization, and 
readiness.
    We present our testimony today with a sense of urgency. With 
today's fiscal constraints, we risk becoming not only a smaller, but 
also a less-capable force. Budget unpredictability and reductions over 
the last several years has hampered modernization and threatens our 
ability to overmatch future enemies in ground combat. Investments today 
are critical because it is more cost effective to maintain and improve 
existing capabilities than regenerate lost capabilities rapidly in 
times of crisis. As the National Commission on the Future of the Army 
observed, reductions in Army modernization are elevating risk to Joint 
Force capability and national security. Our testimony aims to provide 
Congress and the American public with a greater understanding of the 
global security environment, the growing capabilities of our enemies 
and adversaries, and the capabilities and capacity the Army requires to 
protect our citizens and secure our vital national interests.
               the need for ready, modernized land forces
    Since World War II, the prosperity and security of the United 
States have depended, in large measure, on the synergistic effects of 
capable land, air, and maritime forces. U.S. defense strategy requires 
ready Army forces capable of operating as part of joint teams in 
sufficient scale and for ample duration to prevent conflict, shape 
security environments, and create multiple options for responding to 
and resolving crises. As the nation's principal land force, the Army 
organizes, trains, and equips forces for prompt and sustained combat. 
Army forces are necessary to defeat enemy organizations, control 
terrain, secure populations, consolidate gains, and preserve joint 
force freedom of movement and action. Forward positioned and regionally 
engaged Army forces build partner capability, assure allies, and deter 
adversaries. To protect the homeland, foster security abroad, and win 
wars Army forces must have the capability (ability to achieve a desired 
effect under specified standards and conditions) and capacity 
(capability with sufficient scale and endurance) to accomplish assigned 
missions as part of the Joint Force while confronting increasingly 
dangerous threats.
    We live in an ever-changing, increasingly dangerous world. Since 
decisions about the Army's size and reductions in Research, 
Development, and Acquisition (RDA) investments were made in 2014, the 
Islamic State of Iraq and the Levant (ISIL) captured large parts of 
Iraq and Syria and expanded into Libya and other locations; the Syrian 
Civil War escalated causing a refugee crisis in the Middle East and 
Europe; Russia occupied Crimea, invaded Ukraine, and intervened 
alongside the Iranian Revolutionary Guard Corps to maintain the Assad 
regime in Syria; North Korea became increasingly bellicose and tested 
nuclear weapons and ballistic missiles; China continues its 
unprecedented construction at reclaimed features in the South China 
Sea; and the Taliban continued to intensify offensive operations in 
Afghanistan. ISIL continued to conduct attacks from Tunisia, to Egypt, 
Lebanon, Iraq, Turkey, France and Belgium. To respond to these threats 
Army forces have maintained a Brigade Combat Team (BCT) in Kuwait, 
returned advisors and Special Operations Forces to Iraq, initiated BCT 
rotations in Europe, increased exercises with partners and Allies in 
the Pacific, and maintained force levels in Afghanistan. Once soldiers 
are committed to these critical missions, it is difficult to disengage 
them. Due to reductions in the size of the Army and increasing 
commitments overseas, the pool of ready Army forces prepared to deploy 
rapidly and transition quickly into Joint operations is significantly 
challenged even as threats to national and international security are 
increasing.
                          emerging challenges
    Threats, enemies, adversaries and geo-strategic competitors are 
becoming increasingly capable and elusive, which pose challenges to 
United States national security interests. Russia, North Korea, Iran 
and Violent Extremist Organizations (VEOs), such as ISIL, pose 
potential threats to United States national security interests. At the 
same time, the modernization of China's military forces poses a 
different type of challenge. Combined, those challenges represent a 
broad range of operations for which the Army must be prepared, from 
state to non-state to hybrid conflict. Analysis of threat capabilities 
reveals that the Army must modernize the force to be prepared to fight 
and win against increasingly capable adversaries.
    In terms of state-based challenges, Russia's purported annexation 
of Crimea and invasion of Ukraine demonstrated a sophisticated 
combination of diplomatic, informational, military, and economic means 
to achieve objectives below a threshold that the Russian leadership 
believe would elicit a concerted NATO response. In addition, through an 
intensive modernization effort, Moscow is developing a significant 
capability in several specific military areas. In Ukraine for example, 
the combination of Unmanned Aerial Systems (UAS) and Offensive Cyber 
and advanced Electronic Warfare (EW) capabilities depict a high degree 
of technological sophistication that is a direct result of their 
modernization efforts. Robust anti-access and area denial capabilities, 
which include advanced air defenses and mobile gun-missile systems that 
range out to 400 kilometers, allow Russia to challenge air superiority 
from the ground. In addition, Russia possesses a variety of rocket, 
missile, and cannon artillery systems that outrange and are more lethal 
than United States Army artillery systems and munitions. Advanced close 
combat systems including new combat vehicles, active protective 
systems, and improved Anti-tank Guided Missiles (ATGMs) highlight 
improvements in the mobility, protection, and lethality of Russian 
heavy forces. It is clear that while our Army was engaged in 
Afghanistan and Iraq Russia studied United States capabilities and 
vulnerabilities and embarked on an ambitious and largely successful 
modernization effort.
    China is modernizing its Army and is developing capabilities to 
project power within the air, maritime, space, and cyberspace domains. 
China's actions in the South China Sea lead to questions about its 
intention and commitment to uphold a rules based international system. 
Its efforts in space reveal China's determination to achieve space 
parity and possible superiority. China maintains its own constellation 
of satellites and recently demonstrated anti-satellite capabilities by 
shooting down one of its low earth orbit systems. China is also 
developing offensive cyber capabilities and an ability to jam the 
electromagnetic spectrum through EW capabilities that impacts United 
States communications and Precision, Navigation, and Timing (PNT), 
which severely limits what was once a significant differential 
advantage for U.S. forces. Additionally, China is actively fielding a 
fully mechanized force and has instituted realistic training to 
increase the readiness of its combat brigade formations. Current trends 
in Chinese weapons production will enable the Chinese to conduct a 
range of military operations well beyond its borders.
    Despite increasingly constrained financial resources, the 
Democratic People's Republic of Korea (DPRK) continues to prioritize 
expansion of its nuclear and ballistic missile programs. The DPRK also 
maintains an aging but large and capable conventional force that has 
the ability to mass long-range fires on targets throughout the region, 
including Seoul. In addition, the DPRK military possesses cyber and 
chemical-biological warfare capabilities. As the DPRK continues to 
threaten attacks on the United States and our allies, and as the DPRK 
leadership faces mounting economic and political pressures, the United 
States must maintain its deterrent force on the peninsula and be 
prepared to deploy substantial ground, air, and maritime forces as part 
of a coalition alongside Republic of Korea (South Korea) forces in 
defense of South Korea and the region.
    Iran employs proxies, exploits disenfranchised populations, and 
deploys covert operators to exacerbate sectarian conflicts, counter 
U.S. influence, and undermine United States interests in the greater 
Middle East. Iran's involvement in the Syrian, Iraqi, and Yemeni 
conflicts deepened over the past year. With the signing of the Russian-
Iranian Military Cooperation Agreement last year, and the lifting of 
economic sanctions, it is likely that Iran will accelerate military 
modernization. Iran's current modernization efforts include purchases 
of long-range surface to air missiles from Russia, an extensive fleet 
of unmanned aerial vehicles, cyber capabilities, ballistic missiles, 
and anti-tank guided missiles.
    Threats to national security are also increasing from non-state 
actors. The emergence of ISIL is one example of how non-state actors 
capitalize on opportunities created by communal conflict and weak 
governance. ISIL's military organization; ideological base; use of mass 
murder and other forms of brutality; and its ability to mobilize 
people, money, and weapons have enabled it to seize territory and 
establish control of populations and resources. ISIL has demonstrated 
particular skill in employing social media to prosecute a propaganda 
campaign that complements terrorist and conventional military 
operations. ISIL's success, combined with the political and economic 
weaknesses of many Middle Eastern states has caused violent Islamist 
extremism to metastasize across much of the Middle East and Africa 
which has led to the greatest mass migration since the end of World War 
II. ISIL inspired, planned, and resourced attacks from Iraq to Lebanon, 
Turkey, Paris, Brussels, and even the homeland indicate that terrorist 
organizations that control territory, populations, and resources cannot 
be contained.
    As demonstrated in these examples, future armed conflict will be 
complex, in part, because state, non-state, and hybrid threats are 
increasingly capable and are narrowing U.S. competitive advantages not 
only on land, but also in the air, maritime, space, and cyberspace 
domains. Because these threats may originate in urban areas or remote 
safe havens, long-range strikes will prove insufficient to defeat them. 
The complexity of future armed conflict requires an Army capable of 
conducting missions at home and in foreign lands. To maintain overmatch 
against elusive and increasingly capable enemies, our Army must 
maintain readiness for today and invest in modernization to ensure 
readiness for tomorrow.
                     resourcing army modernization
    Due to resource constraints, today's Army prioritizes readiness 
while continuing to assume risk to modernization. We simply cannot 
modernize the entire force with the most modern equipment. Since fiscal 
year 2012 the Research, Development and Acquisition (RDA) accounts have 
declined by over 30 percent. Given the restrictions on modernization 
funding, technological plateaus and the uncertainty of world events, 
the Army must be selective in resourcing its programs. In fiscal year 
2017, the President's Budget request totals $22.6 billion for the 
Army's RDA program, which includes $15.1 billion for Procurement and 
$7.5 billion for Research, Development, Test and Evaluation (RDT&E). We 
are `adapting today and investing tomorrow'. We are focused on suitable 
new uses or purposes for equipment in the near term; making modest 
investments and delaying new capabilities in the mid-term and 
protecting Science and Technology for the future. Specifically, our RDA 
resources are focused on:
    1.  Science and Technology (S&T). Protected S&T funding ensures the 
next generation of breakthrough technologies can be rapidly applied to 
existing or new equipment designs. We are implementing a strategic 
approach to modernization that includes an awareness of existing and 
potential gaps; an understanding of emerging threats; knowledge of 
state-of-the-art commercial, academic, and Government research; and an 
understanding of competing needs for limited resources.
    2.  New Systems. The Army is making modest developmental 
investments based on critical operational requirements and capability 
shortfalls. Fiscal realities have led to the delay or discontinuance of 
new systems. Key investments that remain in the next generation of 
ground vehicle capabilities include the Armored Multi-Purpose Vehicle 
and the Joint Light Tactical Vehicle, a critical program for the Army 
and the U.S. Marine Corps. Also in this area, the Fixed-Wing Utility 
Aircraft (FUA), a replacement for the C-12 and C-26 platforms, is 
projected to be selected and begin fielding in fiscal year 2018.
    3.  Modification/Modernization. The Army must incrementally modify 
or modernize existing systems in order to increase capabilities and 
extend service life. In addition, the continuous improvement of 
existing systems helps to sustain the industrial base. In this area, we 
are focused on improving the Abrams, Bradley, and Stryker Families of 
Vehicles, as well as Paladin, Improved Turbine Engine Program, and the 
Guided Multiple Launch Rocket System Unitary. We are also improving the 
Apache, Black Hawk, and Chinook helicopter fleets, as well as our 
Unmanned Aircraft Systems.
    4.  Reset and Sustain. Returning Army equipment to the required 
level of combat capability remains central to both regenerating and 
maintaining equipment near-term readiness for contingencies.
    5.  Divest. The Army divestment process seeks to identify equipment 
and systems that are excess across the Total Army in order to reduce 
and eliminate associated sustainment costs. For example, we are 
divesting the aging M113 armored personnel carriers. Additionally, the 
Army's Mine Resistant Ambush Protected (MRAP) vehicles divestiture will 
eliminate a large portion of the fleet through Foreign Military Sales, 
distribution to other agencies, and demilitarization of older, battle-
worn, excess vehicles. The Army also continues to divest its aging TH-
67 training helicopters, as well as the OH-58A/C Kiowa, OH-58D Kiowa 
Warrior, and UH-60A Black Hawk fleets.
                   fiscal year 2017 budget priorities
    Over the last 15 years of combat operations, the United States Army 
had to focus on winning against specific threats in Afghanistan and 
Iraq that limited the Army's ability to modernize for future fights. 
There are currently no ground combat vehicle developmental programs 
which means, at current funding levels, the Bradley and Abrams will be 
in the Army inventory for 50-70 years. Meanwhile, threats, enemies and 
adversaries have been modernizing rapidly. Due to increasing enemy 
capability and reduction in Army resources available for modernization, 
risk is increasing to soldiers and missions.
    The President's budget request for fiscal year 2017 prioritizes the 
following five capability areas:
    Aviation. The Army continues to invest, at a slower pace, in 
Aviation to sustain fleet modernization and close key capability gaps 
in survivability and lethality. Specific investments in this portfolio 
include the following:

    <bullet>  The Army will pursue a Multi-Year Contract (MYC) in 
fiscal year 2017 for the AH-64 Apache in order to achieve cost 
avoidance and efficiencies, while completing the AH-64E Apache 
Remanufacture Program. This program is designed to renew the current 
Apache fleet by incorporating current technologies and a new airframe 
to extend the aircraft's useful life and make it one of the most 
technologically advanced weapon systems on the battlefield. With regard 
to Manned/Unmanned Teaming (MUMT), the AH-64E Apache program has 
successfully developed the capability to view video from all U.S. Army 
Unmanned Aircraft Systems (UAS) and link with and fully control the 
Gray Eagle UAS. In fiscal year 2017, development continues on the next 
step of control with MUMT-X, which will give the AH-64E Apache the 
capability to control all other UASs in the Army fleet.
    <bullet>  The UH-60 Black Hawk continues to be the Army's workhorse 
and, at 2,135 total airframes, is our largest fleet of rotary wing 
aircraft. Fleet modernization efforts focus on the continued 
procurement of the UH-60M aircraft, recapitalization of UH-60A into UH-
60L aircraft, the development of the UH-60V aircraft with a digital 
cockpit, and divestment of legacy aircraft. In fiscal year 2017, the 
Army will enter into the ninth MYC to be awarded through fiscal year 
2021.
    <bullet>  The Improved Turbine Engine Program is designed to 
provide significant horsepower and fuel savings to enable current AH-64 
Apache and UH-60 Black Hawk fleets to meet worldwide operational 
requirements for high altitude and hot conditions. The program 
continues in fiscal year 2017 with two vendors undergoing Preliminary 
Design Review, which will lead to a down select in fiscal year 2018 to 
a single vendor for engine development.
    <bullet>  The CH-47 Chinook, the Army's only heavy lift helicopter, 
is projected to remain in service through 2060, making it the Army's 
first, and only, aircraft in service for more than a century. The 
planned H-47 Block II upgrade to the H-47F/G will restore operational 
payload capability, efficiently incorporate engineering changes, and 
increase commonality between SOCOM and the conventional Army.
    <bullet>  The Army has an Unmanned Aircraft Systems (UAS) fleet 
comprised of small (Raven and Puma), medium (Shadow), and large (Gray 
Eagle) components. All systems are existing programs of record and are 
under active acquisition programs to meet fleet size objectives over 
the next five years. Gray Eagle is a dedicated, assured, multi-mission 
UAS being fielded to all 10 Army divisions to support combat 
operations, as well as the National Training Center. Additionally, the 
Improved Gray Eagle, which achieves significant increases in payload, 
range, and station time through fuselage and engine enhancements, is 
fielded to Special Operations Forces and Intelligence organizations in 
support of global Department of Defense Intelligence, Surveillance, and 
Reconnaissance (ISR) requirements. Shadow is a dedicated 
Reconnaissance, Surveillance, and Target Acquisition UAS fielded to 
Army and Army National Guard BCTs, Special Forces Groups, the Ranger 
Regiment, and performs Manned-Unmanned Teaming with Apache in Combat 
Aviation Brigades to meet the Armed Aerial Scout requirements in lieu 
of the divested OH-58D Kiowa Warrior. Shadow Platoons are currently 
undergoing a major block upgrade that provides enhanced encryption, 
increased endurance, improved optics, and a high bandwidth, digital 
data link capable of support secure transmission of multiple payloads.
    <bullet>  Fiscal year 2017 funds for the Army's fixed wing fleet 
include procurement of the FUA, which will begin replacing the current 
C-12 platforms and later the C-26 platforms.
    <bullet>  The Joint Air-to-Ground Missile (JAGM) is an Army-led 
Acquisition Category 1D program with Joint interest from the U.S. Navy 
and U.S. Marine Corps. JAGM is the next generation of aviation launched 
missiles to replace the laser Hellfire II and the Longbow radar 
missiles. Fiscal year 2017 funds the first JAGM Low Rate Initial 
Production lot.
    Network. The Army must maintain a robust Network that is protected 
against cyber-attacks to execute uninterrupted mission command. Key 
investments supporting the Network include the following:
    <bullet>  Warfighter Information Network-Tactical (WIN-T) provides 
``networking-on-the-move'' capability. WIN-T also provides soldiers and 
leaders a mobile infrastructure that employs military and commercial 
satellite connectivity, and high capacity line-of-sight (terrestrial) 
connectivity. It extends the tactical wide area network throughout 
division, brigade, battalion, and company levels in the maneuver force. 
The WIN-T Increment 2 program is in Full Rate Production and fielding 
following a successful operational test and performing well in 
operations in theater.
    <bullet>  Assured Position, Navigation and Timing (A-PNT) is a 
critical enabler for Army warfighting functions and virtually all Army 
weapon systems. Program Manager Positioning, Navigation and Timing (PM 
PNT) and Army S&T are developing technologies to provide dismounted and 
mounted soldiers the capability to attain trusted PNT information while 
operating in conditions that impede or deny access to the Global 
Positioning System (GPS). These technologies include non-GPS 
augmentation for distributed Mounted and Dismounted PNT capabilities, 
pseudolite transceivers (an alternative source of GPS-like signals), 
and anti-jam capabilities. Both the Mounted and Dismounted efforts are 
structured to provide a hub capability that distributes an A-PNT 
solution to vehicles and soldier systems. In fiscal year 2017, Army S&T 
will transition A-PNT technologies for Mounted and Dismounted 
application to PM PNT with the Program of Record Milestone B scheduled 
in mid-fiscal year 2018.
    <bullet>  Communications Security supports the implementation of 
the National Security Agency (NSA) developed Communications Security 
(COMSEC) technologies into the Army by providing COMSEC systems 
capabilities through development and integration of encryption, trusted 
software, and/or standard operating procedures into specified systems 
in support of securing Army and Department of Defense Networks and 
capabilities.
    <bullet>  Offensive Cyber Operations (OCO) and Defensive Cyber 
Operations (DCO) allow the Army to protect its networks and project 
force in cyberspace. The Army has positioned itself with U.S. Army 
Cyber Command (ARCYBER) and the Cyber Center of Excellence to provide 
capabilities in both mission areas and will continue to do so. In the 
area of DCO, the Army will continue to invest in infrastructure and 
tools to set conditions for increased defensive capabilities. We are in 
the initial stages for fielding capability and fiscal year 2017 will be 
critical in further development.
    <bullet>  Cyber Situational Awareness is integral to OCO, DCO, and 
Department of Defense Information Network operations that support 
commanders in the conduct of unified land operations. These 
capabilities range from system status to mission and threat awareness 
to targeting and engagement data to influence cyber and electromagnetic 
effects. We are currently working with the Cyber Center of Excellence 
and ARCYBER to address these requirements.

    Integrated Air Missile Defense (IAMD). The Army must be able to 
defeat a large portfolio of threats ranging from micro Unmanned 
Aircraft Vehicles and mortars, to cruise missiles and sophisticated 
short and medium range ballistic missiles. The Army will support this 
priority by investing in an Integrated Air and Missile Defense Battle 
Command System, an Indirect Fire Protection Capability, and 
modernization of the Patriot system.
    Within this demanding mission area, the number one Air and Missile 
Defense (AMD) modernization priority remains the IAMD Battle Command 
System (IBCS). IBCS will replace elements of seven existing mission 
command programs, and allow transformation to a network-centric system-
of-systems capability that integrates AMD sensors and weapons. A second 
critical priority is to significantly improve capabilities in 
Countering Unmanned Aircraft Systems (CUAS) and Cruise Missile Defense 
(CMD), while continuing to pace the Ballistic Missile Defense (BMD) 
threat and maintaining capability to Counter Rockets, Artillery and 
Mortars (C-RAM). The portfolio will accomplish this by leveraging the 
Indirect Fire Protection Capability Increment II Program and a Multi-
Mission Launcher (MML) to address select CUAS, CMD, and C-RAM threats 
and replace Avenger/Stinger across the force. The Army is continuing 
investments to improve Patriot radar capabilities and field the PAC-3 
Missile Segment Enhancement (MSE).
    Combat Vehicles. The Army is pursuing a Combat Vehicle 
Modernization Strategy to ensure Army BCTs possess the lethality, 
mobility, and protection to achieve overmatch during joint 
expeditionary maneuver and joint combined arms operations:

    <bullet>  Ground Mobility Vehicle (GMV) will be procured as a 
Commercial/Government Off-the-Shelf (C/GOTS) solution to address a 
significant mobility gap in the Infantry Brigade Combat Teams (IBCT). 
The Army's current analysis of alternatives for GMV is expected to be 
complete in mid-fiscal year 2016 and inform the acquisition of a 
commercial, non-developmental solution beginning in fiscal year 2017.
    <bullet>  Stryker Lethality Upgrades address capability gaps 
resulting from more than 12 years of combat through an incremental 
Engineering Change Proposal (ECP) strategy currently focused on 
increasing mobility, electrical power, and the need to accept future 
network upgrades. Efforts also include upgrades to increase the 
lethality of the Stryker Family of Vehicles and Double V-Hull upgrades 
to increase vehicle protection. The Army plans to increase lethality by 
having half of the Infantry Carrier Vehicles equipped with a 30 mm 
cannon and the other half equipped with a Javelin missile on the 
existing Remote Weapons Station in each brigade. The Army plans to 
increase protection by upgrading Stryker vehicles to a Double-V Hull 
(DVH) architecture for four of the nine BCTs. DVH production utilizes 
an exchange process, removing select components and mission equipment 
packages from flat bottom Strykers and installing them into a new DVH.
    <bullet>  Mobile Protected Firepower will provide protected, long-
range, direct fire capabilities to the IBCT to defeat enemy prepared 
positions, destroy enemy armored vehicles, close with the enemy through 
fire and maneuver, and ensure freedom of maneuver and action in close 
contact with the enemy. The Army plans to conduct the Mobile Protected 
Firepower Analysis of Alternative in fiscal year 2017 to assess the 
operational effectiveness, suitability and life-cycle cost of both 
developmental and non-development materiel solutions that satisfy 
requirements contained within the Initial Capabilities Document.
    <bullet>  Armored Multi-Purpose Vehicle will replace the legacy 
M113s at the brigade level and below to support the Armored BCT and 
will consist of five mission roles: General Purpose, Mortar Carrier, 
Mission Command, Medical Evacuation, and Medical Treatment variants. 
The Engineering and Manufacturing Development contract was awarded in 
December 2014, and we anticipate the first prototype delivery vehicle 
in December 2016.

    Emerging Threats. As mentioned earlier, the Army invests in S&T to 
focus on critical capability gaps and allow our soldiers to operate in 
contested environments and win decisively against any potential 
adversary in the mid to far timeframe. These S&T investments will 
deliver capabilities to address critical gaps in combat vehicles, 
Future Vertical Lift (FVL), expeditionary mission command, cross-domain 
fires, cyber electromagnetic activities, robotics and autonomous 
systems, advanced protection and soldier and team performance and 
overmatch. For example, the Modular Active Protection System and 
advanced protection systems program will increase vehicle and aircraft 
survivability and protection against current and emerging advanced 
threats; Electronic Warfare efforts will focus on designing 
countermeasures to address threats against Army rotorcraft, ground 
mounted platforms and dismounted soldiers; and the Combat Vehicle 
Prototyping program will demonstrate advanced capabilities for the 
combat vehicle fleet, reducing technical risk for future programs, 
including the Future Fighting Vehicle. Other areas to help ensure that 
our soldiers are protected against emerging threats include Degraded 
Visual Environment mitigation to inform leadership on improvements to 
platform survivability; Red Teaming and Vulnerability Analysis to know 
our weaknesses and fix them; a directed energy component for Counter 
Unmanned Aerial Systems (CUAS), Counter Rocket Artillery and Mortar 
(CRAM), and Cruise Missile Defense (CMD); cyber situational awareness 
and offensive and defensive cyber operations to collect, develop 
understanding and defeat threat advancement in cyber electromagnetic 
capabilities; and sensor protection to ensure more consistent 
situational awareness. Additionally, the JMR-TD will fly demonstration 
aircraft to prove out FVL technology and inform requirements 
development. FVL will conduct an Analysis of Alternatives and begin 
development of the initial variant. A Materiel Development Decision for 
the first FVL variant will occur in fiscal year 2017. Lastly, S&T 
investments in robotics and autonomous systems (RAS) improve Army 
formation capabilities in situational understanding, mobility, 
protection, lethality, and sustainment in ways that cannot be achieved 
elsewhere.
    Other Major Programs for Fiscal Year 2017. The Squad is the 
foundation of the Decisive Force. Closing gaps in capabilities will 
ensure the Army's foundational tactical unit can close with and destroy 
the enemy under all battle conditions and accomplish missions in 
complex environments. The integration of Squad-related initiatives 
across numerous capability portfolios is essential to success. The Army 
is constantly working to reduce the weight and improve the performance 
of the soldier's individual equipment. Currently, we are researching 
improved ways to help redistribute the weight carried by soldiers so 
they can carry their load with less stress on their backs or knees. 
Plans include the development of new rucksacks and other equipment so 
soldiers can more comfortably carry their supplies, ammunition, and 
equipment. Research is also taking place on a new load-bearing system. 
Every effort undergoes extensive user evaluations by soldiers 
throughout the development process. The Army is also working to reduce 
the weight of the clothing and equipment soldiers carry by developing 
lighter body armor, helmets, and other equipment while addressing a 
wide-range of threats to our soldiers, including ballistics, blast 
overpressure, concealment, fragmentation, and heat.
    In addition to the above efforts, the Army's Soldier Protection 
System (SPS) is an integrated personal protection system that 
integrates head, torso, and extremity protection. It maintains current 
standards of personal protection but with lighter weight than current 
systems. It is also scalable, allowing soldiers to increase the level 
of protection or reduce weight depending upon mission requirements. SPS 
consists of five major subcomponents: (1) the Integrated Head 
Protection System is a new helmet concept which allows the soldier to 
add additional protection, such as an additional layer of armor or 
facial protection, depending upon mission requirements; (2) 
Transitional Combat Eye Protection is eyewear that electronically 
either automatically or manually adjusts for darkness or light, which 
is critical when a soldier exits a sunlit street into a darkened 
structure; (3) Torso Protection features a new combat vest with pelvic 
protection that provides modular levels of protection that can be 
scaled up or down depending on mission requirements; (4) Vital Torso 
Protection provides lighter weight hard armor plates; and (5) the 
Integrated Soldier Sensor System will provide sensor technology to 
record forces that affect the soldier, as well as monitor the soldier's 
health status. Other important initiatives include the Lightweight 
Advanced Combat Helmet, which provides the same levels of protection as 
the Advanced Combat Helmet but with less weight and the Enhanced Combat 
Helmet, which provides significantly better head protection without 
additional weight.
    In the area of Aircraft Survivability Equipment, the fiscal year 
2017 budget request will accelerate the Common Infrared Countermeasure 
system and will begin fielding in the near-term. This will be coupled 
with the Advanced Threat Detection System (ATDS) to improve infrared 
threat detection. Essential to protection of aircraft against emerging 
threats, the Army will pursue S&T efforts to develop follow on systems 
that are able to defeat a threat system irrespective of its targeting 
and guidance systems, propulsion means, or warhead type. In addition, 
fiscal year 2017 funds the development of an ATDS (Detect) to replace 
the Common Missile Warning System.
    In the area of Cross Domain Fires the Army is ensuring that area 
and precision fires capabilities support maneuver BCT core mission 
competencies. The Army is continuing research into improving organic 
BCT Near-Precision and Precision fires, cluster munitions replacement, 
and long-range fire enhancements. In the near-term, the Army will 
continue radar modernization with fielding the Q-50 and Q-53 Radar 
Systems, replacement of Paladin M109A6 with Paladin Integrated 
Management (M109A7), and continued production of Guided Multiple Launch 
Rocket System-Alternate Warhead missiles.
    The Army is committed to providing soldiers with the best 
intelligence tools and technology available. The intelligence 
warfighting function's priority is the Army's Terrestrial Layer, 
followed by the Foundation Layer and the modernization of the Aerial 
Intelligence, Surveillance and Reconnaissance (ISR) platforms and 
sensors within the Aerial Layer. The first priority is the Prophet 
Ground Signals Intelligence (SIGINT) capability. Prophet must be 
constantly modernized to maintain pace with changing global military 
and commercial technologies available to the threat. Prophet will also 
bridge the operational gap until replaced by the future Next-Generation 
Multi-Intelligence Ground Collection System. The second priority within 
the Foundation Layer is a capability that enables processing, 
exploitation and dissemination of information to maintain highly 
accurate situation awareness, such as the Distributed Common Ground 
System-Army (DCGS-A). As we continue to refine and improve the current 
version of DCGS-A, we are committed to a full and open competition in 
fiscal year 2016 to develop, test, and produce the next version of this 
intelligence software system. fiscal year 2017 funding will provide for 
the fielding of enhanced Increment 1, Release 2 capabilities to the 
Force, which improves the tools currently used by soldiers to analyze, 
process, and visualize the information on the battlefield, and support 
Increment 2 development and testing. DCGS-A Increment 2 will provide a 
modernized data management architecture that complies with the Common 
Operating Environment, the Intelligence Community Information 
Technology Enterprise, and the Joint Information Environment; the 
integration of emerging sensor and automation technology; and enhanced 
ease of use and analytic capabilities. Funding also provides for the 
procurement of DCGS-A Tactical Intelligence Ground Stations to equip 
activating Expeditionary Military Intelligence battalions in all 
components.
    The Joint Light Tactical Vehicle (JLTV), a Joint program with the 
U.S. Marine Corps, is the centerpiece of the Army's Tactical Wheeled 
Vehicle modernization strategy and a key enabler of Joint Combined Arms 
operations. JLTV provides the necessary leap in protection, 
performance, and payload--the Iron Triangle--to fill the capability gap 
remaining between the High Mobility Multipurpose Wheeled Vehicle and 
the Mine Resistant Ambush Protected Family of Vehicles. The JLTV is in 
Low-Rate Initial Production. The JLTV program will inform requirements 
for the potential development of a Lightweight Reconnaissance Vehicle 
(LRV).
    The Army and the Department are working to implement the fiscal 
year 2016 National Defense Authorization Act (NDAA) acquisition reform 
provisions to improve the acquisition process by strengthening the Army 
Chief of Staff's voice in the acquisition process as its principal 
customer. There is still more to be done within the Army to streamline 
the process. The fundamental principle is that authority must accompany 
responsibility. To hold the Chief of Staff accountable, he must have 
the authority to fix the Army's process. We will continue to explore 
steps to improve the Army's process.
    The Army will ensure that system requirements are affordable and do 
not add excess technical risk to our acquisition programs. We have 
instituted processes known as Knowledge Points to identify necessary 
requirements trade-offs at key decision points. This process is 
mandatory across all major programs and is a critical factor in 
achieving a more effective, more affordable, and more responsive 
acquisition system. Knowledge Points enable the Army Chief of Staff to 
formally review system requirements throughout the development phase. 
In addition, the Army has instituted affordability caps on new programs 
to make sure that we can sustainably afford the development and 
production costs. For example, we made certain that we could afford 
AMPV at the same time we were producing the Paladin Improvement 
Management howitzer and JLTV.
                        defense industrial base
    Reductions in the Army's modernization account continue to present 
significant challenges for the Defense Industrial Base, especially for 
companies that do not have commercial sales to leverage and for small 
companies that must diversify quickly. In developing our equipment 
modernization strategy, we carefully assessed risks across all 
portfolios to ensure balanced development of new capabilities, 
incremental upgrades to existing systems, and protection of ongoing 
production to sustain the Defense Industrial Base.
    The Army remains concerned about the preservation of key skills and 
capabilities in the manufacturing base for both our original equipment 
manufacturers and their key suppliers. Teaming and collaboration with 
our industrial base partners early in the process helps to reduce risk. 
Where applicable, the Army supports the efforts to develop Foreign 
Military Sales (FMS) and Direct Commercial Sales (DCS) that can also 
help to sustain the Defense Industrial Base.
    The Army's approach to risk mitigation focuses on continuous 
assessment of industrial base risks across all portfolios. Fragility 
and Criticality (FaC) assessments are a critical part of the risk 
mitigation process and identify the fragile and critical portions of 
sectors within the Defense Industrial Base to facilitate risk-
mitigation investment decisions. The FaC information provides Army 
program offices with the ability to accurately gauge how potential 
reductions in funding could affect suppliers that provide the 
capabilities, products, skills, and services needed to maintain 
readiness.
    The Army recently completed studies that independently assess the 
health and risk of the Munition, Combat Vehicle, and Tactical Wheeled 
Vehicle industrial base sectors. In the Combat Vehicle portfolio, 
production of the M109A7 Self-Propelled Howitzer System, the Armored 
Multi-Purpose Vehicle, ongoing FMS, as well as incremental upgrades to 
Abrams, Bradley, and Stryker ensure continuing workload to sustain 
critical skills. In the Army's Aviation portfolio, multi-year contracts 
for the Black Hawk, Chinook, and potentially Apache provide stability 
and predictability to the industrial base while achieving significant 
cost savings for the Army and the American taxpayer.
    The Army continually assesses the health of the organic industrial 
base (OIB), including our depots, arsenals, ammunition plants, 
munitions centers, and Government Owned Contractor Operated (GOCO) 
manufacturing facilities. The Army maintains critical skills sets in 
our OIB by identifying workload to preserve capabilities, exploring FMS 
opportunities, and encouraging our OIB facilities to partner with 
commercial firms and other Department of Defense organizations, such as 
the Defense Logistics Agency, to meet future requirements.
    The fiscal year 2017 budget request fully funds the Army's critical 
equipment readiness requirements and supports 13 million Direct Labor 
Hours (DLH) of work within the depots. The arsenals also anticipate 
executing 1.4 million DLH in fiscal year 2017 to sustain their skill 
sets. This workload will adequately preserve the depot and arsenal 
critical skill sets, with some risk for those systems that have either 
been through reset or RECAP with Congressional support. The Army is 
reassessing the arsenal's critical manufacturing capabilities with the 
Office of the Secretary of Defense and the other Services to ensure 
proper utilization of the arsenals to meet joint readiness 
requirements. Minimum workload levels to sustain these critical 
manufacturing capabilities will inform staffing levels and plant 
capacity to effectively sustain equipment readiness requirements. We 
will continue to modernize Army OIB infrastructure to support 
readiness.
                         capacity also matters
    The modernization priorities described above are critical to 
maintain overmatch against increasingly capable enemies. However, 
modernization alone is not enough. The Army requires ready forces that 
not only possess modern capabilities, but also the capacity to 
translate military objectives into enduring political outcomes. Army 
capacity is critical to deter enemies; reassure allies; surge forces to 
contingencies; control territory; secure populations overseas and in 
the homeland; and regenerate combat power. There is mounting risk 
associated with an Army that could prove too small to execute the 
strategy outlined in the National Military Strategy.
    Current demand exceeds the Army's ability to supply units on a 
rotational basis. Today, the Army is globally engaged with 
approximately 190,000 soldiers supporting Combatant Commanders in 140 
countries. These soldiers conduct combat operations, deter aggression, 
and assure our Allies and partners. In Afghanistan, the Army continues 
to engage the enemy as we work with Allies and partners to train, 
advise, and assist Afghan National Security Forces. In Iraq, we build 
partner capacity to fight the Islamic State of Iraq and the Levant. 
Throughout Africa and the Americas, we partner to prevent conflict and 
shape the security environment. In the Pacific, more than 75,000 
soldiers remain committed, including 20,000 who stand ready in the 
Republic of Korea. In Europe and Asia, Army forces reassure Allies and 
deter aggression.
    An Active Army which currently stands at 482,000 is drawing down 
from a wartime high of 570,000 (1,133,000 Total Force) to 450,000 
personnel (980,000 Total Force) and reducing from 45 to 31 BCTs (59 
Total Force). If sequestration-level cuts are imposed in fiscal year 
2018 and beyond, all components of the Army would be reduced further, 
with active duty end strength decreasing to 420,000, the Army National 
Guard drawing down to 315,000, and the Army Reserves reducing to 
185,000. Those reductions would create unacceptable risk to the nation. 
Insufficient capacity in ready land forces limits options for the 
President, Secretary of Defense, and combatant commanders to respond to 
and resolve crises. Moreover, once cut it is difficult to regenerate 
Army forces rapidly. Growing the Army is difficult, costly, takes time 
due to a lack of manpower, the sophisticated nature of weapons and 
equipment, the importance of training teams on collective and 
individual tasks, and the need for those teams to have experienced 
leaders.
                               conclusion
    U.S. defense strategy requires ready Army forces capable of 
operating as part of joint teams in sufficient scale and for ample 
duration to prevent conflict, shape security environments, and create 
multiple options for responding to and resolving crises. Our risk to 
national security is increasing due to our adversaries improving their 
capabilities, increased global commitments, reductions in Army 
manpower, and reductions in resources for readiness and modernization. 
To mitigate risk, Army leaders prioritize investments to sustain 
readiness and close the most critical capability gaps. We recognize 
that, in our democracy, we get the Army that the American people are 
willing to pay for. It is our job to do the best we can with the 
resources that Congress and the American people provide us.
    Mr. Chairman and distinguished Members of this Subcommittee, thank 
you for your steadfast support for our soldiers, Department of the Army 
Civilians, and Army Families.

    Senator Cotton. General McMaster?

 STATEMENT OF LIEUTENANT GENERAL HERBERT R. McMASTER, JR., USA 
    DIRECTOR, ARMY CAPABILITIES INTEGRATION CENTER; DEPUTY 
 COMMANDING GENERAL, FUTURES, UNITED STATES ARMY TRAINING AND 
                        DOCTRINE COMMAND

    General McMaster. Thank you, sir. Chairman Cotton, Ranking 
Member Manchin, distinguished members of this subcommittee, 
thank you for the opportunity to speak with you today about the 
importance of ready land forces and the enduring need to 
maintain a ready Army with sufficient capacity and capabilities 
to secure our nation.
    As Senator Cotton mentioned already, threats and enemies 
are becoming increasingly capable, and our competitive 
advantages that we have banked on over recent years are 
narrowing. Due to reductions in the size of the Army and 
decreased investments in modernization, as well as the improved 
capabilities of potential enemies, the Army risks losing 
qualitative overmatch in future conflicts.
    With a 74 percent decrease in Army modernization total 
obligation authority since 2008, risk to mission and soldiers 
is increasing. All of today's conflicts are over the control of 
territory, people, and resources. Because the Army is 
foundational to the joint force, the increased risk applies as 
well to joint operations, as well as to soldiers and Army 
units. In particular, we must ensure that combined arms units 
in our Army possess the mobility, the firepower, and the 
protection to defeat the enemy and establish control of land, 
resources, and populations.
    Over the last 15 years of combat operations, our Army has 
focused on winning against enemies in Afghanistan and Iraq. We 
are behind, though, in modernization against current as well as 
future threats. We have no current major ground combat vehicle 
development program underway. With current funding levels, the 
Bradley Fighting Vehicle and the Abrams tank will soon be 
obsolete, but they will remain in the Army inventory for the 
next 50 to 70 years.
    Meanwhile, threats, enemies, and adversaries have been 
modernizing rapidly. To mitigate mounting risk, our Army is 
particularly concerned about developing future capabilities in 
the following areas: combat vehicles, future vertical lift, 
expeditionary mission command or command-and-control 
capability, cross-domain fires, cyber and electromagnetic 
activities, robotic and autonomous systems, advanced protection 
as was already mentioned, and soldier and team performance and 
overmatch in close combat.
    The stakes are high. The combination of increasingly 
dangerous security environment, reductions in the size of the 
Army, decreasing investment in Army modernization, and fiscal 
uncertainty have increased risk to the joint force and to 
national security.
    Mr. Chairman and distinguished members of this 
subcommittee, thank you for the opportunity to speak with you 
today. I look forward to your questions.
    Senator Cotton. General Anderson?

  STATEMENT OF LIEUTENANT GENERAL JOSEPH ANDERSON, USA DEPUTY 
              CHIEF OF STAFF OF THE ARMY (G-3/5/7)

    General Anderson. Thanks, Mr. Chairman. Chairman Cotton, 
Ranking Member Manchin, and distinguished members of this 
committee, thanks for the opportunity to talk to you about the 
Army's fiscal year 2017 PBR [President Budget Request] as it 
pertains to Army modernization. Thanks to all of you for your 
continued support of our soldiers, our families, our civilians, 
and our veterans.
    As you know, the Army remains the world's decisive land 
force. We are currently globally engaged with 187,000 soldiers 
in over 140 countries, while participating in seven named 
operations and rotating forces through Europe, the Pacific, and 
the Middle East. The Army remains the foundation of the joint 
force, and we conduct diverse and enduring missions. We will 
continue to invest in training, equipping, and leader 
development while balancing resources between readiness and 
strength and modernization.
    We require long-term, sustained, and predictable funding to 
meet our demands in today's security environment. The 2015 BBA 
[Bipartisan Budget Act] did provide some short-term relief. 
While the budget provides some predictability, it is 
insufficient to build full-spectrum readiness and modernize our 
equipment at the same time. We assume risk by reducing end 
strength, delaying modernization, and deferring infrastructure 
enhancements to build readiness for today's operating 
environment. These tradeoffs mortgage our future readiness and 
increase the risk of sending undertrained and poorly equipped 
soldiers into harm's way.
    I look forward to working with you to ensure that our Army 
remains the premier land force in the world, and I look forward 
to taking your questions. Thank you.
    Senator Cotton. General Murray?

STATEMENT OF LIEUTENANT GENERAL JOHN M. MURRAY, DEPUTY CHIEF OF 
                     STAFF OF THE ARMY, G-8

    General Murray. Chairman Cotton, Ranking Member Manchin, 
distinguished members of this committee, once again, thank you 
very much for allowing me to testify today on the Army's fiscal 
year 2017 budget request.
    I would simply amplify a couple things that my colleagues 
have already said and the chairman and ranking member have 
mentioned several times, and that is the fundamental issue the 
Army faces each and every time we build a budget, and we are 
facing it right now as we build a team budget, and that is how 
do you balance really the three legs of the stool that we deal 
with when we talk about how we apply our resources. That is 
near-term readiness, that is really manpower or structure, and 
it is modernization/capital investments. It is the balancing 
act between those three that we deal with every time we build a 
budget.
    This budget request in fiscal year 2017 clearly prioritizes 
readiness. It is about a five percent increase in what we have 
asked for in readiness over the 2016 request. At the same time 
we are maintaining end-strength ramp on our way down to 450, as 
directed, and so you pay for that with modernization, capital 
investments in our installation. That is where the bill-payers 
are.
    If you ask me if I am concerned about risk in this budget, 
I would tell you no. I am more concerned about the cumulative 
risk over the last 5 or 6 years because this is exactly the way 
we have built budgets for the last 5 or 6 years. I am more 
concerned about the cumulative effect of the impact on the 
modernization accounts in our installations than I am in 
particular one budget.
    Once again, thank you for your steadfast support for our 
soldiers, our families, our civilians, and our veterans, and I 
very much look forward to taking your questions.
    Senator Cotton. Thank you all.
    I want to return to a concept you all raised in various 
ways. General Williamson, you talked about assuming risk on 
modernization, selectively modernizing targeted investments. 
General McMaster, you talked about the future of the Army and 
the risk we face there. General Anderson, you said we are 
assuming risk in modernization. General Murray, you said that 
you are more worried about the cumulative risk not just of this 
budget but five years of budgets.
    When we prioritize readiness, we are prioritizing the 
training and the safety of the soldiers that we have in the 
Army today downrange, which means that we are putting at 
greater risk the soldiers that we are going to be sending 
downrange in 5, 10, 15 years just to put it in the most 
concrete terms. Is that fair?
    General Anderson. It might be fair, Senator, but I think 
the issue is as we watch the cycle, our job is to--how we make 
sure from home station training, that is some of the money you 
are seeing pulled for readiness out of some of these programs 
to make sure they get better opportunity at home. Before they 
go to one of the training centers, be it at Fort Irwin, be it 
Fort Polk for their validation exercises before they out from a 
training perspective we are okay. The issue is going to be--and 
so far, as we keep doing that for all things Korea, for all 
things Afghanistan, all things Iraq, elsewhere, we are okay on 
a three-to-one cycle rotation.
    The issue is going to be, though, as you allude to, is what 
kit do they bring, as we watch in Europe and elsewhere. That is 
where, as H.R. mentioned, the overmatch piece. That is the 
larger concern of the two.
    Senator Cotton. General McMaster used the term qualitative 
overmatch. Could you explain what you mean by that?
    General McMaster. Yes, sir. We are losing qualitative 
overmatch over our enemies, and that has a lot to do with 
increased enemy lethality and our inability to keep pace in 
protection. You mentioned active protective systems in that 
connection.
    Also, we are seeing some disruptive technologies as our 
enemies really are doing four things that we have to keep up 
with. The first is they are evading our long-range detection. 
Our ability to project power onto land from the aerospace and 
maritime domains obviously is limited based on enemy counter 
actions.
    They are also, though, disrupting what they see as our 
differential advantages, so evading us, disrupting our 
capabilities. We see that with cyber electromagnetic 
capabilities that go after our networks in such a way that we 
cannot rely on the precision strike capabilities that we have 
been able to rely on over the years.
    The other thing that we are seeing disrupted from an enemy 
perspective, disruptive threats are tiered enemy air defense 
capabilities. Russia has established air supremacy over Ukraine 
from the ground, and so how do we contend with that sort of 
environment but then also how do we develop Army capabilities 
that have similar capabilities to those?
    Other capabilities we see emerging are enemy unmanned 
aerial systems, and we do not have an easy fix, a quick fix for 
that now, and we need to develop countermeasures to enemy UAS 
and swarm unmanned or remotely piloted aircraft capabilities.
    What we see Russia put on display in eastern Ukraine is the 
ability to combine these capabilities, to skim social media 
with the cyber capability, to identify a general target area 
then with UAS, and then to use massed artillery fires. We are 
outranged and outgunned by many potential adversaries in the 
future in winning that sort of deep fight against an enemy who 
has long-range capabilities.
    Those are some of the things that we are concerned about, 
sir, and of course with the modernization budget going down and 
we are trying to manage, you know, the programs that are vital 
to Army modernization and we do not have the flexibility really 
to invest in some of these key areas where we see some new 
vulnerabilities or areas that we have to go after with some 
urgency.
    Senator Cotton. General Williamson, did you want to 
respond?
    General Williamson. I did, sir. I wanted to give an 
example. When General McMaster talks about competitive 
advantage--so I am a product of the 1980s. I came in the Army 
in the 1980s. But one of the things I distinctly remember was 
that we wanted to own the night. The investment that we made in 
night vision capability and laser capability gave us a 
competitive edge on the battlefield.
    But what has happened now, separate from a state directing 
investment in something, what has happened now is that access 
to technology, so your ability to go on the Web and order 
something that in the 1980s we spent lots of money developing, 
our adversaries now have more access to things like night 
vision, to communications equipment, and so the investment for 
us is to always be one step ahead of them.
    The agility that you alluded to, the ability to react 
quickly to new threats, to exploit new technologies, that is 
the type of thing that we are looking for because now the 
access to technology is so great.
    Senator Cotton. I just think it is important that we be 
very frank here and that we are not engaged in political spin 
or military jargon. We are prioritizing readiness. I do not 
disagree with that priority. We cannot send our sons and 
daughters into combat today without 100 percent confidence in 
their readiness. If you have a child in our Army who is 20 
years old, they are going to be prepared for the battle 
downrange.
    If you have a child who is 10 years old who is going to be 
in the Army in 10 years, right now, their lives are going to be 
a greater risk because we have systematically underfunded our 
military and specifically Army modernization programs, as 
General Murray said, for the last five years.
    Senator Manchin?
    Senator Manchin. The definition of insanity is pretty well 
defined, I think, and a lot of people back home in West 
Virginia ask and they wonder why we are cutting our military 
back when they see a lot of bad things happening around the 
world, more challenges than ever before. Matter of fact, I 
think it is more challenging now than it was when we had a 
full-fledged cold war going on. I have a hard time explaining 
why we do this, and it seems to me with a rapidly changing 
world that our military is not changing with it.
    I guess I would ask, can you tell the subcommittee what 
exactly are we sacrificing by now focusing more on readiness 
than Army modernization? Does the Army have the capability and 
force structure to confront our modern-day threats? Can you 
discuss some of the differences in force structure and 
capability between today's Army considering today's challenges, 
Russian aggression, Syria, et cetera, and the Army at the end 
of the Cold War? I guess hindsight being 20/20, what would we 
change? What should we be doing different? So----
    General McMaster. Sir, I thought I would maybe talk about 
our projections in the future and then turn it over to Joe and 
Mike who can talk more about----
    Senator Manchin. Okay.
    General McMaster.--today and the demands on the force 
today.
    What we see is--our organization is charged with thinking 
about future conflict, learning in a focused, sustained, and 
collaborative manner about the future under our Force 2025 
Maneuvers, analyzing what we are learning, and then 
implementing changes. To exactly your point, we cannot remain 
static----
    Senator Manchin. Right.
    General McMaster.--if the risks are increasing and the 
security environment is changing. What we have determined and 
what we believe is that the trend that has allowed smaller and 
smaller forces to have a greater and greater impact over larger 
areas on land is reversing. What allowed us to do that was air 
supremacy, the ability to project power onto land. That is 
increasingly challenged now.
    Our enemies are becoming more and more capable based on the 
technology transfer that General Williamson mentioned. They are 
moving into restrictive and urban terrain, and so it is very 
difficult to solve these complex land-based political human 
problems from standoff range or from offshore.
    We believe that the demand for capacity, scale of land 
forces is not only going up today, which Joe Anderson will talk 
to you about, but in the future is going to continue to go up. 
What we see, sir, are trends that indicate that our Army in the 
future risk being too small to secure the Nation.
    You asked for a couple historical examples. One example is 
after the end of the Cold War, 1994, we did the bottom-up 
review----
    Senator Manchin. Right.
    General McMaster.--to see what size the Army should be. 
Remember, the world at the time--I mean, the Soviet Union had 
broken apart, was not a military threat, the Chinese military 
was not modernized, North Korea was not a nuclear power, there 
was no terrorist proto-state in the greater Middle East, Iran 
was not the threat that it is today, and the bottom line number 
for the active Army at the time was 484,000. Now, the active 
force is going down to 450,000.
    Another example is during the height of the wars in 
Afghanistan and Iraq our Army had 170,000 soldiers deployed to 
both those conflicts. Of those, 53,000 were Reserve components, 
so 117,000 in an active Army of 570,000. You will recall that 
some of the statements made at the time were the Army is 
straining to the point of breaking. Now, to go down to an Army 
of 450 with increasing commitments that Joe is going to talk 
about, could we sustain 170,000 soldiers overseas for 
contingency, which is not really a historically high number for 
armed conflict? I think we could not do it, sir.
    I do believe that we are increasing risk for modernization 
as we are talking about here, but to your question, also, as we 
look to the future, increasing risk in terms of the size of the 
total Army going down to the 980 number.
    Joe can talk to you about how today we are having a harder 
and harder time for the smaller force to keep pace with 
increasing demand to deter conflict and to respond to and 
resolve crises overseas.
    General Anderson. The challenge, sir, as H.R. talks about, 
is how do you fill all the requirements? The COCOM [Combatant 
Command] demand is filled 64 percent by the Army, the emergent 
demand is 46 percent of the Army, and that is on the rise, 
while the COCOM demand is plateauing. But the problem with the 
emergent demand in Iraq, Europe, they become enduring. They do 
not become one-time-in like Liberia and out. They become 
enduring requirements.
    In an unclassified mode, though, here as we talk BCTs 
[Brigade Combat Teams] is the simplest formation to use for 
comparison. The bottom line----
    General McMaster. Brigade Combat Team.
    General Anderson.--Brigade Combat Team between North Korea, 
between Russia, between the homeland and the counterterrorism 
fight, that adds up to a 56 BCT requirement, and that is 
exactly what is in the inventory. I am talking that is both AC 
[Active Component] and Guard. Every single piece, every 
particular unit under the Defense Planning Guidance, deny, 
defeat, homeland, counterterrorism, there is the math.
    All that simultaneity, you have to assume that is the case, 
which is what the DPG [Defense Planning Guidance] tells you, 
the Defense Planning Guidance tells you. There is the 
inventory. That is the challenge we have just in sheer end 
strength, as H.R. gave you the 450 number, 335 in the Guard, 
195 in the Reserves. That is the math.
    Senator Manchin. General Murray, I know you wanted to----
    General Murray. No, sir, I was just going to try to answer 
the question you asked up front, and that is what do we 
sacrifice to pay for readiness in fiscal year 2017, and it is 
simple math. It is the aviation modernization that one of you 
talked about upfront, it is we will continue to delay repair of 
critical infrastructure on installations, which we have been 
doing for years, and our MILCON [Military Construction] budget 
is as low as it has been for a very, very long time. That is 
how we are paying for the upfront readiness. It is really in 
the aviation portfolio, it is the sustainment of facilities, 
and the MILCON account.
    Senator Manchin. I am sorry, my time is up.
    General Anderson. Senator, if I could just pile on real 
quick, the readiness of installation affects the training, one-
station training, and that is also being underfunded.
    Senator Cotton. Senator Inhofe.
    Senator Inhofe. You know, I just wish that the general 
public could hear what you have been saying. You know, one of 
the problems that we have is we have a lot of politicians out 
there talking about how we have the best-funded and the best-
prepared talking about--the general public does not know the 
problem that we are having right now. We know. Everyone around 
this table knows, and it is disturbing.
    Again, I point the finger at a lot of people are just not--
a lot of people do not realize--I often say I looked wistfully 
back at the days of the Cold War, you know. Things were 
predictable in those days. Now, we have people, crazy people, 
North Korea, with capabilities that I think are greater than 
our intelligence tells us they are. So, yes, we are in the 
greatest and most threatened position we have ever been in, in 
my view.
    General Williamson, you and I have talked before about this 
disastrous history of our ground fighting vehicles. Remember, 
going back--and I was actually in the House when this first--
and speaking of how sometimes things are not projected 
properly, the last year I was in the House on the House Armed 
Services Committee, we had someone testifying before our 
committee saying that in 10 years we would no longer need 
ground troops.
    Now, you do not know what you are going to have to have in 
the future, but the chairman is right when he says we have got 
to prepare right now for those kids who are 10 years old 
because this is what--they are the ones who are going to be 
paying for what we are not doing right.
    But you remember very well, General Williamson, when we 
went into--they canceled the program after--I think it was an 
$11 billion program, the Crusader program, but they actually 
spent $2 billion on it. In 2002 they cut it. Normally, I like 
to blame Democrats but this was not the Democrats. This was--
and in fact, it was so serious that J.C. Watts, a Congressman 
from Oklahoma, actually retired as a result of that he was so 
upset with that.
    Then, along came the Future Combat System, you know, the 
FCS. Yes, this is going to replace it and they started spending 
money on that, and we all know what happened. They stopped that 
program in 2009. Now, the closest thing we have is going along 
well now called the Paladin PIM [Palidan Integrated 
Management], the PIM program.
    Now, what I would like to extract from you, not that you 
could control uncontrollable things in the future, but that you 
would do everything in your power not to let that program have 
the same fate as the other two programs before that.
    As this happens, we are now dealing with things--sure, you 
have modernized some of these things. Some of these are World 
War II vehicles we are fighting with now. I would like to have 
you tell this committee, General Williamson, your evaluation of 
the PIM program, is it on track now, and your thoughts on that 
program.
    General Williamson. Senator, absolutely. My starting point 
would be some immediate history. I would tell you there are two 
programs on the combat vehicle side that I would tell you I 
think are outstanding programs. The first one would be Paladin 
PIM, and I would like to talk about that for a second. The 
other one would be JLTV [Joint Light Tacticle Vehicle].
    On Paladin PIM, as you alluded to, we made some decisions 
in terms of reprioritization, which left us with a critical 
gap, and what we were facing was really when you canceled the 
non-line-of-sight cannon, you ended up not having an ability to 
deliver fives. The investment that was made in the Paladin PIM 
program, I think, was significant because we were not only 
going to face that gap but we were really pushed up against 
obsolescence of existing systems.
    Today, that program, which went into production, low rate, 
we have produced 18 of those systems, both the support vehicle 
and the Paladin itself. We have delivered 12 of those, and we 
have six awaiting delivery. That program right now is in 
production qualification, and all that means is that they are 
being produced on the line and all we are doing is guaranteeing 
the performance, the reliability, the repeatable processes. To 
date, it has gone so well that we are now looking at awarding 
the full rate production contract so that that can take effect 
in 2017 where we will buy out the remainder, which is roughly 
500 plus systems.
    Sir, if you remember in the beginning of my opening 
statement we talked about some systems we buy new, some we have 
to modernized and modify, and this is an example where we have 
been successful in modernizing a system, bringing additional 
capability, and filling a gap for the Army.
    Senator Inhofe. Okay. That is a very optimistic answer. I 
appreciate that very much. I think you go on to say that you 
will continue to make sure that within your power nothing is 
going to come and deliver a fate to the PIM system.
    General Williamson. Yes, sir. In fact, what I would offer--
and it goes back to Senator Manchin's comment. What I would 
argue today is that the Army is modernized. We are modern, and 
as you look at our 2017 budget request, it includes 
modernization. What really affects us is that we have to slow 
down modernization, so as priorities come up, whether it is 
readiness or something else, we end up stretching out or 
delaying modernization, which adds cost in the long run. Our 
goal is to never let that happen----
    Senator Inhofe. Good. Good.
    General Williamson.--deliver to a schedule and to reduce 
cost and find efficiencies where possible.
    Senator Inhofe. Well, good. I appreciate that. I know my 
time is expired, but let me just ask General Anderson if he 
would, for the record, respond. The reports show that some 250 
vehicles are going to be needed for this European program over 
there, and I would kind of like to see a breakdown as to what 
they are for the record.
    General Anderson. Sure. The breakdown----
    Senator Inhofe. Oh, I mean, you could answer in the record 
if you want to. I do not want to use up all the time.
    General Anderson. Okay. Okay.
    Senator Inhofe. Good.
    Senator Cotton. Senator Heinrich?
    Senator Heinrich. Thank you, Chairman Cotton.
    General Anderson and General Murray, I want to sort of 
return to some of these tradeoffs that are being made between 
modernization and readiness and sort of tell the story of one 
particular facility and then talk more broadly and ask you 
about just how far we are taking those tradeoffs.
    Last year, our 47-year-old communications center and 
network hub that was built actually in 1962 at White Sands 
Missile Range caught fire, and the facility is still relied 
upon to provide critical support for modern missile testing. 
The near meltdown and fire on July 2 of 2015 nearly cascaded 
into a full of electrical fire. It is symptomatic of the stress 
that we are seeing on aging facilities and shortfalls in the 
Army's larger modernization efforts that go with these funding 
levels.
    Despite the urgency to replace that particular facility, a 
MILCON project--and you talked a little bit about how we have 
been underfunding MILCON--was not in this year's budget, nor is 
it planned to be requested by the Department until fiscal year 
2019.
    More broadly, I want to ask you, how are we making sure 
that Army test ranges are appropriately funded or at least not 
pushed, you know, beyond what we can bear and that modern 
infrastructure that is going to be necessary to meet the Army's 
acquisition requirements is being met? How are we working to 
make sure that the workforce behind that at our Army test 
ranges is being maintained as well?
    General Anderson. What I was specifically talking about, 
Senator, was the two parts of the installations, base 
operations sustainment and then sustainment restoration 
modernization, SRM and BOS. That is the stuff that has been 
critically underfunded across all installations. I cannot give 
the specifics of the test range typically running through 
installation. I just command about 50 percent for the last 
three years.
    The issue is how are you catching up and the test 
facilities would fall on the same category. MILCON, though, as 
you know, compete in a whole different----
    Senator Heinrich. Right.
    General Anderson.--pot----
    Senator Heinrich. Yes.
    General Anderson.--based on what the priorities are from 
the readiness projection platforms, two test facilities, two 
labs, et cetera. I would have to get back to you on how that 
was being broken out to compete----
    Senator Heinrich. Yes.
    General Anderson.--but this is the rolling reoccurring 
phenomenon we are dealing with now for the last three plus 
years underfunding in all these facilities and capabilities----
    Senator Heinrich. Right.
    General Anderson.--for a myriad of reasons.
    Senator Heinrich. I think that with MILCON in particular, 
even though we are definitely making tradeoffs, we tend to have 
a long-term plan that seems to be able to mitigate a lot of 
that risk. I would just bring up the issue of the question of, 
are we adequately sourcing and providing for infrastructure at 
our test ranges? Sometimes I think those particular issues do 
not get addressed the same way that some of our other bases and 
facilities do get addressed in the MILCON process.
    General Anderson. I would say the operating force, the guys 
that go and go do things, do get prioritized based on what 
installation you are talking about.
    Senator Heinrich. Great. That is great. I have got, General 
Williamson, a question that is a little different in that if 
you have been following some of the stories coming out of the 
IAEA [International Atomic Energy Agency], some of the stories 
in the open press regarding theft of nuclear materials, the 
IAEA recently warned the international community about this 
increased danger of potential nuclear incidents because we have 
seen theft and misuse of nuclear materials worldwide. We have 
seen some incidences in Mexico and Iraq.
    Such an incident at home or abroad would have real 
implications for servicemen and women who would have to respond 
who would be at risk for radiation exposure or something where 
they do have to respond to that. One of the things that I think 
is essential is that all of our soldiers have the most up-to-
date dosimeter technology to be able to deal with something in 
the case that they had to detect and combat these sorts of 
threats.
    Is it true that the majority of the devices that we use to 
measure radiation exposure for our soldiers were developed back 
in the Cold War with 1960s technology and are lacking the 
ability to relay information the way that modern information is 
typically relayed quickly and precisely in a network sort of 
situation?
    General Williamson. Sir, you are correct. The technology 
that was employed in our existing systems--and specifically we 
have an ANPR 75 dosimeter, and that is what we use within the 
Guard, the Reserve, and the Active Duty forces. It is an 
effective system.
    But I would tell you that after the disaster in Japan, as 
we helped the Japanese Government, one of the things that we 
discovered was I will call it a gap. As you looked at the 
ability to read the response, what we found is that that was 
all kind of manual.
    Senator Heinrich. Right.
    General Williamson. The intent--what we learned there was 
we needed to automate that. We did a joint program. We are 
engaged with the Navy to build a new series of dosimeters. If 
you are familiar with within the Army we have something called 
the Nett Warrior, which takes advantage of commercial 
technologies----
    Senator Heinrich. Yes.
    General Williamson.--and it keeps you--it gives you 
situational awareness. The connection between this new 
dosimeter will be to automatically send those updates so that 
you can get some early warning and reduce the threat of 
exposure.
    Now, right now, that program, the path it is on right now 
will get you to the deployment of new systems in the 2020 time 
frame, and so there is still some development work that has to 
be done and testing, but we think we are on the right path for 
a better dosimeter.
    Senator Heinrich. I have exhausted my time so I will yield 
back, Mr. Chair.
    Senator Cotton. Senator Wicker?
    Senator Wicker. Thank you.
    Lieutenant General Williamson and Lieutenant General 
Murray, on page 11 of your joint statement it says under 
aviation ``The Army continues to invest at a slower pace in 
aviation.'' Let me ask you about the UH-72A Lakota. The Army's 
budget request did not include funding for the Army's only 
light utility class helicopter. However, the Army subsequently 
published an unfunded requirement for 17 Lakotas in fiscal year 
2017.
    When considering readiness as paramount, why did you not 
include any Lakotas in your base budget request? Should you 
lose your UH-72 production capability, what is the Army's long-
term plan to replace and/or conduct major repair and overhaul 
of the Lakotas if there is attrition or loss due to unforeseen 
accidents down the road? Absent other budget considerations, do 
you support Congress funding at least 17 Lakotas in fiscal year 
2017?
    We will begin with Lieutenant General Williamson.
    General Williamson. Sir, from a broader perspective could I 
ask General Murray to start talking about the budget and the 
readiness implications and I can talk programmatic?
    Senator Wicker. That will be very helpful.
    General Murray. Thank you, Senator. There were none in 2017 
because we met our production requirement in 2016 of 427 
aircraft. As you are very familiar, we are using the Lakota in 
a variety of administrative roles and for pilot training. There 
was none in 2017. Basically because we bought what we needed.
    The 17 you are referring to in the UFR [Unfunded 
Requirements] list--it was mentioned earlier--is tied to the 
National Commission recommendations. If those recommendations 
were to be enacted, we require an additional 17 Lakotas at Fort 
Rucker for pilot training. That was to increase--that was to 
account for the increased pilot training load at Rucker based 
upon 72 aircraft, which equals four battalions retained in the 
National Guard in the 11th Cav that has been talked about. That 
is the additional 17 in the UFR request.
    General Williamson. The only thing I would add, sir, is 
that--so for all of our production, whether it is aviation or 
combat vehicles, we really have a test that takes a look at 
criticality and fragility. What is the impact if I slow down/
increase our ability to produce those assets? Right now, 
because there are commercial variants, we are comfortable that 
we could support a smaller number of LUHs being procured this 
year.
    I would go back to something that General Murray said, and 
that is so you cannot do that year after year because what 
happens is, is that--if everyone focuses on the primes, but the 
reality is, is what I am concerned about is all of those small 
businesses that build parts, all of those other things that go 
into the final system, if I do not continue to buy certain 
critical platforms----
    Senator Wicker. Right.
    General Williamson.--we start to lose that portion of the 
industrial base. It has to be a consideration. I am seeing it 
on combat vehicles, I am seeing it in other areas that we have 
to make sure we understand all of the components and who 
manufactures those.
    Senator Wicker. Okay. Well, let me say I am glad that you 
made the last point about the industrial base. I know that it 
has been the position of the Army with regard to other 
important assets that maintaining the industrial base is a 
critical part of that. It gives me some encouragement to hear 
your last statement, and I appreciate that. I hope you will 
continue to work with us on this important issue.
    General Williamson. Yes, sir.
    Senator Wicker. Thank you.
    Senator Cotton. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman. I want to thank 
all of the witnesses for being here with us today.
    General Williamson, it is good to see you again. With or 
without JLTV coming online, I have been told that the Army 
plans to rely on Humvees to comprise the majority of its 
tactical vehicle fleet for decades to come. Is that accurate?
    General Williamson. That is correct, sir. It is part of our 
light tactical vehicle strategy.
    Senator Donnelly. Knowing that we will continue to rely on 
Humvees for another 20 to 30 years, would you agree we need to 
make appropriate investments to sustain and modernize our 
Humvee fleet, placing priority on those areas that are most 
critical to the safety of our soldiers?
    General Williamson. Yes, sir.
    Senator Donnelly. Okay. It has come to my attention that 
the average age of the Humvee ambulance fleet is more than 24 
years, 10 years older than the average of all other Humvee 
variants and more than a decade beyond the point at which these 
vehicles are expected to go without major overhaul.
    While we are working to modernize the Humvee ambulances for 
the Army National Guard, there has not yet been any investment 
like that for the regular Army. Does that concern you or is 
there any plan for that?
    General Williamson. Sir, I am going to have to give you two 
answers.
    Senator Donnelly. Okay.
    General Williamson. One--I would defer to General Murray to 
talk broader in terms of the modernization strategy, but what I 
would offer is that--and I think, sir, in part with your 
leadership, the investment that we have been able to make on 
upgrading existing Humvees within the Guard and Reserve, it has 
been a significant investment for us. I could kind of show you 
the numbers of platforms that we have been able to address. We 
still have more in the future.
    I think what you will find, though, is that the mix between 
the Humvee fleet, the projected JLTV fleet, and then what you 
are going to see with the introduction of the AMPV [Armored 
Multi Purpose Vehicle] gives me a little less concern that we 
will not have that kind of capability gap as you look into the 
future. I ask General Murray if he has any comment.
    General Murray. The only thing I would add to what General 
Williamson said, sir, is add in the MRAP [Mine Resistant Ambush 
Protected] ambulance variant that we still have in the Army in 
quite a few numbers.
    As we look at, you know, at the Brigade Combat Team forward 
level, we are really looking at track solution in terms of 
medical capability, and then really what you are talking about 
is from the BCT back. You are absolutely right; we have not 
figured out exactly what that capability will look like. We 
have several options. MRAP ambulance is one, recapping in the 
AC, and we appreciate the support of Congress with the National 
Guard in terms of their recap for their ambulance or a track 
variant, and that is what we are working through right now.
    Senator Donnelly. Thank you. Generally Williamson, you and 
I have spoken in the past about the Army's assessment that the 
tank transmission industrial base is particularly fragile and a 
critical area to maintain our track vehicle capabilities.
    On a related note, it is my understanding that if the Army 
fields a new armored Brigade Combat Team in Europe, this unit 
will require modernized Abrams tanks and Bradley fighting 
vehicles that are not currently funded. Can you tell us what 
those requirements are and what you require in fiscal year 2017 
to begin this effort?
    General Williamson. Sir, I cannot talk to the specific 
numbers as the G-3 works their way through. I would like to 
address specifically your comment about transmissions both for 
Abrams and Bradleys. I will admit that I am concerned because, 
as a nation, we have gotten to the point where we have really 
one manufacturer of transmissions for our heavy combat 
vehicles.
    Now, I acknowledge that there are people who build 
transmissions, but it is different when you are putting it in a 
combat vehicle that weighs 45 tons or 70 or 80 tons. We are 
engaged with that manufacturer to ensure that we have, one, 
enough workload to ensure that we keep not only the skill sets 
employed but that we also have transmissions to support whether 
it is this deployment in Europe or whether it is to sustain our 
existing platforms.
    Senator Donnelly. Well, I would like to stay in close 
contact with you on this subject because, particularly in this 
area we think in Indiana we have some extraordinary 
transmission capability and the ability to make this mission 
more successful.
    General Williamson. Sir, I will do that. Again, I really do 
appreciate your engagement. This challenge for us on 
transmissions is really reflective of how we have to look at 
the entire industrial base in terms of support to our critical 
assets. Transmissions is one that we will continue to stay 
engaged on.
    Senator Donnelly. Well, thank you all for making sure that 
our soldiers are safe, that they get to come home to their 
families. Your hard work helps to make that possible every day. 
Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair. Gentlemen, thank you 
for joining us here today.
    I am going to tag on just something from what Senator 
Donnelly said, and there has been a lot of discussion about the 
ground combat vehicle program so I will not belabor it, but we 
have a situation right now as well with the Marines where they 
are short amphibious vehicles. We certainly do not want to see 
that gap increase with our war fighters in the Army as well. I 
do want to encourage you to keep working on this issue, and we 
will certainly follow up at a later date with that as well.
    But I would like to go back to small arms modernization. 
This has been kind of a point of issue for me. In the NDAA 
[National Defense Authorization Act] fiscal year 2016 the Army 
and Marine Corps was required to jointly develop a 15-year 
small arms modernization plan. General McMaster, if you can 
address this and just maybe give us the status of the plan.
    The Army is really--we have gone ahead--we have really 
moved ahead with respect to modernization of our battle rifle. 
We have added objects to them, different types of scopes. We 
have added other attachments for the M4 components, floating 
barrels, you know, a longer rail, but these are things that 
have been in the DOD's inventory for quite a while. Our special 
ops folks have used those for many, many years. Is that really 
weapons modernization? You know, if you could just give us an 
update there.
    General McMaster. Yes, ma'am. I know you are familiar with 
all the upgrades that have happened to the various weapons 
systems. You already sort of summarized those. I mean, I think 
it is 90-some upgrades to the old--you know, the M4 today 
versus how it was, you know, 15 years ago or something like 
that.
    The weapons have improved tremendously, but as you know, it 
is a combination of--and you already alluded to this as well--
the optics, the weapon, the ammunition, and the training. There 
have been tremendous improvements across all of those areas.
    But what we are doing now as we look for future force 
development and we are working very closely with the Marine 
Corps Combat Development Command on this as well. It is called 
the Caliber and Configuration study because what you do not 
want is just sub-optimized for an individual soldier. Soldiers 
fight together as teams obviously so you want the squad, upon 
contact with the enemy, to be able to overmatch the enemy in 
close combat. We are looking at what are the configurations of 
calibers and types of weapons systems for small arms, crew-
served weapons, but then also long-range capability and 
shoulder-fire capability.
    That study will be done by the second quarter of fiscal 
year 2017, and that will help us layout the--finalize the 
requirements and then begin to procure or to pursue the 
capabilities associated with how we see the future of squad 
fighting.
    Senator Ernst. Okay.
    General McMaster. There are some new technologies that are 
very promising, light-weight technologies, closed-bolt 
technologies, for example, for automatic weapons systems. We 
have an opportunity, I think, now to integrate a lot of these 
new technologies into the future squad.
    Senator Ernst. Well, I think it is important that we 
remember we have a lot of modernized weapons that will go into 
the special ops community. That is great. They utilize those 
weapons, and they appreciate the advanced features of those 
weapons. Why are we not able to push those out then to our guys 
in the BCTs? You know, Specialist Joe Snuffy would probably 
love to have a rifle that is, you know, being utilized in 
special ops.
    I think they are great. They utilize the technology that 
they have, and why do we not follow through with that and make 
sure other infantry soldiers on the ground are provided with 
those same advantages. That is something to look at.
    As well if we look at, you know, the pistols that we use, 
when is the last time that we upgraded with the pistols? This 
has been a real big issue. It has been bungled, I think, with 
the request for proposals and so forth. General Milley recently 
said you give me $17 million on a credit card and I will call 
Cabela's tonight and I will outfit every soldier, sailor, 
airman, and marine with a pistol for $17 million and I will get 
a discount on a bulk buy, you know, great for General Milley. I 
appreciate him being forthright.
    Why is it so difficult--and this is for General Williamson 
and General Murray--why is it so difficult for the Army to buy 
a basic item like a pistol?
    General Anderson. I agree.
    General Murray. I will start. I would like to be part of 
the deal with General Milley if he can get that many pistols at 
$17 million.
    But, ma'am, to be honest with you, I agree. I mean, we had 
been down a torturous path on this. I think we all know the 
history of it, and General Milley has been very eloquent about 
talking about it.
    But I would just tell you and hope it is reassuring that, 
Senator Cotton, your letter and the authorities given to 
General Milley in NDAA 2016, I will guarantee you he is 
involved in the testing, the requirements, concurrent with the 
source selection when we get to that point, and every intimate 
detail. I mean, General Anderson and I have sat several very 
painful, long meetings with him in the last week or two as we 
dug into how we got to where we are, how we fix this. I think 
you are going to see a pretty good outcome coming out of it.
    Senator Ernst. Okay. Well, I appreciate it. My time is 
expired.
    Gentlemen, I do not mean to make light of this situation, 
and I know General Milley takes this very seriously, but I 
think it really gets to the basic root of the problem that we 
have made this so complicated when it should not be.
    General Murray. Ma'am, if I could add one thing. Special 
ops soldiers in Afghanistan--which I was there 9 months ago--
are carrying the same rifle that our soldiers and infantry 
squads are carrying. They are carrying the M4A1.
    Senator Ernst. Okay. Fantastic. Thank you very much.
    Senator Cotton. I am astonished that a meeting with Mark 
Milley could be painful.
    Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    General Williamson, I understand the Army was required to 
make tough choices for the coming fiscal year, and one of the 
toughest was the decision to cut the funding for the UH-60 
Black Hawk program. Several of my colleagues and I have asked 
the relevant committees to consider the plan to significantly 
scale back on procurement and recapitalization for the 
aircraft.
    If the Army's aviation budget were to be implemented as 
requested in the President's budget, what in your view would be 
the operational impact on units that rely on capabilities 
provided by the Black Hawk? Given the decision to essentially 
swap out the Army National Guard's Apache fleet in exchange for 
more Black Hawks, do you think that impact will be felt 
particularly strongly in that component?
    General Williamson. Ma'am, as the technician sitting at the 
table, I can talk to the programmatic impacts in terms of we 
have negotiated a multiyear contract for the procurement. One 
thing I can tell you that the Army worked hard to make sure 
that even though we had to slow modernization down, we did not 
want to break that multiyear and lose the savings associated 
with it.
    I would ask General Anderson or General Murray to talk 
about the operational impacts.
    General Anderson. As you know, ma'am, the ARI program kind 
of locked in concrete and gave us a way ahead in terms of who 
had to transfer non-NFCA-related or just who had to transfer 
what to maintain the base to pure fleet, divest the Kiowa 
fleet, and make sure we had the appropriate mix between all 
versions from the 64s, to the Black Hawks, to the Chinooks and 
then how we do the unmanned team to make sure our shadows link 
in our Apaches and help us with aerial reconnaissance.
    The plans--everything laid out by that plan is being 
followed through. All transfers are occurring on--this is 
multi-compo issue referred to. All the pieces from the active 
transfers to the Guard, the 60s that are coming out of 1st AD 
Cav and everything going for Drum and Schofield are all on 
progress, are all on time, and so far operationally. But as you 
know, the other components at 11th Cav, we are trying to build 
from the National Commission for Korea to help reduce that 
rotational burn on that peninsula to maintain our three-to-one 
ratio for all of our requirements.
    General Murray. Ma'am, I would just add that out of--the 
Black Hawks were supposed to transfer to the Guard as part of 
the original ARI plan. We are four short right now. Those four 
will be done in June and so we will be complete on that. We are 
still on track to take the last UH-60 Alpha out of the National 
Guard in 2023, the last one out of the active component in 
2025.
    I have seen a lot of numbers about, you know, the 
differences in Black Hawk production, and that was really from 
2016 enacted to the budget request you saw for 2017. We had 
actually planned for less production in 2017 based upon 
requirements.
    The operational piece, I mean, the aircraft are there. They 
are older, but we do not see an operational impact based on 
that because we intend to account for some of that reduction in 
production 2018 and out as we build those budgets, assuming 
that we are not back to sequestration level in 2018.
    Senator Gillibrand. Okay. Another topic, in your joint 
statement recognize the threat posed to our forces in the 
electromagnetic domain, particularly from military rivals with 
near-peer capabilities, for deployed Army forces like those 
stationed on the Korean and Arabian peninsulas, and Eastern 
Europe may be particularly exposed to some of these 
capabilities. Examples of electronic warfare could range from 
spoofing the unit's geolocation to blocking tactical-level 
communications between command and maneuvering units.
    At the appropriate level of classification, can you discuss 
how the Army is orienting itself to the rapidly deployed 
electronic warfare capabilities of certain competitor states? 
In your view, do you believe the Army is identifying and 
fielding new electronic warfare technologies adequately enough 
to keep us up with the rate of change in the operational 
environment?
    General Anderson. Yes, ma'am. We have got a couple of 
things in the works. I think you are familiar with CREW 
[Counter Radio Electronic Warfare], which is the Counter 
Remote. That is the first evolution. That is the 32,000 
platforms that are out there. We do have this new 
multifunctional electronic warfare platform coming along, and 
that is a next-generation requirement. It has both an air and a 
ground component. But right now the CSARs, which is the C-12 
version, does the jamming in the air, and the GATR is a ground 
jammer.
    It is the million-dollar question, how do we make sure the 
technology we produce, the quantity we get out there in 
sufficient scale, you know, but the CREW has been very 
effective as the first whack, but now, again, as we watch what 
is happening--what Russia is doing, we will see what North 
Korea is doing, the question becomes getting the 
multifunctional one further along faster to keep up.
    Senator Gillibrand. Anyone else?
    General McMaster. Yes, I would say, as we look to the 
future, we are not keeping pace with the cyber electromagnetic 
threat. We need to catch up to it. I think it is been a real 
wake-up call, ma'am, in terms of what is going on in Ukraine 
and really not that sophisticated capabilities, and now they 
can challenge our systems.
    What we are doing in the next two months is we have 
convened a team of experts to figure out what can we do now. 
This is again, this relates to the modernization budget. Again, 
our research and development budget has been reduced about 54 
percent since 2008, so we do not have the flexibility we might 
like to have to be able to pile onto these sort of problem 
sets. But this is something obviously we can work with the 
joint community.
    The problem is we rely--we made the assumption several 
years ago that we would be able to achieve and maintain air 
supremacy, and what we have seen an Ukraine is that Russia, 
with its tiered-air defense capability, is not allowing--would 
not allow our systems maybe even--to fly in a scenario. We have 
to regain our competency and our capability of terrestrial-
based electronic workfare, signal intelligence capabilities. 
That is one aspect of it.
    The other aspect, though, is mission assurance for us, as 
you already mentioned, the threat to precision navigation and 
timing. How do we assure our own systems can degrade gracefully 
and operate in a contested and congested cyber electromagnetic 
environment? We have a short-term effort that I mentioned. Joe 
Anderson mentioned some of the long-term capabilities we are 
trying to develop. But what we have seen broadly here is that 
we cannot rely on maintaining dominance in any domain, and we 
need synergistic capabilities across each of our services so we 
can fight together as a team and pose the enemy with multiple 
dilemmas and ensure we can protect our own ability to operate.
    Senator Gillibrand. Thank you. Thank you.
    Senator Cotton. Senator Manchin has another obligation, but 
one more question, so I will turn to him for that question.
    Senator Manchin. I am so sorry. Thank you for the 
consideration.
    By fiscal year 2018 the Army projects its end-strength 
levels to be at 980,000 uniformed personnel; 450,000 to be 
regular Army; 335, Army National Guard; and 195, Army Reserve. 
With all of the new challenges that we have around the world, 
emerging threats and this and that, I guess just cut to the 
quick, is the Army able to meet the security needs of the 
United States with those figures? What do we need to do to 
change that so that we can meet the needs?
    General Anderson. Thanks, sir. I think, as you heard our 
chief testify a while ago, we are at high risk to do that. As I 
rambled earlier about all the plans we have to be prepared to 
defend against, the issue becomes again how do you sustain and 
how do you build combat capabilities. We talked about it takes 
about three years to get a brigade built, but how would you be 
able to sustain the operations I described earlier?
    Again, the best categorization we use or the numbers we are 
going to now are minimally sufficient. But as the chief risk 
assessment to the chairman, it is a high risk for us to support 
things around the globe.
    Senator Manchin. General, the only thing I would say is if, 
you know, if we do not listen to the people that have the 
knowledge such as you on the expertise and we start setting 
caps and different things that basically sound politically 
correct and we can sell them back home, it makes no sense at 
all because when things go to hell in a hand basket, people 
want to make sure we are protecting them.
    I will use basically Afghanistan. You know, how do we get 
to caps of 10? Was that something was right--you know, I am 
sure that there was--and I am not going to put anybody on the 
spot there, but if I am correct, I think that figure was closer 
to be like 13, 13-5, 13-6, so we did not repeat the sins of the 
past as Iraq. But we did not adhere to that.
    I think we are to the point now we want to cut through the 
chafe and get the numbers and see if this committee and this 
subcommittee can work towards getting you the strength that is 
needed.
    General?
    General McMaster. As we look to the future, sir, we think 
that risk will become unacceptable to national security in 
terms of the size of the force, and it is because of what we 
have mentioned. We have been able to have smaller forces have 
bigger impact----
    Senator Manchin. Right.
    General McMaster.--because we were not as challenged in the 
cyber electromagnetic domain, in the aerospace domains. We see 
the demand for land forces going up to do the things you have 
always wanted land forces to do, to defeat enemy organizations, 
but to establish control of territory, which is what all these 
conflicts are about today.
    But then what is really critical is to regard the 
consolidation of military gains politically as an inherent part 
of conflict. When we try to solve complex land-based problems 
exclusively from standoff range, you get a situation like we 
have seen in places like Libya, for example, where you cannot 
consolidate those gains.
    I think the two big implications for land force as we look 
to the future is the consolidation of gains, as I mentioned, as 
an integral part of conflict, and the second of these is the 
importance of land forces to deter enemies and to deter enemies 
not by the threat of punitive action later but by having the 
demonstrated capability to deny the enemy their objectives, 
deterrence by denial.
    These are--as we look to the future and we see the ships 
that have happened quite recently in the geopolitical landscape 
where we see this probing by China, by Russia, I think you make 
the argument by Iran at the frontiers of American power, and as 
these revisionist powers are trying to advance their interests 
at the expense of U.S. interests, it is very important to have 
land forces as a credible deterrent against a revisionist power 
waging the sort of limited wars for limited objectives.
    Senator Manchin. But 980, I am just saying, is there a 
number? Is it going to be 1-1, 1-2, 1-3? Where do we need to be 
as far as our personnel?
    General McMaster. Yes, sir. Sir, we----
    Senator Manchin. Three years out, you know, knowing we have 
emerging threats. I know that is a tough one.
    General McMaster. Sir, I think--I mean, as we look to the 
future that if you look at the--as I mentioned, 484,000 in 1994 
when the world was a much safer place, and I would say we are 
going to 34,000 less in the active force now, that the number 
is, I think, in the future is going to be much larger.
    The thing is, I think, from your perspective as well--not 
to be presumptuous about this--but it is much easier to retain 
a capability than to have to rebuild it. It is much easier to 
maintain a deterrent than to have to rebuild a deterrent 
capability and capacity once it is gone.
    Senator Manchin. Thank you.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman. Gentlemen, thank 
you all for your service. It is appreciated and sometimes we do 
not say it enough, but we appreciate what you do.
    I am going to follow up a little bit on what Senator 
Manchin was working on. Just at the end of my time I would like 
to lay this out for you over the next few minutes. If you 
could, please, if there are just a few items that we as 
policymakers are either doing or that we should not do that 
would be helpful to you in you carrying out your mission, would 
you just--at the end of this would you give us the one or two 
things that you think would be helpful to you in your job, 
okay?
    But let me begin by this: It seems that an important 
consideration of the Army's modernization effort is its cyber 
capabilities. I understand that the Army is undertaking a 
number of significant initiatives in this regard. These include 
the creation of 11 Cyber Protection Brigades in the National 
Guard, a Cyber Center of Excellence at Fort Gordon, Georgia, 
and a separate cyber branch for offices in the same level in 
the Army as other branches.
    Could you share with me a little bit, what is the current 
state of play for these initiatives, and are you seeing any 
problems recruiting and retaining the cyber workforce, both 
military and civilian?
    General Anderson. Yes, sir, thanks. We are building a COMPO 
41--the cyber mission force, active component is 41 teams, 20 
of which are Cyber Protection Teams and the other 20 are Cyber 
Maneuver Teams. The Reserves are building 10 teams, CPTs, and 
the Guard is building 11 teams, sir, CPTs.
    The issue is the timeline, very extensive training. I think 
one of your concerns was the Guard piece. Selecting these folks 
and making sure they can pass all the prerequisites to get to 
the program remain a challenge for both COMPOs. The length of 
training it takes, we are not going to be all fully 
operational, capable until the end of 2018, fiscal year 2018, 
so it is a very long pipeline for the 2017 to build that force.
    The good news is, as you referenced Gordon, the Cyber 
Center of Excellence, great programs, and the synergy they get 
between being co-located with the NSA [National Security 
Agency] makes it very powerful from an operational perspective.
    But twice a year now, EW [Electronic Warfare] cyber, 
heavily focused NTC [National Training Center] rotation January 
and June. Every rotation has a red team and then the hardest 
challenge we are having now is how do you operationalize cyber 
down at the tactical level? How do you help commanders figure 
out how they can shoot things like unmanned aerial systems down 
with these cyber guns? I mean, the technologies are out there, 
the capabilities are out there, but how do we get those deeper 
in our formations than what we have currently now from the 
teams that operate here at Fort Meade and the teams down at the 
Cyber Protection Brigade down at Fort Gordon?
    But it has come a long way, and the Army is now the 
executive agent for the Department of Defense on cyber 
offensive ranges. We are very defensively focused. Now, we are 
working that capability at the Joint Readiness Training Center 
and how that enables skill sets in that function down at Fort 
Polk, so some pretty good things.
    Senator Rounds. I understand that some of the individuals 
and the competencies that you begin with and the built-ins that 
we have got in some cases you may find the competencies that 
you want in some unusual places.
    General Anderson. Right.
    Senator Rounds. In doing so, that it may not fit 
necessarily the traditional individual that you would expect to 
be the next young person you would recruit into the Army. I am 
just curious. What are the challenges in finding the talent 
that it takes with regard to cybersecurity, and how do you 
approach that differently, if you do, than what you what in 
terms of looking for the right people that you would normally 
find in the Army today?
    General Anderson. The problem is they are another one of 
these low-density enabler categories. You are typically robbing 
Peter to pay Paul. For example, the forensic CID [Criminal 
Investigative Division] agents that do all--that can dig into 
computers and find all the stuff in there to figure out what 
you did, we have taken guys like that and brought them into 
cyber, and then you have this criminal investigation command 
complaining because we have taken their high technical experts.
    The problem is, sir, it is competing resources between a 
very limited gene pool. How you recruit, so like the Army Cyber 
Institute that the military academy does and now that we 
actually have an officer commissioning source that actually 
screens those kind of students you are talking about and 
figures out which ones are the better ones to be vectored into 
this highly technical field, that is starting to be one of our 
feeders.
    But it is going to take us a generation to build a 
capability from, you know, the officers that lead the teams to 
the warrants. The warrants, as you can well imagine, are very 
experienced, and the NCOs [Non Commissioned Officers] are 
typically coming out of the intel pool. You are typically 
grabbing intel analyst-type people, and that is the guys and 
gals you see on these teams. It is a nut-and-shell game until 
we get more capacity.
    Senator Rounds. Well, my time is just about up, but with 
the chairman's indulgence, I would just really like to know is 
there something out there, gentlemen, that we can do as 
policymakers that we are not doing or things that you would 
like to share with us that you would like us to do?
    General Anderson. Long-term, predictable, sustainable 
funding.
    General Murray. I would just echo that, sir. I mean, the 
inability to plan budgets year-to-year based upon threat of 
sequestration, continuing resolutions, that really makes, from 
my perspective, the most difficult thing.
    General McMaster. I would say, sir, just recognizing the 
synergy of the joint force and recognizing that investments to 
ensure that we can overmatch the enemy in close combat is as 
important to the investments that we make in the maritime and 
aerospace domains.
    General Williamson. Sir, I would just echo the stability in 
funding, but what I would add is this notion of risk. If you 
want to operate in an environment where we are leading and 
causing our potential adversaries to react to us, it means you 
have to be able to take some risk. That is risk on the science 
and technology, and that is risk in terms of modernization. How 
do we find those things and have the agility and the ability to 
incorporate them very quickly that causes the enemy to have to 
react to us as opposed to us waiting to find out a new 
capability that the enemy has and forcing us to react?
    Senator Rounds. Thank you for your service, gentlemen.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, good to see you all again. I want to go back to 
Senator Manchin's questions about end strength and, you know, 
General McMaster, you mentioned that we could be approaching a 
point at which this is unacceptable, the risk level. But it 
seems to me it is a pretty dramatic statement that the chief 
and the senior leadership in the Army is saying that we are at 
a high risk. I do not know how many other service chiefs or how 
often the Army chief of staff has previously said high risk.
    If you look at just the recent testimony of Secretary 
Carter and General Dunford in front of the SCAS [Senate 
Committee on Armed Services], they all talked about these 
emerging threat environments, all of which have increased. If 
there is one common theme that we have heard in the last year 
is how much the threat environment globally has increased. Yet, 
the glide path to 450 has been straight down.
    There is a number of us--I think it is a bipartisan sense 
that 450 Active Duty force is unacceptable risk. Again, General 
McMaster, you said high risk. You said it is getting to 
unacceptable. My view is high risk from the senior Army 
leadership when they are saying that that is unacceptable risk. 
Do you all agree that 450 then is high risk for the country?
    General Murray. If I could, sir, and just in terms of the--
so it is high military risk is what General Milley said, and 
then he specified that that does not apply to enemies like ISIL 
or the Taliban, the enemies we are currently fighting right 
now. That is high military risk against the near-peer----
    Senator Sullivan. Correct.
    General Murray.--state-type actors. I absolutely agree with 
the high military risk categorization.
    Senator Sullivan. Do you think that--so I would assume 
since General Milley thinks it is high risk, that all four of 
you would agree. Do you think that is unacceptable risk?
    General McMaster. Well, sir, from my personal opinion it 
is. I think that it is unacceptable risk because of a 
combination of factors. This is not a criticism of policy to 
say that it is time to make a reassessment.
    I think you have already recognized, and I think we all 
recognize, that the threats to national and international 
security are increasing. Many of those threats are 
interconnected. It is impossible to remain insulated from a lot 
of these threats.
    As you mentioned, our Army is going to a historic low. In 
terms of active force strengths, the smallest it has been since 
before World War II. We have not been modernized. We did spend 
a lot of money for Iraq and Afghanistan against those enemies, 
but it is not the kind of modernization we will need to fight 
the threats that we see emerging.
    In the recent CSIS [Center for Strategic and International 
Studies] report, they called this, you know, the triple whammy, 
you know, of really, first of all, taking a huge cut that is 
bigger than previous cuts in a postwar period. By the way, it 
is--I am not sure--I do not think it is a postwar period. I 
mean, we are still obviously fighting in Afghanistan and in 
Iraq and across the greater Middle East.
    But the second point is that this previous draw-downs that 
happened after the Cold War, after Vietnam, happened after the 
Army had been modernized considerably. The old Big Five had 
been largely bought out before the end of the Cold War. We have 
not done that, so we are not recently modernized, plus we have 
a big cut.
    The third thing is that the RDT&E [Research Development 
Testing & Evaluation] money has also taken a cut that is at a 
historic high as well. I think the threat is--I think primarily 
the thing that I would personally be most concerned about is 
the size of the total force, but it is that in combination with 
the modernization of resources.
    Senator Sullivan. That is a great answer. Again, I think 
there is a lot of agreement on this committee that 450 is an 
unacceptable risk, and I think a number of us are going to 
start to work to try and reverse that.
    Let me ask just two quick questions. One is kind of 
operational, one is much more strategic. You know, General 
McMaster, you talked about how long it takes to actually stand 
up a unit once you have cut it. How long does it take to stand 
up an airborne unit once you have gotten rid of it?
    I was recently down at JRTC [Joint Readiness Training 
Center] and watched one of our finer airborne BCTs [Brigade 
Combat Team] do their initial forced entry operation, over 800 
soldiers, middle of the night jumping into an airfield, pretty 
awesome instrument of American military power. You cannot grow 
that overnight. How long, if you got rid of an airborne BCT, 
would it take to regenerate that kind of expertise in 
capability?
    General Murray. Sir, we do not have experience rebuilding, 
but, I mean, we do have experience in terms of an Armored 
Brigade Combat Team recently when we grew the Army. When we 
grew the Army to 45 BCTs. We only really grew from scratch one 
BCT, and it was an armored not an airborne, and that was a 31-
month ordeal to grow a BCT, so somewhere in that order of 
magnitude.
    I would just like to clarify one thing that may have come 
off differently. When we collectively say high military risk 
and individually said high military risk, whether that is 
unacceptable or not it is not our position to----
    Senator Sullivan. No, I got that. I said it was 
unacceptable.
    General Murray. Okay.
    Senator Sullivan. I know you did not say that. At a certain 
point I would imagine you would all agree that it is 
unacceptable. I know you did not say that today. I said that 
today, though. Yes, sir?
    General Murray. I mean, all I am saying is basically we are 
happy to identify the risk and then, you know, it is up to our 
civilian leadership to determine whether that is acceptable or 
unacceptable.
    Senator Sullivan. Hearing that the uniformed military 
leadership of the U.S. Army says high risk at 450, in my view 
from this committee's perspective is unacceptable risk.
    Thank you, Mr. Chairman.
    General Anderson. Sir, can I make one comment, though? An 
Airborne Brigade Combat Team is much more lethal effective than 
an Armored Brigade Combat Team, so chances are it is probably 
about 6 years to build one.
    Senator Sullivan. That is what I was thinking as well, but 
I did not say that.
    General Anderson. I knew you would.
    Senator Cotton. Especially if it is based in Alaska 
according to the father protector of the 4th through the 25th.
    Senator Sullivan. Probably the most important Airborne BCT 
in the entire U.S. Army, but we can debate that another time.
    Senator Cotton. General McMaster, to build upon Senator 
Sullivan's comments about 450,000 being an unacceptable risk in 
terms of end strength, there are some ideas in this Congress to 
mandate a higher level than that, say 480, 490, what have you. 
What would be the implications if Congress took that step but 
did not increase funding any?
    General McMaster. Sir, from a historical perspective and 
then, you know, they could answer that from a--it would be 
disastrous in terms of Army readiness. It would be disastrous 
in terms of really--it could be--talking about unacceptable 
risk, it could result in very high risk to not only the mission 
but to soldiers who would not be prepared for combat because 
they have not had the proper training work or could be 
overmatched by an enemy because they had rudimentary equipment.
    As you know, there are a lot of big armies in the world. 
There are some big armies in the world, and many of those 
armies I would welcome--I mean, I would not be really fearful 
of engaging them in close combat because they are not 
sufficiently modernized. They do not have the kind of training 
and leaders necessary to be effective.
    Sir, I would say that really what is necessary for an army 
is to have the balance that Joe Murray talked about earlier.
    General Murray. Chairman Cotton, so the Army will never 
give up the readiness of its formation. If you increase the 
number of soldiers without an increase in top line, we will 
ensure the readiness of our soldiers. What you will do is 
modernization will take another hit.
    At this point, I mean, we cannot stretch out things much 
more than we have. We would have to go in and start canceling 
programs like we do not want to do and slowing down production 
across probably every portfolio to the minimum sustainment 
rate. I mean, so we would further decrement installations, 
MILCON, and modernization to make sure that higher force level 
was trained and ready.
    Senator Cotton. Mandating a higher end-strength without 
increasing funding would mean a hollow force unless you 
borrowed more money from modernization to pay for readiness, 
therefore, further undermining the modernization-readiness 
balance we discussed earlier?
    General Murray. It makes the problem we have right now even 
worse.
    Senator Cotton. General McMaster, roughly how much does it 
cost for, say, 10,000 troops?
    General McMaster. I want to ask Joe Murray about this, but 
the rough figure is typically $1 billion for every 10,000 
soldiers. I think sometimes that--I mean, that sounds like a 
lot. Obviously, it is a lot. But I think when you compare that 
to some of the higher-ticket weapons systems and so forth, you 
know, really what the Army is is soldiers, right, and so that 
is really what gives us the capacity that we need to help 
defend our nation.
    Senator Cotton. Before this Congress considers moving 
forward with mandates on end strength, we need to consider how 
we might pay for that to ensure both readiness and 
modernization.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    I am very concerned about the level of procurement of Black 
Hawks, which have been serving the United States Army for more 
than 35 years, as you observe in your testimonies, the 
workhorse of the Army's aviation force, and it is not only used 
by us, America, not only by you, by our services, but by our 
partner nations across the globe. There have been continuous 
modifications to modernize it, to make it more capable, and to 
implement technology and capacity and efficiency that make it 
increasingly valuable.
    I am very, very concerned that the level of request for the 
fiscal year 2017 budget is inadequate. In fact, I have written 
a letter joined by 13 of my colleagues and 21 Representatives 
expressing concern regarding the need for additional Black 
Hawks in the fiscal year 2017 budget.
    Right now, my understanding is that the requested level is 
36, which is substantially below the projection of last year, 
24 below last year, roughly half of what the Army itself seems 
to believe is necessary to continue with modernizing and 
keeping capable our aviation capability.
    I invite you to comment on the--I ask you to comment on the 
level of the procurement request in the fiscal year 2017 budget 
and focus particularly on how we are raising the cost per unit 
if we lowered the level of procurement and how we may lose the 
defense industrial base that produces these helicopters, 
specifically, the men and women who are highly skilled and 
efficient who may leave because they are in fact laid off, 
particularly in light of the drop-off in commercial production. 
As you know, the commercial side of this industry is very 
challenged at the moment.
    You know this subject better than I. I have suggested some 
questions, and I invite any or all of you to comment.
    General Murray. I will start off, and I am sure General 
Williamson can answer, sir. So--and I am sure General 
Williamson will say this. We did not violate the multiyear 
contract. When we took it down to--and your number is correct; 
36 is in the budget of Black Hawks. That is in accordance with 
the multiyear, and that applies to the Apache and the Chinook 
as well. We will maintain the multiyear contract, maintain the 
workforce.
    You are also correct, a difference of 24 between what was 
enacted in 2016 and what you saw in the best request. When we 
built the 2017 budget before the BBA [Bipartisan Budget 
Agreement] hit and we understood what our top line was going to 
be, we had actually planned to reduce it to 50, so it is 
actually 14 between what we planned and what we put into the 
budget request based upon the BBA.
    It is going to have an impact, but fundamentally, to pay 
for the increase in readiness that the chief's number one 
priority is the near-term readiness, we had to go someplace to 
find that money. It is about a five percent cut in procurement, 
about a five percent increase in readiness. It is almost a 
direct proportion in terms of what we cut.
    We have protected the aviation portfolio for the last three 
or four years based upon our plan originally, the ARI. I just 
remind you that this budget did not account for the National 
Commission's recommendations. This budget was built around ARI. 
The recommendations came in after we had turned in our budget, 
and that is why you see some of the things in our UFR request.
    This year, to find that kind of money for the Army, there 
was about a $2.6 billion bill. We had to go to aviation to find 
that type of money to pay our decrement based upon the BBA. We 
do have plans in the out years, and they are plans, until we 
see what the 2018 budget is going to look like, whether it is 
closer to PB levels or BCA levels. We do have plans in the out 
years to try to buy back some of that divot we would be taking 
in 2017.
    Senator Blumenthal. General Williamson?
    General Williamson. Sir, I just wanted to add a couple 
comments and start by acknowledging at least two of the things 
that you said, and the first is this notion of the Black Hawk 
being a workhorse for us. As you know, at any given time we 
have had over 220 helicopters deployed in support of operations 
in combat, millions of hours of flight in support of our 
troops, and so that helicopter is critically important to us.
    I would echo something that General Murray said in terms of 
we went into this with an awareness of what was that minimum, 
and in this case it was 36. But this is where I would have to 
acknowledge your other point is that when we negotiate those 
kinds of deals, any multiyear, it is with an awareness of what 
gives us some efficiencies in the plant, what affords us the 
opportunity to meet production numbers, all of those things in 
line with the needs of our service.
    But the point that you made about the commercial side is 
really important. On the other side of the table when they are 
negotiating those rates, when they are negotiating that price 
with us, it is in anticipation of understanding what they are 
going to get from commercial sales and also--and this is a 
factor that is not often considered is other sales to our 
allies as an example. As we have seen the stress, if you will, 
in military budget, along with these new pressures on the 
commercial side, that has to be a factor.
    We try to work very closely with our vendors, with our 
partners with an understanding of what happens to their vendors 
and the agreements that they reach with their subs in order to 
give us that price.
    To just finish with something else that General Murray said 
is that as we are continuing to engage with our vendors on the 
aviation side, as well as on the combat vehicle side, we are 
trying to give indications of what goes beyond 2017 so that 
they can think through not only their workforce but also things 
like capital investment or their plant and their facilities and 
also for their machinery. It is not something that we take 
lightly, sir, and we will continue to stay engaged.
    Senator Blumenthal. I appreciate the very articulate points 
that you have made, and I can well understand that you 
appreciate that production of helicopters, production of most 
anything that is so essential to our Army and our military 
cannot be turned on and off like a spigot. It takes planning, 
it takes training of a workforce, it takes capital investment, 
and I am grateful to your sensitivity, and I would like to 
pursue some of these questions.
    This is a very complex and developing situation, and I know 
that we have a common interest in making sure that procurement 
is at a level that we look beyond this fiscal year to what is 
available and at what cost in future fiscal years. I think 
these are all very, very important points.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, I just wanted to end with kind of a broader 
question on how the Army is thinking about broader strategy and 
how we should be thinking about broader strategy. You know, 
General McMaster, you have written about this. You and I have 
both had the opportunity to serve under General Abizaid, who 
has thought a lot about these issues and, you know, when he was 
one of the first military leaders, started talking about the 
long war and thinking about how to address that, he has even 
talked recently about a raid force concept in the Middle East.
    But a lot of that came out during the time when we were not 
also having to think about conventional near-peer situations 
like we do today. How is the Army thinking about kind of 
broader strategy, you know, the long war or whatever else we 
are--that you are thinking about in terms of looking at 2, 3, 4 
years from now, and then how should we be thinking about that 
as well? I open that up to everybody.
    General McMaster. Sir, first of all, I think what we are 
seeing is really the value of forward position, joint forces 
and Army forces in particular, and deterring conflict against 
determined enemies and capable enemies. Obviously, we----
    Senator Sullivan. You mean in foreign countries?
    General McMaster. In foreign countries, sir, so----
    Senator Sullivan. The value of allies is pretty important 
in our----
    General McMaster. Yes, sir.
    Senator Sullivan.--broader strategy. You know, whether it 
is the President in his recent, you know, Atlantic interview or 
some of the candidates on the campaign trail, remarkably, there 
seems to be almost a dismissive attitude towards allies. I 
think it is incredibly shortsighted. The President's comments 
in his recent interview were very shortsighted. I think some of 
the comments coming out of the campaign trail are.
    Allies are critical to forward deployment, correct?
    General McMaster. Yes, sir, and our engagement with those 
allies is what can bolster their will and their capabilities. 
Obviously, we want to deter conflict, and we have succeeded in 
doing so for over 60 years on the Korean Peninsula, over 70 
years since the hit of World War II in preventing great power 
conflict.
    I think as we look at the way that threats to United States 
security are evolving, especially with, you know, the four-
plus-one construct for state actors, these are the revisionist 
powers of Russia and China, along with North Korea and Iran who 
have been taking bellicose and hostile actions, and the plus 
one is transactional terrorist organizations, ISIL [Islamic 
State of Iraq and the Levant] but also al Qaeda and associated 
groups and so forth.
    When we look at what is required to deal with those 
threats, it is a joint force and in particular it places a very 
high demand on ready land forces. I mean, I do not mean to 
sound snide, but, I mean, ISIL does not have a navy or an air 
force, and they are doing okay. The need for ready land forces 
that have the will and the capability to close with capable and 
elusive enemies, enemies that operate in and amongst 
populations and restrictive terrain, who avoid being classified 
as a target from standoff range, and now you combine that with 
enemies that now are demonstrating sophisticated long-range 
capabilities, cured air defense capabilities, creating this so-
called anti-access/area denial threat.
    What we need is we need to maintain ready land forces that 
can deploy rapidly, they can be forward positioned, but then 
also deploy rapidly and then transition quickly into 
operations. Those land forces, I mean, those land forces have 
to have mobility. They have to have protection. They have to 
have lethality.
    I mean, we cannot--a lot of times you will hear the terms, 
you know, light and nimble. Well, you know, Richard Simmons is 
light and nimble, but we do not send him to go do harm to 
somebody or to defend our nation. We need forces that can get 
there and fight once they get there. For us, that is a 
combination of Airborne and Infantry Brigade Combat Teams, 
Stryker Brigade Combat Teams, and Armored Brigade Combat Teams.
    But what we see, to your question about the future, what do 
we see in the future for Army forces? Army forces will have to 
do, as I mentioned, when they have always had to do: defeat 
enemy organizations on the ground, secure territory to deny its 
use to the enemy, protect populations, but now increasingly, 
project power outward from land into the maritime aerospace and 
cyberspace domains in part to help ensure freedom of movement 
and action for maritime and aerospace forces.
    Russia has established air supremacy over Ukraine from the 
ground, for example. China is building landmass in the South 
China Sea to project power outward from that landmass into the 
maritime and aerospace domains.
    What our Army has to do is develop some of these new 
capabilities that allow us to support the joint force better, 
but I think when we see how technology is evolving, threats to 
our security from the shifts in the geopolitical landscape, the 
kind of missions we are going to have to conduct, and the sort 
of--you know, what we have learned from history and what is 
happening today, we see the demand for ready land forces going 
up, not going down.
    Senator Sullivan. Anyone else? Gentlemen?
    General Anderson. I think, sir, the whole--back to your 
Allied peace, that is the whole thing behind the regionally 
aligned forces concept. You know based on the global demand we 
have for all things Iraq, Afghanistan, Kuwait, and the whole 
GRF [Global Response Force] piece, but the bigger issue becomes 
how do we appease, and it is all about the assurance, 
deterrence. We watch this in Europe every single day, as we 
watch and let it resolve, as we work all those nations, and 
from where we are stationing equipment to where we are storing 
equipment to where all the exercises are. But when you run a 
55-exercise activity over the course of a fiscal year, a lot of 
effects in terms of our partners. We are having equal success 
in the Pacific with specific pathways.
    When you look at those two models and the differences it 
makes from Balikatan, Foal Eagle, all the different exercises, 
Cobra Gold, the different exercises that are just going on, it 
is a huge enabler, and we do build some good partner capacity.
    Senator Sullivan. Well, I appreciate the emphasis on allies 
because if you look at our potential adversaries, they all 
seem--whether it is North Korea or Iran or China or Russia, 
they seem to have a hard time collecting any allies, and yet we 
have most of them and yet we are at this interesting period 
where some of the leadership in our country seems to be--right 
at this moment when allies matter more than anything and they 
are part of Army strategy and doctrine, we are being 
dismissive, which I think is shortsighted for our leadership in 
this country. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Senator Cotton. General McMaster, in light of the comments 
you just made, what is your opinion of the Reconnaissance 
Strike Group from recommendation 22 in the Commission report?
    General McMaster. Sir, I think this is a really important 
initiative, and so what we think is--you know, we have some 
opportunities now. If we would have the resources, you know, to 
be able to pursue some of these capabilities, we can integrate 
them into formation.
    The problem we have now that is on the topic of 
modernization is we see some technologies that are very, very 
mature, for example, some new combat vehicle technologies, new 
power train capabilities, demand reduction in terms of, you 
know, hybrid and power and energy capabilities, light weight 
band track, independent suspension, active protective systems, 
improved lethality, but we do not have a place to put those now 
in terms of a prototyping program that is well-funded or a 
combat vehicle program. We need to develop these technologies, 
apply them, combine them so we developed a real no-kidding 
capability but then put them in organizations.
    We think that the trend is combined arms at lower levels. 
The trend is toward longer-range weapon systems. The trend is 
toward integrated air and ground formations. We want to build 
formations that are capable of operating widely dispersed with 
combined arms-air-ground capabilities over wide areas but can 
maintain mutual support, right, because we do not want those to 
be, you know, a bunch of Little Bighorns that occur 
simultaneously across a large area.
    We have to be able to fight together as a team, as part of 
the joint team, and we think this kind of a force, a force that 
can project power at greater range, combine arms-air-ground at 
lower levels, can essentially elevate the tactics of 
infiltration to the operational level.
    This is the kind of ideas that are consistent with 
Reconnaissance Strike Group. We are undergoing a force design 
effort now looking at the Army of 2030 as part of our Unified 
Quest war game. By the end of this calendar year, we are going 
to have some proposals about what we would like future Army 
organizations to look like and how those organizations would 
fight together under realistic conditions and under 
contingencies that we think are plausible in the 2030 time 
frame.
    General Murray. Sir, H.R. was basically talking--I mean, so 
the concepts that General McMaster described apply really to 
all four recommendations in--you know, it was not just the 
Reconnaissance Strike Group. There is no arguing with the 
concepts. The chief is still--we are about a week or two out 
from offering up where the chief is on his thoughts on all 56 
recommendations after the Sec Def, and then we should have 
something over here very shortly after that.
    Senator Cotton. Okay. We have had a good discussion so far. 
I need to close out with just a few specific programs that have 
been touched on earlier but we have not gone into at length. 
First, DCGS: There was a January 2016 DOT&E [Department of Test 
& Evaluation] report about DCGS Increment 1, Release 2, 
concluding that it was operationally effective, operationally 
suitable, and not survivable.
    I have some doubts about the testing parameters that were 
used, also, the inability to get the data that would allow us 
to quantifiably test against critical needs like intelligence, 
fusion, targeting, data synchronization. I also have some 
doubts about the size of the data set, had 191 different 
entries, which are several orders of magnitude about what you 
would see on the combat terrain, and some reports that the 
system had to be rebooted every 20 hours, which is not suitable 
for an operational environment.
    General Williamson, as I mentioned in my opening statement, 
you had said last year that you thought the value of the system 
would be shown by May. Where do you stand on that now on the 
value of the DCGS-A program?
    General Williamson. Sir, I go back to some of the comments 
you just made. Both, first, ATEC, the Army Test and Evaluation 
Command, their assessment was also suitable, effective, and 
survivable and DOT&E's report in terms of operationally 
suitable.
    But I would like to set those aside for a second. Having 
gone out and seen the system and obviously working very closely 
with the PM, we understand that there are additional 
capabilities that are required in that system. On the ground 
what I saw was that the brigade level, that system with trained 
soldiers provides the capability to commander. I think what we 
have seen is that lower echelons we probably--not we probably--
we have to do more to reduce the complexity of the system and 
the ease of use. I think that is what you are going to see in 
Increment 2 of DCGS.
    We have reached out to industry to include three requests 
for information so that we could understand what industry 
believe they could provide in a capability. We had 80 one-on-
one sessions, and we included two industry days where we 
brought in over 240 vendors who said here is what we think you 
need to do. We think we have a path forward on improving the 
usability of that system. From an operational standpoint, I 
pass to General Anderson.
    General Anderson. Yes, sir, we had a mission command summit 
last week. The issue is what does the field want? The field is 
frustrated, as you very much know, and of course the bigger 
challenge is fixed site, static, DCGS, much less challenge, 
deployable, small unit, much more difficult, and battalions are 
having a hell of a time.
    The issue was to try and get a balance between the 129 app 
version that has been developed, down to something between the 
DCGS-Lite, which the SOF has, which is four apps, and we think 
we have come to about 20, so that is what we laid out last week 
at Leavenworth, and now it is back out to the field to say did 
we pick the right apps to give you the COP [Common Operating 
Picture] so your analysts have the tools they need. Then the 
question becomes how do we work the intel-sharing from a 
brigade platform that is less challenged by this, or a 
battalion platform is extremely challenged.
    When I was out at the interview in the fall, not one of the 
six battalion commanders out there underground said that they 
wanted DCGS in their TACs [Tacticle Command Post] but they knew 
they needed the common operating picture tools, and that is----
    Senator Cotton. That is why we hear reports of using 
workarounds like the old pencil and paper----
    General Anderson. Right.
    Senator Cotton.--and PowerPoint----
    General Anderson. Analog, right.
    Senator Cotton. It sounds to me like it is not working very 
well.
    General Anderson. I am going to----
    Senator Cotton. I mean, it works fine if you are an O4 NMI 
and you live it day in and day out. It works less fine if you 
are an E4 in a battalion TAC.
    General Anderson. That is the key, sir----
    Senator Cotton. Expeditious----
    General Anderson.--the training. The bottom line, the young 
E5 who was operating that system--now, 1st AD is a little bit 
separate from the brigade modernization command, but it is the 
big C2 [command and control] facility there right at Bliss, the 
sergeant E5 intel analyst had not touched that machine until 
the first day of the exercise. That is a huge piece of--part of 
the problem.
    General Murray. This time last year, Chairman Cotton, and 
this is differently than obviously a brigade, but I had E4s in 
my division headquarters to section using DCGS in Afghanistan. 
Now, it was not moving every day, but I do agree that we still 
have some issues to work through. But I think one of the 
biggest issues we have to work through is the training piece 
because we are not giving these kids time to train on this 
system before asking them to operate them.
    There are ways that we can get after that. There is a 
facility at Fort Stewart called the IROC [Intelligence 
Readiness Operations Capability] which has DCGS up and running 
every day. I just mandated my DCGS operator. That was their 
place of duty. They were not pulling guard, they were not 
going--they would go to the range and qualify, they would go 
right back to that facility. They knew DCGS in and out, and 
they were operating it each and every day in a garrison 
environment.
    That is the other effort besides the effort to make things 
simpler is to make sure we understand that DCGS is a weapons 
system, and it is just not something you are going to pick up 
like a smartphone and jump on it and get on it. It has got to 
be trained day in and day out whether you are in garrison or in 
a deployed environment.
    Senator Cotton. Okay. I want to move on to the next topic. 
I have to say that I still have my doubts about that. Active 
protection systems for vehicles, I will direct this towards 
General Williamson and maybe General McMaster as our armor 
expert.
    As I mentioned at the outset of my opening remarks, as part 
of the Army's fiscal year 2017 budget proposal, the Army 
reportedly plans to experiment in commercially available active 
protection systems as part of Abrams, Bradley, and Stryker 
survivability enhancements, to put it simply, systems that 
would be able to intercept something like a rocket-propelled 
grenade could you briefly describe the efforts that are planned 
for fiscal year 2017?
    General Williamson. Sir, I will start out by talking about 
the path to 2017, and then I will defer to General McMaster to 
talk about the capability itself.
    As indicated, sir, by yourself and by others on this panel, 
the need to take advantage of these technologies is critical, 
and we are seeing our adversaries start to take advantage. We 
are not unfamiliar with the capabilities of active protection 
systems. We have made choices that we wanted those systems to 
mature from a safety standpoint, from a reliability standpoint, 
and therefore had not employed them.
    What we have seen over the last, I would say, 24 months is 
some advances made both on the commercial side but also by our 
allies in the employment of those systems, and so we have 
reached out to them.
    We have taken two paths, sir. First of all, we started on a 
science-and-technology path with a modular active protection 
system. That system really has three pieces, the first one 
being how do we develop a modular system that gives me, first, 
the ability to sense. How do I detect that something is being 
fired at me? Then the first part will be can I provide an 
obscurant to make it more difficult for something to hit the 
system.
    The second point is the soft-kill capability. Today, if you 
look out at about 90 percent of the weapons that would be fired 
against a platform, those can be deterred by some sort of 
electronic means. Then the third is kinetic. It is directly 
intercepting a system that has been fired at you. That is force 
on force.
    What we know is that some of those technologies are more 
mature than others, and so what we want to do is reach out, and 
we have started out today. We have started that in fiscal year 
2016 to take advantage of existing systems. There are roughly 
four out there that we have considered, and we are now doing 
the integration work on a Bradley, a Stryker, and an Abrams.
    The fiscal year 2017 request allows us to complete that. We 
are coming an above-threshold reprogramming to help us get 
started sooner and to start that effort with our vendors.
    Senator Cotton. General McMaster, do you have anything to 
add?
    General McMaster. Sir, I think you are highlighting an 
immensely important capability. As General Williamson said, we 
have seen these technologies before and we have seen them 
employed.
    I think there are just a few quick points on this is, first 
of all, a lot of times we prose ourselves with a false dilemma 
of either waiting for the perfect capability later or doing 
something now. I think this is a case where we have to do both. 
We need the capability for hard kill, soft kill target 
location, and then we have to integrate that into the formation 
as well. You want to protect an individual vehicle, but you 
want the formation to be protected.
    It is a ground problem, but it is also an air problem now 
with rotary-wing aircraft. Advanced protection systems for 
aviation and for ground and then tied to counter UAS [Unmanned 
Aerial Systems] and C-RAM [Counter Rocket, Artillery, and 
Mortar], or counter-rocket artillery and mortar capabilities. 
We see these technologies having a lot of commonality, and it 
could be tied as well to directed energy, electronic warfare 
capabilities.
    We have to really work hard on a concept to integrate a lot 
of these emerging technologies longer term. But there is an 
immediate threat that we can see now from enemies who possess 
this capability and we do not. We see that with Russia, for 
example.
    Senator Cotton. Given the programs you described, if 
successful, when might we actually see vehicles commanded by 
the next generation of H.R. McMasters downrange in Eastern 
Europe and Middle East with these systems?
    General Williamson. Sir, on the expedited version, taking 
advantage of commercial existing systems, we will do that 
characterization this year, integrate those onto existing 
platforms. Early next year, we will be able to make a decision, 
essentially a go/no-go that says this adds more value and more 
protection than not having it. At that point in 2017 we make 
the decision to start outfitting, equipping systems, and I 
believe that in 2018 you have formations equipped with a 
measure of protection.
    Senator Cotton. Good. I think, as we have discussed, as 
Senator Ernst raised in her questions, this fits in with the 
theme of modernization and readiness. Some of these items, 
because of their availability off the shelf, sit at the 
intersection of readiness and modernization that can be done so 
quickly, that they can actually contribute to readiness today 
for the force as opposed to readiness for the force 10 years 
from now.
    I want to turn to a third topic, activity sets and pre-
positioned stock. I am getting into great detail. These are 
obviously platforms that are designed to support rotational 
troops that are in contingencies in places like Eastern Europe, 
South Korea, so forth. I will throw it up there for whoever 
wants to take it. Activity sets and pre-positioned stocks are 
very equipment-intensive undertakings. We are expanding them 
worldwide. Where do the vehicles and other associated equipment 
in the sets and stocks come from?
    General Anderson. A variety of means, sir. The Europe piece 
first, the European activity set is going to be the first set 
to be converted to start building the first ABCT [Armored 
Brigade Combat Team] APS [Active Protection Systems] set for 
Europe. Starting first quarter 2017 we start deploying heel-to-
toe brigades. The next brigade to do that is 3rd Brigade, 4th 
ID out of Carson.
    They will bring their equipment from home station with 
them, and when that gets delivered to Europe, that EAS stuff 
will get harvested to build the first set of that APS, and then 
the second APS set will get built from the conversion 225 when 
Hawaii converts from a Stryker to a Lite. The Strykers from 
Hawaii will go to the West Coast, the 81st between Washington, 
Oregon, California, that ABCT's kit will get modernized, and 
that will get sent over to be the second set.
    The stretch will be based on what we do with additional 
force structure now based on Korea and elsewhere, where would 
you harvest--how could we possibly harvest based on the Korean 
equipment set on the peninsula based on taking potentially 
somebody's home station set if we have to build more, or do you 
harvest within the APS sets? Like APS-5's kit right now is 
all--the next rotation to Kuwait is also going to be the entire 
brigade comes with all of their kit, and then the kit that is 
being used now in Kuwait for Spartan Shield, that will get 
harvested to get reset back into APS-5. It is kind of a--again, 
between APS and what you may have to pilfer now here at home 
station based on what we do structure-wise or other set-wise.
    General Murray. I would just add, sir, so we have plenty of 
tanks and we have plenty of Bradleys, and it is based upon 
force structure reductions we have had, and we have really 
lightened the force over the last 10 years, so we have many 
fewer armored brigade combats.
    The problem is they are not modernized, and so if you go 
down to Anniston down in Alabama, I mean, we have yards of 
tanks, but it takes money to bring them up to the most modern 
configuration. We have enough Bradleys. Where you get into 
issues is primarily with wheeled vehicles, recovery vehicles, 
engineered, low-density equipment. That is where we have 
equipment issues that you are talking about, new production. 
The way General Anderson kind of laid it out is exactly right.
    The fundamental thing we are kind of struggling with right 
now is how many unmanned sets of ABCT equipment do we really 
want to have? You talked about the value of pre-positioned 
stocks, and I do not disagree with that, but there is also the 
value of having a manned ABCT, and so we are getting to the 
point now where we are going to have to start making some 
decisions about how many unmanned equipment sets we can really 
afford.
    I would just add, General Williamson was pretty specific 
with APS and AT [Anti Tank], and I would say that it is going 
to depend upon funding levels. If, for instance, we were back 
at sequester levels, I would be less confident that we were 
going to be able to do APS and AT and start fielding.
    Senator Cotton. It seems like a challenging balance to get 
back to the pre-positioned activity set. On the one hand, if 
that equipment is needed, you need it to be the most capable 
equipment we have. On the other hand, you might have it sitting 
idle for years at a time.
    General Murray. Yes, sir, and an earlier question was about 
the next generation of Bradleys and tanks, and that is actually 
in the ERI [European Reassurance Initiative] OCO [Overseas 
Contingency Operations] request, and so the 81st equipment that 
General Anderson talked about, the intent is to turn that into 
the SEP A3 and the Bradley V4--other way around--the SEP V3 and 
the Bradley A4 for that second set of ASP stock in Europe.
    Senator Cotton. One final topic, General Murray, obviously, 
aviation has been a main recurring topic of conversation here. 
That is in part because it is pretty expensive, I think 20 
percent of RDT&E, 20 percent of our procurement, but also, as 
we look at some of the capabilities our adversaries have that 
General McMaster has cited, you know, are our rotary-wing 
aircraft able to support troops on the ground given the kind of 
tiered air defense you see from the S300 or S400 systems in 
places like Ukraine or Syria or wherever else Russia might 
position them or sell them?
    General Murray. I will let H.R. kind of tag onto this, too, 
Chairman Cotton, but, I mean, you know, if you have those type 
of active air defense systems, we would have a difficult time 
operating rotary--we would have a difficult time operating 
fixed-wing. I think H.R. will kind of say that is the 
requirement for ground forces because we have always operated--
so, for instance, we have also taken a lot of artillery out of 
our force structure because for the last 15 years we have 
operated under the assumption that we would always have air 
supremacy from our Air Force. We have got a great Air Force, 
but here recently within the last year or two, we have got to 
challenge that assumption. In that type of threat environment, 
no, we could not operate our rotary-wing aircraft.
    You talked about protection, and we have talked about APS. 
APS, as H.R. said, also applies to air. We are probably further 
along with the APS for aviation, our rotary-wing aircraft than 
we are for ground, and we have continued to invest in that as 
well.
    General McMaster. I would just say it would put a premium 
on really operating low level for rotary-wing aircraft. 
Anything that is medium or high altitude is extremely 
vulnerable to the long-range systems. Then as you are operating 
at low level, you really have to ensure mutual support, as you 
know, between ground and air forces and aviation forces. This 
is where the 11th Aviation Brigade comes in as very important 
because we have to train as air-ground teams, develop that 
common understanding of how we provide that mutual support.
    Ground forces clearing, for example, shoulder-fired air 
defense systems so then attack aviation can operate above or 
maybe even slightly behind those ground forces and pose that 
enemy with multiple dilemmas. We want, obviously, our enemies 
to respond to multiple forms of contact simultaneously, 
indirect fire, aviation, ground so that they cannot respond to 
everything that we are doing to them in close combat.
    In those kinds of tiered air defense areas, it put a 
premium on air-ground operations at the lower tactical level 
and ensuring mutual support between our aviators and our 
infantry armored cavalry team.
    Senator Cotton. All right. Gentlemen, thank you very much 
for your time. Thank you very much for a productive 
conversation. Most importantly, thanks for your service to our 
country.
    This hearing is adjourned.
    [Whereupon, at 4:34 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
